No. ____________
IN THE

EDWARD VARGAS,
Petitioner,
v.
CRAIG KOENIG, WARDEN,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

ELIZABETH RICHARDSON-ROYER*
Attorney-at-Law
3739 Balboa St., Ste. 1095
San Francisco, CA 94121
(510) 679-1105
beth@richardsonroyer.com
Attorney for Petitioner
*Counsel of Record
Appointed under the Criminal Justice
Act, 18 U.S.C. § 3006A(a)(2)(B)

QUESTION PRESENTED
Whether the Ninth Circuit misapplied this Court’s precedents in ruling that
Petitioner was not denied fair notice of the charges against him despite the jury
convicting him of conspiring to murder two individuals not named in the
indictment.

i

TABLE OF CONTENTS
Page
QUESTION PRESENTED ............................................................................................. i
TABLE OF CONTENTS ................................................................................................ ii
TABLE OF AUTHORITIES ......................................................................................... iii
PETITION FOR A WRIT OF CERTIORARI ................................................................ 1
JUDGMENT BELOW.................................................................................................... 1
JURISDICTION............................................................................................................. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....................... 1
STATEMENT OF THE CASE....................................................................................... 2
REASONS FOR GRANTING THE WRIT .................................................................... 5
A.

The Ninth Circuit’s Decision Is Contrary to Decisions of this Court. .... 5

B.

This Court Presents an Appropriate Vehicle for this Court to
Reaffirm that the Constitution Requires that a Criminal
Defendant Be Provided Fair Notice of the Basis for the Charges
Against Him.............................................................................................. 7

CONCLUSION............................................................................................................... 7

ii

TABLE OF AUTHORITIES
FEDERAL CASES

Page(s)

Cole v. Arkansas,
333 U.S. 196 (1948) ......................................................................................... 5, 6
Lopez v. Smith,

574 U.S. 1 (2014)................................................................................................ 5

In re Oliver,
333 U.S. 257 (1948) ......................................................................................... 5, 6
Russell v. United States,
369 U.S. 749 (1962) ............................................................................................. 6
Valentine v. Konteh,
395 F.3d 626 (6th Cir. 2005) .......................................................................... 4, 6
Vargas v. Koenig,
829 Fed. Appx. 796 (9th Cir. Nov. 19, 2020) ...................................................... 1
FEDERAL STATUTES
28 U.S.C. § 1254 ............................................................................................................. 1
28 U.S.C. § 2254(a) ..................................................................................................... 1-2
28 U.S.C. § 2254(d) ........................................................................................................ 2

iii

PETITION FOR A WRIT OF CERTIORARI
Edward M. Vargas, Sr. petitions this Court for a writ of certiorari to review
the judgment of the United States Court of Appeals for the Ninth Circuit.
JUDGMENT BELOW
The judgment below is unreported and is included in Petitioner’s Appendix
(“App.”) at 1-4. It is also available at 829 Fed. Appx. 796.
JURISDICTION
Judgment was entered below on November 19, 2020. Pursuant to this Court’s
Order dated March 19, 2020 regarding the COVID-19 public health emergency, “the
deadline to file any petition for a writ of certiorari . . . is extended to 150 days from
the date of the lower court judgment.” Accordingly, the petition is due April 19,
2021. The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution, Amend. VI
“In all criminal prosecutions, the accused shall enjoy the right . . . to be
informed of the nature and cause of the accusation.”
U.S. Constitution, Amend. XIV
“No State shall . . . deprive any person of life, liberty, or property, without
due process of law . . . .”
Title 28 U.S.C. § 2254(a)
“The Supreme Court, a Justice thereof, a circuit judge, or a district court
shall entertain an application for a writ of habeas corpus in behalf of a person in

1

custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United States.”
Title 28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim (1) resulted in a decision that was contrary to, or involved an unreasonable
application of clearly established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.”
STATEMENT OF THE CASE
On May 27, 1992, a multi-count, multi-defendant indictment was filed in the
Santa Clara County Superior Court against a number of members of the Nuestra
Familia (“NF”) prison gang and its feeder organization, Northern Structure (“NS”).
The operative third amended indictment charged 21 codefendants, including
Petitioner Edward Vargas, with conspiring to commit murder as well as various
other offenses. (App. 115-50.) The indictment named 39 unindicted co-conspirators
and listed 96 overt acts. (App. 116-29.) Among the overt acts for the conspiracy
charge (Count One) were five murders and three attempted murders. (App. 119-27.)
Most did not involve Petitioner.

2

With respect to murder, the indictment alleged that Petitioner gave the
“green light,” or authorization, for the murder of a man named Elias Rosas. (App.
159.) The prosecution presented evidence at trial to support this allegation. (See ER
233-55, 366-577, 578-669.)1
The names Alfonso Urango and James Esparza, however, did not appear as
victims anywhere in the indictment. (App. 115-50.) 2 Nor had there been any grand
jury testimony concerning plans or attempts to kill either of these individuals. (See
App. 157.)
At trial, cooperating witness Jerry Salazar nonetheless testified that he and
Petitioner sent two other men to Urango’s door, armed, to kill him. (ER 405-12.)
When Urango’s girlfriend opened the door instead, the plan was abandoned. (ER
411-12; see also ER 276.)
Salazar also claimed that Petitioner ordered him to kill Esparza, whose name
appeared on an NF hit list. (ER 415.) Salazar claimed that the reason he did not
follow the orders was because he believed Petitioner had a personal issue with
Esparza over a girl. (ER 415-16, 565.)
During the jury instruction conference after the close of evidence, defense
counsel objected to any reference to a conspiracy to murder Urango or Esparza,

“ER” stands for the “Excerpts of Record” that were submitted alongside the
opening brief before the Ninth Circuit.
1

Both individuals were named as uncharged co-conspirators. (App. 116-18.)
The indictment also alleged that Urango played a role in transporting firearms for
the gang in April 1991. (App. 121.)
2

3

arguing that those events were neither the subject of any grand jury testimony nor
alleged as overt acts in the conspiracy count. (App. 157.) Counsel argued,
[T]he only evidence we heard was during the course of the
trial from Jerry Salazar and perhaps one other witness.
Mr. Vargas was not in the position where he could
prepare a defense with reference to those allegations since
they didn’t occur until the trial was well in progress. So
any reference to those specific charges as object crimes of
the conspiracy are certainly unfair to Mr. Vargas.
(Id.)
Despite Petitioner’s complaints, the prosecution specifically argued in closing
that the jury could convict on Count One if it found a conspiracy to murder Urango
or Esparza:
Curious about who might be the subjects of the target
crime of murder. Louie Chavez was one. . . . [¶] Ronnie
Shelton later tried to implement that same subject crime.
There were others. There was George Bouldt, remember
Ponche. There was Alfonso Urango. There was Beto Jasso
. . . . There’s Jocko Esparza. That was the man who
Vargas didn’t like because he was apparently having a
sexual relationship with Vargas’ wife Tammy.
(App. 155 (emphasis added).)
The jury convicted Petitioner on Count One without specifying the objects of
the various conspiracies. But at sentencing, the trial court explained that it was
imposing consecutive sentences because of the evidence of murder conspiracies other
than the one involving Rosas, which was charged in the indictment. (App. 152-53.)
And the trial court specifically mentioned Urango and Esparza as victims. (Id.) The
California Court of Appeal subsequently affirmed imposition of consecutive

4

sentences on the same basis—i.e., because there was evidence that Petitioner
conspired to murder individuals other than Rosas. (App. 109.)
The California Court of Appeal rejected Petitioner’s claims that he was
denied due process and fair notice of the charges against him, reasoning that
because the object of the murder conspiracy was not an element of the offense. (App.
108-09.)
Below, the Ninth Circuit rejected Petitioner’s claim on the basis that this
Court had not “clearly establish[ed] the legal proposition needed to grant . . . habeas
relief.” (App. 3-4.)
REASONS FOR GRANTING THE WRIT
A.

The Ninth Circuit’s Decision Conflicts with Decisions of
this Court.

The Sixth Amendment states that “[i]n all criminal prosecutions, the accused
shall enjoy the right . . . to be informed of the nature and cause of the accusation.”
U.S. Const. amend. VI. Similarly, as a matter of due process, it is “clearly
established . . . that notice of the specific charge, and a chance to be heard in a trial
of the issues raised by that charge, if desired, are among the constitutional rights of
every accused in a criminal proceeding in all courts.” Cole v. Arkansas, 333 U.S.
196, 201 (1948); see also In re Oliver, 333 U.S. 257, 273 (1948) (“A person’s right to
reasonable notice of a charge against him . . . [is] basic in our system of
jurisprudence . . . .”).
This Court has clearly established that a defendant must be given sufficient
notice of the charges against him that he will be able to defend against them. See

5

Russell v. United States, 369 U.S. 749 (1962); Cole v. Arkansas, 333 U.S. 196, 201
(1948); In re Oliver, 333 U.S. 257, 273 (1948). The Ninth Circuit was wrong to
conclude otherwise. In particular, that court’s decision cannot be reconciled with
Russell. In that case, the defendants were charged under 2 U.S.C. § 192 with
refusing to answer questions when summoned before a congressional subcommittee.
The indictment, however, failed to identify the specific subjects under inquiry when
the refusal occurred, in violation of the Sixth Amendment. This Court explained,
“The vice which inheres in the failure of an indictment under 2 U.S.C. § 192 to
identify the subject under inquiry is thus the violation of the basic principle ‘that
the accused must be apprised by the indictment, with reasonable certainty, of the
nature of the accusation against him.” Id. at 767.
Nothing in Lopez v. Smith, 574 U.S. 1 (2014), justifies the Ninth Circuit’s
disregard of the well-establish principle requiring fair notice of criminal charges. In
Lopez, this Court merely concluded that the “general proposition that a defendant
must have adequate notice of the charges against him” did not clearly establish a
rule that a defendant is entitled to notice of the legal theory of liability—e.g.,
derivative liability, as opposed to direct. See id. at 4. Petitioner’s claim was not that
he was denied notice of the theory of liability—that theory was conspiracy. His
claim, instead, was that he was denied fair notice of the nature of the criminal
activity with which he was charged. This Court’s authorities and the Constitution
require such notice. This Court should grant the petition for writ of certiorari to
make clear that its decisions have clearly established that a criminal defendant

6

Appendix

Case: 18-15708, 11/19/2020, ID: 11898908, DktEntry: 58-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
NOV 19 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
EDDIE M. VARGAS, Sr.,
Petitioner-Appellant,
v.

No.

U.S. COURT OF APPEALS

18-15708

D.C. No. 5:03-cv-02930-EJD
MEMORANDUM*

CRAIG KOENIG, Acting Warden,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Submitted November 16, 2020**
San Francisco, California
Before: NGUYEN, HURWITZ, and BRESS, Circuit Judges.
Eddie M. Vargas, Sr. was convicted in California of first-degree murder,
conspiracy, and possession of a concealable firearm by a convicted felon in 1997.
His 28 U.S.C. § 2254 petition asserts ineffective assistance because his trial counsel
opposed severing Vargas’s trial from that of his codefendants. Vargas also claims

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

App. 1

Case: 18-15708, 11/19/2020, ID: 11898908, DktEntry: 58-1, Page 2 of 4

he was denied due process when the prosecution introduced evidence about two
attempted murders not listed in the indictment as overt acts of the conspiracy. The
district court denied the petition, and this Court granted a certificate of appealability.
We affirm.
1. Because this case is governed by The Antiterrorism and Effective Death
Penalty Act (“AEDPA”), Pub. L. 104–132, 110 Stat. 1214 (1996), our review of
Vargas’s ineffective assistance claim is “doubly deferential.”

Knowles v.

Mirzayance, 556 U.S. 111, 123 (2009). We ask only whether the state court “could
have reasonably concluded” that Vargas’s counsel was not constitutionally deficient.
See Cullen v. Pinholster, 563 U.S. 170, 194 (2011) (citing Strickland v. Washington,
466 U.S. 668, 691 (1984)). Strickland imposes a “strong presumption that counsel’s
performance was within the wide range of reasonable professional assistance [that]
might be considered sound trial strategy.” Carrera v. Ayers, 670 F.3d 938, 943 (9th
Cir. 2010) (cleaned up).
2. The state court reasonably concluded that counsel’s opposition to severance
did not fall below an “objective standard of reasonableness.” Strickland, 466 U.S.
at 688.

Vargas claims that counsel was ineffective because, unlike him, his

codefendants faced possible death sentences, and the Supreme Court has purportedly
placed the defense bar on notice that death qualification of a jury harms a client not
facing the death penalty. However, the cases on which Vargas relies do not establish

2

App. 2

Case: 18-15708, 11/19/2020, ID: 11898908, DktEntry: 58-1, Page 3 of 4

that principle. In Lockhart v. McCree, 476 U.S. 162 (1986), the Court simply held
that death-qualifying a jury during the guilt phase of a capital trial does not violate
the Sixth Amendment. And, Buchanan v. Kentucky, 483 U.S. 402 (1987), held that
use of a death-qualified jury did not deprive a homicide defendant of his right to an
impartial jury when only his codefendant faced the death penalty.
Counsel opposed severance because he believed Vargas would be “viewed in
a better light by the jury” compared to his more culpable codefendants who faced
the death penalty. Vargas, after hearing counsel’s reasoning, consented to that
decision. This “strategic choice[ ] made after thorough investigation of law and facts
relevant to plausible options [is] virtually unchallengeable.” Strickland, 466 U.S. at
690.1
3. The district court also did not err in finding that Vargas was not deprived of
due process when the prosecution presented evidence of the attempted murders of
two people not named in the indictment as overt acts in furtherance of the conspiracy.
Under California law, identifying the intended victim of a conspiracy to commit
murder is proof of the “means” by which the conspiracy was to be achieved, not an
“element” of the crime. People v. Vargas, 91 Cal. App. 4th 506, 563 (2001).
AEDPA permits relief only when the Supreme Court has established a “specific

1

Because Vargas’s Strickland claim fails at the first step, we do not address
Strickland’s “prejudice” requirement. See Strickland, 466 U.S. at 687.
3

App. 3

Case: 18-15708, 11/19/2020, ID: 11898908, DktEntry: 58-1, Page 4 of 4

rule” that “clearly establish[es] the legal proposition needed to grant . . . habeas
relief.” Lopez v. Smith, 574 U.S. 1, 6 (2014); 28 U.S.C. § 2254(d)(1). Vargas relies
on Cole v. Arkansas, 333 U.S. 196 (1948), and In re Oliver, 333 U.S. 257 (1948).
But, those cases “stand for nothing more than the general proposition that a
defendant must have adequate notice of the charges against him.” Lopez, 574 U.S.
at 5–6.
AFFIRMED.

4

App. 4

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 5 of 114
Case 5:03-cv-02930-EJD Document 255 Filed 03/27/18 Page 1 of 1

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6

SAN JOSE DIVISION

7
8

EDDIE M. VARGAS,

Case No. 5:03-cv-02930-EJD

Petitioner,
9

JUDGMENT

v.
10
11

MIKE KNOWLES,

United States District Court
Northern District of California

Respondent.
12
13

The Petition for Writ of Habeas Corpus having been denied;

14

IT IS HEREBY ORDERED, ADJUDGED AND DECREED that judgment is entered in

15

favor of Respondent.

16
17
18

IT IS SO ORDERED.
Dated: March 27, 2018
______________________________________
EDWARD J. DAVILA
United States District Judge

19
20
21
22
23
24
25
26
27
28

Case No.: 5:03-cv-02930-EJD
JUDGMENT
1

App. 5

ER 1

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 6 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 1 of 70

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6

SAN JOSE DIVISION

7
8

EDDIE M. VARGAS,

Case No. 03-cv-02930-EJD

Plaintiff,
9

ORDER DENYING PETITION FOR
WRIT OF HABEAS CORPUS;
DENYING CERTIFICATE OF
APPEALABILITY

v.
10
11

MIKE KNOWLES,

Re: Dkt. No. 1

United States District Court
Northern District of California

Defendant.
12
13
14

Petitioner Eddie Vargas, represented by counsel, has filed a Petition for a Writ of Habeas

15

Corpus under 28 U.S.C. § 2254 challenging a judgment of conviction from Santa Clara County

16

Superior Court. For the reasons set forth below, the Petition for a Writ of Habeas Corpus is

17

DENIED.

18

PROCEDURAL HISTORY

19

On July 14, 1997, a jury found Petitioner guilty of first degree murder and guilty of

20

conspiracy to commit murder, assault with a deadly weapon, intimidation of witnesses, and

21

possession of a concealable firearm by a convicted felon. Pet. at 9. The jury also found true the

22

criminal street gang enhancement allegations and the prior felony convictions allegation. Pet. at 9.

23

The state trial court sentenced Petitioner to a term of sixty years to life in state prison. Pet. at 9.

24
25

On August 6, 2001, the state appellate court affirmed the judgment. Resp. Ex. 1. On
November 11, 2001, the California Supreme Court denied review. Resp. Ex. 2. On October 1,

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
1

App. 6

ER 2

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 7 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 2 of 70

1

2002, Petitioner filed a pro per petition for a writ of habeas corpus in the California Supreme

2

Court. On April 30, 2003, the petition was denied. Resp. Ex. 3.
Petitioner filed the instant pro per petition for a writ of habeas corpus on June 24, 2003.

United States District Court
Northern District of California

3
4

Dkt. No. 1. In July 2005, the Court granted Petitioner’s motion to appoint counsel. Dkt. Nos.

5

140, 142. The Court stayed the case in November 2008 to allow Petitioner to exhaust new claims

6

in state habeas proceedings, then reopened the case at Petitioner’s request in November 2011.

7

Dkt. Nos. 189, 207. In November 2012, this Court granted Petitioner’s request for a new attorney.

8

Dkt. Nos. 226, 229. On April 3, 2015, Petitioner moved to amend his habeas petition to add the

9

now-exhausted claims. Dkt. No. 240. On August 10, 2016, this Court denied Petitioner’s motion

10

to amend, finding that Petitioner’s new claims were futile because they were procedurally barred

11

or untimely. Dkt. No. 248. Therefore, the only claims before this Court are the claims presented

12

in Petitioner’s June 24, 2003 habeas petition.
DISCUSSION

13
14
15

A.

Factual Background
The following facts are summarized from the opinion of the California Court of Appeal.

16

Resp. Ex. 1. Petitioner was a member of the Nuestra Familia, a prison gang founded in September

17

1968 by inmates at the California State Prison San Quentin. The Nuestra Familia is considered

18

“the most organized prison gang” in the California Department of Corrections and has influence

19

both inside and outside of prison walls. Nuestra Familia membership is a lifetime commitment.

20

According to the Nuestra Familia constitution, leaving the gang is punishable by death. When

21

members defect from the Nuestra Familia, they are usually labeled traitors and killed.

22

One objective of the Nuestra Familia is “to build the organization on the outside, become

23

self-supporting, work with those in alliance, any and all illegal ventures to build the funds that can

24

be utilized to take care of members behind the walls or drug deals on the streets.” To accomplish

25

that objective, the Nuestra Familia has often targeted and killed anyone who opposes the gang,

26

including defectors and rival gang members. In the instant case, the prosecution charged a number

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
2

App. 7

ER 3

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 8 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 3 of 70

1

of crimes that were committed by various members of the Nuestra Familia. Perpetrating such

2

activities was in furtherance of the overriding purpose of the Nuestra Familia—namely, “to

3

establish power through the use of crime, force, and fear, and to use that power to further

4

strengthen and perpetuate itself by killing its enemies, raising money for the gang, and instilling

5

obedience and discipline among its members.”

6
7

crimes. Petitioner was allegedly involved in three incidents along with other Nuestra Familia

8

affiliates such as Bobby Lopez, Jerry Salazar, Roland Saldivar, Louis Chavez, Albert Reveles,

9

Tim Hernandez, and Ronnie Shelton. The Court provides the full summary from the California

10
11
United States District Court
Northern District of California

Petitioner was charged with the murder of Elias Rosas and conspiracy to commit various

12
13
14
15
16
17
18
19

Court of Appeal’s opinion:
D–9. Attempted Murder of Urango
Lopez authorized the murder of Alphonso “Huero” Urango because Urango
“disrespected” the [Nuestra Familia] by not returning two guns, which belonged
to the [Nuestra Familia]. Urango had said that he would trade the guns for a gram
of PCP. Salazar testified that Urango’s offer was “an automatic green light.”
Salazar talked with [Petitioner] about Urango’s murder. In late June, or early July
1991, [Nuestra Familia] members, including Salazar, [Carlos] Mendoza, and
[Petitioner] went to Urango’s apartment to kill him. When they arrived,
[Petitioner] told Saldivar and Mendoza to go to the apartment door, knock on it,
and shoot Urango when he opened the door. When Saldivar and Mendoza
knocked on the door, Urango’s girlfriend, who was eight months pregnant,
answered the door. Saldivar and Mendoza did not have the “guts” to kill Urango
under the circumstances. No further attempts on Urango’s life were made.

20

D–10. Murder of Rosas

21

[Elias] Rosas was a member of the [Northern Structure, a gang subservient to the
Nuestra Familia].

22
23
24
25
26
27
28

On December 31, 1983, two masked men broke into the home of Petra Gonzalez,
who was the mother of Rosas’ girlfriend. Rosas went to Gonzalez’s defense.
After the Gonzalez robbery, and while [Pablo] Pena was in prison with Chavez,
Pena told Chavez that he (Pena) had robbed Rosas’ home, taking drugs. Pena
further told Chavez that he (Pena) believed that Rosas had “snitched on him.”
Chavez stated that even though Rosas was the victim, Rosas should not have told
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
3

App. 8

ER 4

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 9 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 4 of 70

the police because Pena was a member of the [Nuestra Familia] at the time of the
robbery, and Rosas was not.

1
2

In late June 1991, . . . [Petitioner] discussed the Rosas matter with Salazar.
[Petitioner] told Salazar that there was a “green light” on Rosas because Rosas
had “snitched on Pablo Pena, Panther.” However, [Petitioner] wanted to get some
confirming “paperwork” first because if [Petitioner] was wrong and Rosas was
killed, [Petitioner] would be killed. [Petitioner] told Salazar that the [Nuestra
Familia] was not to hunt down Rosas to kill him, but that if [a Nuestra Familia]
member should run across him, Rosas should be killed.

3
4
5
6

On the night of Rosas’ murder, Chavez received a telephone call from Albert
Reveles and Tim Hernandez. Hernandez told Chavez that he was at a home
where Rosas was “running his mouth” about Chavez, saying that Chavez was to
be “hit” by the [Nuestra Familia]. Hernandez asked Chavez what should be done
to Rosas, saying he wanted to kill Rosas. Chavez told Hernandez he did not have
the authority to authorize the murder of Rosas because [Petitioner] was in charge.

7
8
9
10

Chavez contacted Salazar, who set up a three-way telephone conference with
[Petitioner]. In that telephone conference, [Petitioner] approved the murder of
Rosas, saying: “Do what you got to do.” [Petitioner] also told Chavez that he
(Chavez) had the authority to call the hit.

United States District Court
Northern District of California

11
12
13
14

Hours later, Hernandez called Chavez to report that Rosas had been killed.

15

Subsequently, [Petitioner] told Shelton at San Quentin that Rosas was behind
“some drug deal that some drugs were involved and [Rosas] supposedly had
snitched on [Pena] who’s also an [Nuestra Familia] member.” [Petitioner]
admitted to Shelton that he [Petitioner] had called the Rosas “hit.”

16
17
18

D–11. Order to Kill Esparza

19

[James] Esparza was on the [Nuestra Familia] “hit” list that Chavez and Pena had
compiled in 1990. Salazar testified that [Petitioner] had ordered him to kill
Esparza. [Petitioner] told Salazar that Esparza was in trouble because Esparza
was claiming that he was a member of the [Northern Structure], and he was not.
Salazar did not carry out [Petitioner’s] order because he believed that [Petitioner]
had a “personal thing” on Esparza concerning [Petitioner’s] girlfriend.

20
21
22
23

Resp. Ex. 1 at 10–12 (some alterations in original).

24

B.

25
26
27
28

Standard of Review
This Court may entertain a petition for a writ of habeas corpus “in behalf of a person in

custody pursuant to the judgment of a State court only on the ground that he is in custody in
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
4

App. 9

ER 5

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 10 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 5 of 70

1

violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a). The

2

writ may not be granted with respect to any claim that was adjudicated on the merits in state court

3

unless the state court’s adjudication of the claim: “(1) resulted in a decision that was contrary to,

4

or involved an unreasonable application of, clearly established Federal law, as determined by the

5

Supreme Court of the United States; or (2) resulted in a decision that was based on an

6

unreasonable determination of the facts in light of the evidence presented in the State court

7

proceeding.” Id. § 2254(d).

8

“Under the ‘contrary to’ clause, a federal habeas court may grant the writ if the state court

9

arrives at a conclusion opposite to that reached by [the U.S. Supreme] Court on a question of law

10

or if the state court decides a case differently than [the U.S. Supreme] Court has on a set of

11

materially indistinguishable facts.” Williams v. Taylor, 529 U.S. 362, 412–13 (2000). The only

12

definitive source of clearly established federal law under 28 U.S.C. § 2254(d) is the holdings (as

13

opposed to the dicta) of the U.S. Supreme Court as of the time of the state court decision.

14

Williams, 529 U.S. at 412; Brewer v. Hall, 378 F.3d 952, 955 (9th Cir. 2004). While circuit law

15

may be consulted to determine whether the circuit “has already held that the particular point in

16

issue is clearly established by U.S. Supreme Court precedent,” circuit precedent cannot “refine or

17

sharpen a general principle of Supreme Court jurisprudence into a specific legal rule that [the U.S.

18

Supreme] Court has not announced.” Marshall v. Rodgers, 569 U.S. 58, 64 (2013) (per curiam).

19

“Under the ‘unreasonable application’ clause, a federal habeas court may grant the writ if

20

the state court identifies the correct governing legal principle from [the U.S. Supreme] Court’s

21

decisions but unreasonably applies that principle to the facts of the prisoner’s case.” Williams,

22

529 U.S. at 413. “Under § 2254(d)(1)’s ‘unreasonable application’ clause, . . . a federal habeas

23

court may not issue the writ simply because that court concludes in its independent judgment that

24

the relevant state-court decision applied clearly established federal law erroneously or

25

incorrectly.” Id. at 411. Instead, a federal habeas court making the “unreasonable application”

26

inquiry should ask whether the state court’s application of clearly established federal law was

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
5

App. 10

ER 6

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 11 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 6 of 70

1

“objectively unreasonable.” Id. at 409. The federal habeas court must presume correct any

2

determination of a factual issue made by a state court unless the petitioner rebuts the presumption

3

of correctness by clear and convincing evidence. 28 U.S.C. § 2254(e)(1).

4

The state court decision to which § 2254(d) applies is the “last reasoned decision” of the

5

state court. See Ylst v. Nunnemaker, 501 U.S. 797, 803–04 (1991). When there is no reasoned

6

opinion from the highest state court considering a petitioner’s claims, the court “looks through” to

7

the last reasoned opinion. See id. at 805.1 When no state court opinion explains the reasons relief

8

has been denied, “the habeas petitioner’s burden still must be met by showing there was no

9

reasonable basis for the state court to deny relief.” Harrington v. Richter, 562 U.S. 86, 98 (2011).

United States District Court
Northern District of California

10

The U.S. Supreme Court has vigorously and repeatedly affirmed that under § 2254, there is

11

a heightened level of deference a federal habeas court must give to state court decisions. See

12

Dunn v. Madison, 138 S. Ct. 9, 12 (2017) (per curiam); Kernan v. Cuero, 138 S. Ct. 4, 9 (2017)

13

(per curiam); Virginia v. LeBlanc, 137 S. Ct. 1726, 1728 (2017); White v. Wheeler, 136 S. Ct.

14

456, 461 (2015); Woods v. Donald, 135 S. Ct. 1372, 1376 (2015) (per curiam). As the U.S.

15

Supreme Court has explained, on federal habeas review, § 2254 “imposes a highly deferential

16

standard for evaluating state-court rulings and demands that state-court decisions be given the

17

benefit of the doubt.” Hardy v. Cross, 565 U.S. 65, 66 (2011) (per curiam) (quoting Felkner v.

18

Jackson, 562 U.S. 594, 598 (2011) (per curiam) (internal quotation marks omitted)). With these

19

principles in mind regarding the standard and limited scope of review in federal habeas

20

proceedings, the Court addresses Petitioner’s claims.

21
22
23
24
25
26
27
28

1
The outcome in this case will not be affected by the U.S. Supreme Court’s grant of
certiorari and forthcoming decision in Wilson v. Sellers, 137 S. Ct. 1203 (2017). In this case, for
the eleven claims considered by the California Court of Appeal, neither party disputes that this
Court should review the opinion of the Court of Appeal. Moreover, this Court need not consider
hypothetical reasons supporting the Court of Appeal’s decision on those claims because, as
discussed below, the Court of Appeal’s stated reasons provide a sufficient basis to deny
Petitioner’s habeas petition.

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
6

App. 11

ER 7

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 12 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 7 of 70

1

Claims and Analysis

2

Petitioner raises the following fourteen grounds for federal habeas relief:

3

(1) Petitioner contends that he received ineffective assistance of counsel during

4

proceedings on the prosecution’s motion to vacate his plea agreement and that his resulting

5

sentence constitutes cruel and unusual punishment;

6
7
8
9
10
11
United States District Court
Northern District of California

C.

12
13
14
15
16
17

(2) Petitioner contends that the trial court’s restrictions on testimony about the killing of
Paul Farfan violated due process and Petitioner’s right to confront witnesses;
(3) Petitioner contends that the trial court’s restriction of the cross-examination of John
Kracht violated due process and Petitioner’s right to confront witnesses;
(4) Petitioner contends that the trial court’s failure to instruct on second degree murder
violated due process, his right to present a defense, and his right to trial by jury;
(5) Petitioner contends that the trial court’s failure to instruct the jury to decide whether
one or multiple conspiracies existed violated due process and his right to trial by jury;
(6) Petitioner contends that the trial court’s failure to instruct the jury to unanimously agree
on the facts underlying the conspiracy violated due process and his right to trial by jury;
(7) Petitioner contends that he received inadequate notice of the conspiracy charge in
violation of the Sixth Amendment and due process;

18

(8) Petitioner contends that his conspiracy conviction is unconstitutionally vague;

19

(9) Petitioner contends that there was insufficient evidence to support his conviction for

20
21
22
23
24
25
26
27
28

conspiracy to commit murder;
(10) Petitioner contends that the trial court’s failure to modify the withdrawal instruction
violated due process, his right to present a defense, and his right to trial by jury;
(11) Petitioner contends that his consecutive 25-years-to-life sentences for murder and
conspiracy to commit murder violated his right to trial by jury and due process;
(12) Petitioner contends that his visible shackling throughout the trial violated his right to
an impartial jury and due process;
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
7

App. 12

ER 8

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 13 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 8 of 70

1
2

United States District Court
Northern District of California

3

(13) Petitioner contends that he received ineffective assistance of counsel at multiple points
during the litigation; and
(14) Petitioner contends that he was denied his Sixth Amendment right to present a defense

4

of his choosing.

5

Each claim is analyzed in turn below.
Proceedings on motion to vacate Petitioner’s plea agreement

6

1.

7

Petitioner’s first claim relates to the proceedings on the prosecution’s motion to vacate

8

Petitioner’s plea agreement. In March 1993, Petitioner entered into a plea agreement to cooperate

9

with the prosecution. Pet. at 8. The relevant proceedings began in July 1994, when the

10

prosecution moved to vacate Petitioner’s plea agreement on the ground that Petitioner had violated

11

the agreement by providing false material information. Resp. Ex. 1 at 19. In granting the

12

prosecution’s motion, the trial court relied in part on the results of a polygraph examination of

13

Petitioner, which all of the attorneys—including Petitioner’s attorney—had agreed to admit.

14

Resp. Ex. 1 at 19–20. Although Petitioner challenged the propriety of vacating his plea agreement

15

before the California Court of Appeal, he does not renew that challenge here. Instead, he

16

maintains that his attorney provided ineffective assistance of counsel under the Sixth Amendment

17

by failing to conduct an adequate investigation into whether Petitioner would pass a polygraph

18

examination before agreeing to admission. Pet. at 9–10. Petitioner also claims that his resulting

19

sentence of 60 years to life constitutes cruel and unusual punishment under the Eighth

20

Amendment. Pet. at 10–11. The Court addresses these claims in turn.
a.

21
22
23
24
25

Sixth Amendment right to effective assistance of counsel

The California Court of Appeal rejected Petitioner’s ineffective assistance claim,
explaining:
[Petitioner] contends trial counsel deprived him of his Sixth Amendment right to
effective assistance of counsel during the proceedings on the motion to vacate his
plea agreement by failing to fully investigate the likelihood of his passing a

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
8

App. 13

ER 9

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 14 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 9 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

polygraph examination prior to stipulating to the admission of the results of a
polygraph examination. We disagree.
It has repeatedly been held that “‘[a] convicted defendant’s claim that counsel’s
assistance was so defective as to require reversal of a conviction or death sentence
has two components.’ ‘First, the defendant must show that counsel’s performance
was deficient.’ Specifically, he must establish that ‘counsel’s representation fell
below an objective standard of reasonableness . . . under prevailing professional
norms.’” “In addition to showing that counsel’s performance was deficient, a
criminal defendant must also establish prejudice before he can obtain relief on an
ineffective-assistance claim.” “Errorless counsel is not required . . . .”
Moreover, “a court need not determine whether counsel’s performance was
deficient before examining the prejudice suffered by the defendant as a result of
the alleged deficiencies. The object of an ineffectiveness claim is not to grade
counsel’s performance. If it is easier to dispose of an ineffectiveness claim on the
ground of lack of sufficient prejudice, which we expect will often be so, that
course should be followed. Courts should strive to ensure that ineffectiveness
claims not become so burdensome to defense counsel that the entire criminal
justice system suffers as a result.” (Strickland v. Washington (1984) 466 U.S.
668, 697.)
Here, after the prosecution had filed its motion to set aside the plea agreement,
[Petitioner]’s counsel and the prosecutor stipulated that [Petitioner] would submit
himself to a polygraph examination by an expert acceptable to both parties, and
that the results of the test would be submitted to the court to aid it in its
determination of whether [Petitioner] had committed a material breach of the plea
agreement. The defense and the prosecution then mutually agreed on FBI special
agent Ron Hilley to conduct the polygraph test on [Petitioner]. Hilley concluded
that [Petitioner] was deceptive in his answers to the four relevant questions that
were related to a particular inconsistency in [Petitioner’s] statements.
In its order setting aside [Petitioner’s] plea agreement, the court stated that it
relied in part on Hilley’s testimony.
In arguing ineffective assistance, [Petitioner] asserts that “reasonably competent
counsel would not stipulate to the admission of polygraph results without first
conducting some investigation to ensure that the stipulated evidence would be
favorable to [Petitioner].” [Petitioner] points to no place in the record, however,
which would indicate that trial counsel had agreed to the stipulation relating to
[Petitioner’s] polygraph examination without first reasonably informing himself
of the probable outcome of such an examination. [Petitioner] bears the burden of
showing to this court that trial counsel’s agreement to the polygraph examination
stipulation was not an informed decision. . . . “When a defendant on appeal
makes a claim that his counsel was ineffective, the appellate court must consider
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
9

App. 14

ER 10

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 15 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 10 of 70

1
2
3
4
5
6
7

United States District Court
Northern District of California

8

whether the record contains any explanation for the challenged aspects of the
representation provided by counsel. ‘If the record sheds no light on why counsel
acted or failed to act in the manner challenged, “unless counsel was asked for an
explanation and failed to provide one, or unless there simply could be no
satisfactory explanation,” the contention must be rejected.’”
On this record, [Petitioner] has not carried his burden of showing that trial
counsel’s decision was not informed. Presuming an informed decision by trial
counsel, we must further presume that trial counsel’s decision was a tactical
choice which we cannot, for such lack of showing, review in this appeal.
Resp. Ex. 1 at 23–25 (some alterations in original) (some citations omitted).
A claim for ineffective assistance of counsel is subject to the two-prong test set forth in

9

Strickland v. Washington, 466 U.S. 668, 687 (1984). First, Petitioner must demonstrate that

10

counsel’s performance was deficient, i.e., that it “so undermined the proper functioning of the

11

adversarial process that the [proceedings] cannot be relied on as having produced a just result.”

12

Id. at 686–87. In making that assessment, “a court must indulge a strong presumption that

13

counsel’s conduct falls within the wide range of reasonable professional assistance; that is, the

14

defendant must overcome the presumption that, under the circumstances, the challenged action

15

‘might be considered sound trial strategy.’” Id. at 689 (citation omitted). Second, Petitioner must

16

demonstrate that counsel’s deficient performance prejudiced him, i.e., that “there is a reasonable

17

probability that, but for counsel’s unprofessional errors, the result of the proceeding would have

18

been different.” Id. at 694. The U.S. Supreme Court has described Strickland as imposing a

19

“highly demanding” standard which requires the Petitioner to show “gross incompetence” of his

20

attorney. Kimmelman v. Morrison, 477 U.S. 365, 382 (1986).

21

Here, the California Court of Appeal did not unreasonably apply Strickland in concluding

22

that Petitioner failed to show that his lawyer’s performance was deficient. Petitioner makes the

23

bare assertion that “reasonably competent counsel would not stipulate to the admission of

24

polygraph results without first conducting some investigation to ensure that the stipulated

25

evidence would be favorable to [Petitioner].” Pet. at 11. In particular, Petitioner pinpoints his

26

counsel’s failure to “conduct[] a preliminary polygraph examination” of Petitioner. Pet. at 10.

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
10

App. 15

ER 11

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 16 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 11 of 70

1

But Petitioner does not identify any U.S. Supreme Court authority requiring counsel to perform

2

this specific type of investigation.

United States District Court
Northern District of California

3

And Petitioner’s counsel supplies a legitimate basis for his decision. He believed that

4

conducting a preliminary polygraph examination was a bad strategic move. In particular,

5

Petitioner’s counsel thought that he would not be able to conduct a secret preliminary polygraph

6

examination of Petitioner in jail. Resp. Ex. 23. Therefore, if Petitioner’s counsel conducted the

7

preliminary polygraph and Petitioner failed, a subsequent refusal to submit to the prosecution’s

8

requested polygraph could be seen as failure to cooperate and violate Petitioner’s plea agreement.

9

Resp. Ex. 23; Resp. Ex. 8, CT 1301–04. Moreover, Petitioner’s counsel had reason to believe that

10

Petitioner would pass the polygraph. In an earlier meeting with the prosecution, Petitioner had

11

agreed to take a polygraph examination. Resp. Ex. 23. When the judge suggested using a

12

polygraph examination for the hearing on the motion to vacate Petitioner’s plea agreement,

13

Petitioner said that he would pass the test. Resp. Ex. 23; Resp. Ex. 6, RT 17740 (“[Petitioner] said

14

he knew all about polygraphs, he had taken them before and that he could handle it, he could pass

15

it.”). Thus, taking into account “counsel’s conversations with the [Petitioner],” Strickland, 466

16

U.S. at 691, Petitioner’s counsel stated that he believed Petitioner could pass the examination if he

17

told the truth. Resp. Ex. 23. And Petitioner’s counsel conducted the important investigative steps

18

of confirming the qualifications of the polygraph operator to ensure that the results would be

19

accurate. Resp. Ex. 23. In these circumstances, the Court of Appeal did not unreasonably

20

determine that Petitioner’s counsel made an informed tactical decision, especially when Petitioner

21

presented minimal evidence to overcome the “strong presumption that counsel’s conduct falls

22

within the wide range of reasonable professional assistance.” Strickland, 466 U.S. at 689.

23

Petitioner is not entitled to habeas relief on this claim.
b.

24
25
26
27
28

Eighth Amendment prohibition on cruel and unusual punishment

The California Court of Appeal also rejected Petitioner’s Eighth Amendment claim,
explaining:
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
11

App. 16

ER 12

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 17 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 12 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13

[Petitioner] contends his sentence of 60 years to life violates the federal
constitutional protection against cruel and unusual punishment given the improper
vacating of his plea agreement under which he would have served only five years.
The contention is without merit.
[Petitioner] concedes that “a sentence of 60 years to life for murder and
conspiracy is not per se cruel and unusual.” [Petitioner] argues merely that
because the vacation of his plea agreement was invalid, he should have been
entitled to receive the benefit of his bargain, which was a sentence of five years,
and, therefore, the 60-years-to-life sentence imposed on him was cruel and
unusual.
Because we have determined that the trial court committed no error in setting
aside [Petitioner’s] plea bargain, [Petitioner’s] cruel and unusual challenge also
fails.
Resp. Ex. 1 at 23.
It is established that, under the Eighth Amendment’s prohibition against cruel and unusual
punishment, a sentence that is grossly disproportionate to the crime is unconstitutional. See Solem
v. Helm, 463 U.S. 277, 288 (1983); see also Lockyer v. Andrade, 538 U.S. 63, 72 (2003)

14

(“Through this thicket of Eighth Amendment jurisprudence, one governing legal principle emerges

15

as ‘clearly established’ under § 2254(d)(1): A gross disproportionality principle is applicable to

16
17
18

sentences for terms of years.”). The U.S. Supreme Court cases, however, are unclear about what
factors inform or signify gross disproportionality. See, e.g., Harmelin v. Michigan, 501 U.S. 957,
965 (1991) (opinion of Scalia, J.); id. at 998 (Kennedy, J., concurring in part and concurring in the

19

judgment); Solem, 463 U.S. at 294; see also Lockyer, 538 U.S. at 72 (“Our cases exhibit a lack of

20

clarity regarding what factors may indicate gross disproportionality.”).

21

The California Court of Appeal did not unreasonably apply federal law in concluding that

22

Petitioner’s sentence does not violate the Eighth Amendment. Petitioner conceded before the

23

Court of Appeal (and concedes here) that “[a] sentence of 60 years to life for murder and

24

conspiracy is not per se cruel and unusual.” Pet. at 12. Given that proportionality is measured

25

against the crime committed, Solem, 463 U.S. at 288, that concession would appear to end the

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
12

App. 17

ER 13

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 18 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 13 of 70

1

matter. Petitioner nevertheless argues that his sentence is grossly disproportionate to the sentence

2

that he would have received under the plea agreement and the sentence that other defendants in

3

this case received under their plea agreements. Pet. at 12–13. No cited Supreme Court precedent

4

authorizes such comparisons for determining gross disproportionality under the Eighth

5

Amendment. As the California Court of Appeal observed, evaluating Petitioner’s ultimate

6

sentence against the sentence he would have received under his plea agreement is particularly

7

unwarranted because the plea agreement was properly vacated. Resp. Ex. 1 at 23. Moreover,

8

Petitioner’s actual sentence of 60 years to life for murder and conspiracy does not appear grossly

9

out of line with some of the comparator defendants, such as Shelton whose plea called for a

10

sentence of 100 years to life for four murders and Salazar whose plea called for a minimum

11

sentence of 50 years to life. Resp. Ex. 6, RT 10006, 13023. Petitioner has not demonstrated

12

entitlement to habeas relief on his Eighth Amendment claim.

13

2.

Examination of witnesses about the killing of Paul Farfan

14

Petitioner’s second claim is that the trial court improperly precluded Petitioner from

15

conducting direct and cross-examinations about the killing of Paul Farfan. Pet. at 13. Petitioner

16

contends that cooperating witness Salazar would have testified that non-witness Vincent Arroyo

17

ordered Farfan’s murder, whereas Arroyo would have denied that he authorized the murder. Pet.

18

at 13. In Petitioner’s view, that inconsistency would have undermined Salazar’s credibility and

19

would have shown that the prosecution knowingly presented false testimony. Pet. at 13–15.

20

Petitioner argues that prohibiting this testimony was a violation of Petitioner’s Sixth Amendment

21

right to confront witnesses and his Fourteenth Amendment right to due process. Pet. at 14.

22

The California Court of Appeal rejected Petitioner’s claim, explaining:

23

[Petitioner] contends the trial court violated his Sixth and Fourteenth Amendment
rights by precluding him from cross-examining two prosecution witnesses and
conducting direct examination of one potential defense witness regarding the
killing of Farfan, which would have elicited evidence that the prosecution pursued
a flawed policy of presenting unreliable accomplice witnesses against [Petitioner]

24
25
26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
13

App. 18

ER 14

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 19 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 14 of 70

1
2
3

and that a critical witness against [Petitioner] was unworthy of belief.
contention is without merit.

The

Salazar, Arroyo, and Mendoza, who were indicted with [Petitioner] and other
codefendants, entered guilty pleas. The prosecution thereafter called Salazar and
Mendoza to the witness stand, but did not call Arroyo.

4
5
6
7
8
9
10

[Petitioner] joined a defense motion to allow the defense to cross-examine Salazar
regarding the Farfan murder. In particular, the defense wanted to show to the jury
that Salazar had made the statement that Arroyo had authorized Farfan’s murder,
and that Arroyo had denied authorizing Farfan’s murder. The attorney
representing codefendant [James] Trujeque told the court at a bench conference
that “[o]ne of the two of them is lying. And, therefore, there is a problem with the
deals that they’ve cut with the prosecution.” The prosecution objected that the
proffered evidence constituted impeachment on a collateral matter. The court told
the defense that if it decided to bring up the Farfan murder, which happened after
the indictment in this case, it did so at its own risk if the evidence turned out to be
inadmissible because it would require an admissibility hearing.

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

On February 7, 1997, prior to Salazar’s testimony, the court took up the Farfan
issue again. The prosecution argued that evidence relating to the Farfan murder
would be admissible only if Arroyo testified, since evidence of Salazar’s
participation in that murder would then be admissible as a prior bad act for
impeachment; moreover, if Salazar’s testimony was the result of a plea bargain in
which the murder of the Farfan case was dismissed, “then that could be presented
also as an issue, although I would say parenthetically that his testimony [was] not
predicated on the dismissal of the Farfan case.”
The defense agreed with the prosecution that evidence of the Farfan homicide was
admissible only if Arroyo testified. However, counsel for codefendant Trujeque
expressed his intention to attack Salazar’s credibility with the Farfan homicide
because Salazar’s and Arroyo’s statements respecting that homicide contradicted
each other. The court asked Trujeque’s attorney if he intended to call Arroyo as a
witness if the prosecution did not call Arroyo. Trujeque’s attorney responded he
would do so if Salazar testified that Arroyo had authorized Farfan’s murder. The
prosecution stated that it had been informed by Arroyo’s attorney that if the
defense attempted to call Arroyo as a witness, Arroyo would assert his right
against self-incrimination, adding that if Arroyo testified the prosecution would
not grant Arroyo immunity. The court stated it was disposed to allow the defense
to ask Salazar questions relating to the Farfan murder.
On March 17, 1997, just prior to the commencement of Salazar’s crossexamination, the defense brought up again the issue of whether it could ask
Salazar questions on the Farfan homicide and asked the court for a hearing on the
issue. The prosecution restated its intention not to call Arroyo as a witness, and
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
14

App. 19

ER 15

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 20 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 15 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

further told the court that Arroyo’s attorney had informed her that Arroyo “will
take the Fifth and will not testify if called as a witness by the defense.”
The court did not rule on the issue, stating instead that it “would like to see how
the situation develops,” and inquiring of the defense what it intended to ask
Salazar. Trujeque’s attorney responded that he would ask Salazar if he (Salazar)
had ordered Farfan’s murder. If Salazar answered he did not, he (Trujeque’s
attorney) would then ask Salazar if Arroyo did. The court stated: “Well, let me
indicate this, Mr. Salazar has made it clear in no uncertain terms he’s testifying
truthfully and turned his life around. If you want to impeach his claim of
truthfulness by asking him whether he was involved in the Farfan murder, you
can. If you, and, I take it, if you do, that’s a prerequisite to impeaching him,
assuming that he says he was not. [¶] As far as going any further with this
witness as to who ordered it and that sort of thing, that’s premature. That sounds
like you’re attempting to set up impeachment of Arroyo. He has not testified yet.
We don’t know if he’s going to testify. Should he testify, we can revisit the
issue.”
On March 18, 1997, during Salazar’s cross-examination, the defense explained its
theory of admissibility, which was that the Farfan homicide was an impeachable
offense as to Salazar, and would further show that Salazar had a reason not to be
truthful about his role in that homicide because his plea agreement was
conditioned upon his non-involvement in it. The court replied that if it let in any
mention of the Farfan homicide, it would let in all facts surrounding that
homicide.

15
16
17
18
19
20
21
22
23
24
25
26
27
28

[Petitioner] joined the motion to allow Salazar to be examined about the Farfan
homicide.
The court denied the defense request, stating: “[M]y ruling at this point subject to
counsel persuading me differently is that that subject is not to be covered in crossexamination. I will sustain the [Evidence Code section] 352 objection. In so
doing I’m considering the amount of time that we would have to devote to the
Farfan matter. But more than that, I’m also considering everything I’ve heard in
cross-examination so far, and I used the term ammunition, it’s not a legal term.
There’s been a wealth of evidence that has been used so far to attack the
credibility of this witness, and what has occurred so far during cross-examination.
And it seems to me the Farfan matter isn’t something crucial. So I find the
relevancy to be substantially outweighed by undue consumption of time and
confusing the issues.”
On March 19, 1997, the court allowed the parties to discuss the Farfan homicide
issue further. The defense made an offer of proof that included the following: (1)
Salazar’s ex-wife became romantically involved with Farfan in the late summer of
1992, and the two lived openly together in January 1993; (2) Salazar knew that
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
15

App. 20

ER 16

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 21 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 16 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

his ex-wife was living with Farfan; (3) Salazar stated in his June 23 statement to
the police that while he was in a holding cell in early 1993, he heard Arroyo say
that a “green light” should be placed on Farfan because Farfan had cheated the
[Nuestra Familia] out of its money; (4) in September 1993, Farfan told parole
agent E.J. Allen that his (Farfan’s) life was in danger because he was dating
Jessica Salazar and another woman; (5) Farfan was murdered on September 27,
1993; (6) Salazar met Louis Oliverez in 1989; (7) on October 7, 1993, Nancy
Hermocillo told the police that on September 23, 1993, which was four days prior
to Farfan’s murder, she was at a friend’s house and overheard a telephone
conversation between Salazar and Oliverez wherein Salazar had asked Oliverez to
kill Farfan; and (8) Salazar’s plea agreement was conditioned upon Salazar’s
noninvolvement in the Farfan murder.
On March 26, 1997, the court once more denied the defense motion, reasoning
that the prosecution did not intend to call Arroyo as a witness. The court admitted
that the proffered evidence was relevant, but found it inadmissible under Evidence
Code section 352 because admission of the evidence would confuse the jury and
consume an undue amount of time. The court explained: “The issue of the
admissibility of testimony concerning Paul Farfan, as I recall, arose in the context
of a discussion at the bench where it was anticipated that Mr. Salazar and Mr.
Arroyo would both testify. And the offer of proof was that their testimony would
conflict as it relates to the subject of the green light on Paul Farfan, thus
establishing that someone’s not telling the truth, whether it’s Mr. Salazar or
whether it is Mr. Arroyo. And at that time, as I recall, I indicated preliminarily
that I would allow some questioning in that area. [¶] Now, since that discussion,
my understanding at this point is that Mr. Arroyo is not going to be testifying as a
witness. That may change. If he does testify as a witness, this issue undoubtedly
will be revisited, because I invite Mr. Mayfield [counsel for Trujeque] to revisit
the issue. But the issue is not squarely before the court now. [¶] . . . [¶] The
issue as I indicated is a [Evidence Code section] 352 issue. It is not a relevancy
issue because obviously this testimony satisfies in my opinion the defense of
relevant evidence in California. But being a [Evidence Code section] 352 issue,
the court has to look at the probative value and weigh it against the possibility of
confusing the issues, principally confusing the jury as well as the undue
consumption of time. [¶] Now, the justification for offering this testimony in a
very general sense is two-fold. One, it’s the credibility of Jerry Salazar. And
then, No. 2, something that I have quite—I have not completely understood, that
is, Mr. Selvin [counsel for codefendant Herminio Serna], the argument about the
theory—the theory of the conspiracy, its admissibility under the theory of the
conspiracy. [¶] . . . [¶] Credibility is a very broad term. Whether they’re talking
about credibility in a general sense that Jerry Salazar is a liar or in a more specific
sense that he’s a liar in this particular case, has lied, and even more particularly
has violated the plea agreement by not telling the truth. We’re still talking about
credibility. [¶] . . . [¶] [S]o far as it relates to Mr. Salazar, he has been
impeached about prior inconsistent statements in a number of instances by
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
16

App. 21

ER 17

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 22 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 17 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

defense counsel. Additionally, he’s admitted lying in the past, and not just as it
relates to the June ’93 interview, but he has been compelled or persuaded to admit
that he lied in other instances on the witness stand. [¶] Defense counsel certainly
can argue the significance of his inconsistent statements, certainly can be argued
that he has lied and is in fact an admitted liar. [¶] But not only that, as it relates
to the use of the Farfan murder as an example of an act of moral turpitude which
bears on his credibility, Mr. Salazar has been confronted with a number of
instances that counsel can use to argue the point of credibility. [¶] There’s the
bowling alley set up that Mr. Salazar was involved [in] whereby an individual
from Fresno was robbed and pistol whipped. [¶] There’s the incident at J.P.’s
involving two Chinese males that Mr. Salazar was involved with whereby he . . .
sucker punched one of the individuals after apologizing to him, suggesting that he
is a man of bad character not simply because he’s violent, but there’s also the
suggestion he’s homophobic. [¶] There’s an incident described in the testimony
at a disco where Mr. Salazar was there with Mr. Lopez and Mr. Shelton. [¶]
There’s the incident involving Roland Saldivar’s uncle where Salazar admitted on
the stand that he pointed a gun at the individual. [¶] There’s the issue involving
Mr. Urango where Mr. Salazar admitted to looking for him to kill him. [¶]
There’s the incident at King and Story Road where Mr. Salazar was the driver and
a passenger shot, apparently wounding several Surenos. [¶] There’s the incident
involving . . . Alex Flemate, where Mr. Salazar was involved in a plot to kill him.
[¶] There’s the issue involving Spookio. And one of the interpretations of the
evidence that I would assume the defense would find favorable was their
suggestion that Mr. Salazar was involved in a plot to kill Spookio motivated by
jealousy. [¶] There’s the Beto Jasso incident, attempted killing of Carlos Mejias,
that Mr. Salazar was involved in. [¶] We heard about a New Years incident I
believe in Watsonville where Mr. Salazar had a stabbing instrument and
apparently stabbed the wrong person by accident. [¶] We’ve heard that he
planned the murder of one of the defendants in this case, [Petitioner]. [¶] There’s
even been a suggestion that when he was thrown in the hole when he was in
prison just before his release that he was involved in some inappropriate activity.
[¶] And then I also made note of his involvement in a robbery of a drug dealer in
the City of Fresno. And there are others. [¶] The point I’m making is there’s
ample evidence to attack the credibility of Mr. Salazar based not only on his
inconsistent statements of his admissions of being untruthful, but based on a
number of specific instances. This is significant because in my opinion it lessens
the probative value of the Paul Farfan incident. [¶] So what I find is the
probative value, although there is some probative value, is not particularly
extensive for all the reasons that I listed, and in particular the specific instances
which counsel has inquired into already. [¶] What I do find is to allow the
inquiry into the Paul Farfan incident as described in the offer of proof will cause
undue consumption of time and can lead to the confusing of the jury in this case
because one possible situation is a mini-trial where the death of Paul Farfan will
be litigated. Certainly the People are allowed to litigate that issue if I allow the
defense to do so. [¶] In short, I find that the probative value is outweighed by the
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
17

App. 22

ER 18

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 23 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 18 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17

factors I cited. The court’s ruling is the testimony is not admissible. [¶] I want to
remind in particular Mr. Mayfield, if we have a situation arise similar to what we
envisioned in the past, we, being all of us, involving Mr. Arroyo testifying, then
the court is happy to revisit the issue.”
On April 16, 1997, the defense again sought to bring out the issue of Salazar’s
perjury on the basis of the conflict between Salazar, who said that Arroyo had
authorized Farfan’s murder, and Arroyo, who denied authorizing such murder.
The defense wanted to question Mendoza, who Salazar said was present when
Arroyo gave the green light to murder Farfan. Trujeque’s counsel argued that he
should be allowed to question Mendoza whether Arroyo had given the “green
light,” and be allowed to call Arroyo to ask whether he authorized the murder.
The prosecution responded that if the court allowed evidence of the Farfan
homicide to come in, it was going to prove that what Salazar had said was true.
The court reiterated its ruling that evidence of the Farfan homicide was
inadmissible, adding: “It was mentioned this afternoon that as it relates to the
issue of credibility, Mr. Mayfield indicated he wanted to establish that Salazar
will lie about murders. Well, that’s already been established in the testimony that
he made some false accusations as it relates to who participated in what, and I
know you’re all familiar with that testimony. [¶] The right to confront and crossexamine is not without limitation as we all know. And I feel that as it relates to
Mr. Salazar, he has been confronted and cross-examined, not only at length, but
with reference to a number of subjects where counsel would be able to argue
forcefully that the man is a liar when this case is argued.”
On August 15, 1997, the court denied [Petitioner’s] motion for a new trial which
[Petitioner] based, inter alia, on the ground of error in precluding evidence
relating to the Farfan incident.

18
19
20
21
22
23
24
25
26
27
28

The standard of review for Evidence Code section 352 challenges is abuse of
discretion. “The court in its discretion may exclude evidence if its probative
value is substantially outweighed by the probability that its admission will (a)
necessitate undue consumption of time or (b) create substantial danger of undue
prejudice, of confusing the issues, or of misleading the jury.”
On appeal, “‘[a] trial court’s exercise of discretion will not be disturbed unless it
appears that the resulting injury is sufficiently grave to manifest a miscarriage of
justice. In other words, discretion is abused only if the court exceeds the bounds
of reason, all of the circumstances being considered.’”
The underlying assumption in [Petitioner’s] challenge is that the proffered
evidence relating to the Farfan incident would have shown that either Salazar or
Arroyo was lying. The assumption is flawed. The prosecution repeatedly told the
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
18

App. 23

ER 19

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 24 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 19 of 70

1
2
3
4
5
6
7

parties and the court that it was not going to call Arroyo as a witness, and, in fact
did not call Arroyo. Because Arroyo did not testify, his version of the story was
not before the jury. Consequently, the jury did not know that Arroyo’s version
was in conflict with Salazar’s version. It follows that while Arroyo’s version was
relevant as tending to discredit Salazar, the court could reasonably conclude it
was not probative enough to outweigh its potential for prejudice in terms of time
consumption and issue confusion. The prosecution had indicated that if Arroyo
testified, it would adduce evidence to prove that Salazar was telling the truth. The
court, for its part, stated that if it allowed the defense to bring out evidence
relating to the Farfan incident, it would also have to allow the prosecution to
litigate the issue. The result would be a minitrial on a crime with which
[Petitioner] was not charged, resulting in jury confusion and inordinate
consumption of time.

8

14

[Petitioner] argues that the trial court’s concern that allowing Salazar to be
questioned on the Farfan incident would result in undue consumption of time was
not well-founded because the trial was in fact finished several months earlier than
estimated. The argument is not persuasive. “Undue consumption of time” refers
not only to the time used to try the case, but also the time lost to the court by
giving one case more time than needed, to the prejudice of other cases which
could have productively used the time wasted. Here, the trial took five months of
the court’s time. Giving this case more time than was reasonably necessary was
prejudicially taking off time from other cases that needed judicial attention just as
well.

15

...

16

We are also not persuaded by [Petitioner’s] argument that “the excluded evidence
would have shown that the prosecution knowingly presented false or at least
misleading testimony.” The prosecution was ready to prove that Salazar was
telling the truth had [Petitioner] been allowed to examine Salazar about the Farfan
incident.

9
10

United States District Court
Northern District of California

11
12
13

17
18
19
20
21

We conclude the trial court did not abuse its discretion in disallowing evidence
relating to the Farfan homicide.
Resp. Ex. 1 at 25–34 (some alterations in original) (citations omitted).

22

In some circumstances, a trial court’s restrictions on a defendant’s presentation of evidence

23

may violate the defendant’s right to present a defense. That is because, “[w]hether rooted directly

24

in the Due Process Clause of the Fourteenth Amendment or in the . . . Confrontation [Clause] of

25

the Sixth Amendment, the Constitution guarantees criminal defendants ‘a meaningful opportunity

26

to present a complete defense.’” Crane v. Kentucky, 476 U.S. 683, 690 (1986) (citations omitted).

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
19

App. 24

ER 20

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 25 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 20 of 70

1

The right to present evidence, however, is not absolute. See Taylor v. Illinois, 484 U.S. 400, 410

2

(1988) (“The accused does not have an unfettered right to offer testimony that is incompetent,

3

privileged, or otherwise inadmissible under standard rules of evidence.”). Although the defense

4

must be given a chance to expose an adverse witness’s motivation in testifying, the trial judge

5

retains “wide latitude” to “impose reasonable limits on such cross-examination based on concerns

6

about, among other things, harassment, prejudice, confusion of the issues, the witness’ safety, or

7

interrogation that is repetitive or only marginally relevant.” Delaware v. Van Arsdall, 475 U.S.

8

673, 679 (1986).

9

The California Court of Appeal did not unreasonably apply federal law in holding that the

10

trial court did not violate Petitioner’s right to present a defense by circumscribing any questioning

11

about the killing of Farfan. Petitioner relies upon two U.S. Supreme Court cases, Crane and Van

12

Arsdall, which involved situations where the circumstances more compellingly outweighed the

13

state’s interest in trial administration. In Crane, the Supreme Court concluded, “on the facts of

14

th[e] case,” that the state deprived the defendant of the opportunity to present his defense when the

15

state offered no valid justification for “the blanket exclusion” of “competent, reliable evidence”

16

that pertained to “the credibility of [the defendant’s] confession” and, thus, was “central to the

17

defendant’s claim of innocence.” 476 U.S. at 690. The Court highlighted the “peculiar

18

circumstances of th[e] case,” in which the defendant’s “entire defense was that there was no

19

physical evidence to link him to the crime and that, for a variety of reasons, his earlier admission

20

of guilt was not to be believed.” Id. at 691. In Van Arsdall, the Supreme Court found

21

constitutional error because “the trial court prohibited all inquiry into the possibility that [the

22

prosecution’s witness] would be biased as a result of the State’s dismissal of his pending public

23

drunkenness charge.” 475 U.S. at 679. While recognizing that the defense is not entitled to put on

24

any cross-examination that it wishes, the Court explained that the trial court violated the

25

defendant’s rights when the court “cut[] off all questioning about an event that the State conceded

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
20

App. 25

ER 21

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 26 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 21 of 70

1

had taken place and that a jury might reasonably have found furnished the witness a motive for

2

favoring the prosecution in his testimony.” Id.

United States District Court
Northern District of California

3

It is not unreasonable to characterize Petitioner’s case as materially different from Crane

4

and Van Arsdall. Here, the trial judge had a sufficient non-arbitrary basis to bar Petitioner’s

5

questioning under section 352 of the California Evidence Code, which permits exclusion for

6

undue consumption of time on a collateral issue. Petitioner’s proposed questions were designed to

7

cast doubt on Salazar’s credibility by demonstrating a conflict between Salazar’s and Arroyo’s

8

stories about who, if anyone, had ordered a hit on Farfan. However, the prosecution did not call

9

Arroyo as a witness, so his version of events was not before the jury. And the prosecution was

10

ready to prove that Salazar’s version of events was the correct one. Thus, allowing Petitioner’s

11

questioning would have required a mini-trial on the killing of Farfan, “a crime with which

12

[Petitioner] was not charged,” and these significant diversions would likely result in “jury

13

confusion and inordinate consumption of time.” Resp. Ex. 1 at 33. This case is unlike Van

14

Arsdall because the questioning there related to an event that the prosecution conceded had taken

15

place. In this case, moreover, Petitioner cross-examined Salazar on a number of other topics and

16

had ample opportunity to argue that Salazar was lying. Therefore, introducing this testimony was

17

not as necessary as probing the motive of the prosecution’s witness in Van Arsdall or attacking the

18

credibility of the defendant’s confession in Crane. Indeed, in other cases, the Supreme Court has

19

expressed particular concern when the state rule is so broad as to prevent the admission of “the

20

only testimony available on a crucial issue.” Washington v. Texas, 388 U.S. 14, 21 (1967). The

21

California Court of Appeal could reasonably credit these relevant differences between Petitioner’s

22

case and the cited Supreme Court cases.

23

Petitioner separately contends that the trial court’s exclusion was constitutionally improper

24

because it prevented Petitioner from showing that the prosecution presented Salazar’s testimony

25

despite knowing that he was lying. It is true that a state violates due process when it knowingly

26

presents false evidence to obtain a conviction. See Napue v. Illinois, 360 U.S. 264, 269 (1959);

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
21

App. 26

ER 22

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 27 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 22 of 70

1

see also Giglio v. United States, 405 U.S. 150, 153–54 (1972). Petitioner cannot, however, make

2

out such a claim here. Although the prosecution entered into plea agreements with both Salazar

3

and Arroyo, the prosecution did not call Arroyo as a witness, so the issue of whether Salazar or

4

Arroyo was telling the truth did not (and could not) arise at trial.2 And if the trial court allowed

5

Petitioner to admit testimony about the Farfan homicide, the prosecution intended to prove that

6

Salazar, not Arroyo, was telling the truth. Therefore, as the California Court of Appeal reasoned,

7

the prosecution did not knowingly present any false testimony. Resp. Ex. 1 at 34. Accordingly,

8

the Court of Appeal did not unreasonably determine that the exclusion of Petitioner’s Farfan-

9

related questions did not violate his Sixth and Fourteenth Amendment rights, and Petitioner is not

United States District Court
Northern District of California

10

entitled to habeas relief on this claim.

11

3.

Cross-examination of John Kracht

12

Petitioner’s third claim is that the trial court unduly restricted the scope of cross-

13

examination of one of the prosecution’s witnesses, investigator John Kracht. Pet. at 15–16.

14

Specifically, the trial court ruled that Petitioner’s questions about whether Kracht closed an

15

investigation into a robbery involving Pablo Pena were irrelevant and tangential. Resp. Ex. 1 at

16

36–37. Petitioner asserts that these limitations violated his Sixth Amendment right to confront

17

witnesses and his Fourteenth Amendment right to due process. Pet. at 15.

18

The California Court of Appeal rejected Petitioner’s claim, explaining:

19

[Petitioner] contends the trial court violated his Sixth and Fourteenth Amendment
rights to confrontation and due process by unduly restricting the scope of crossexamination of John Kracht regarding the disposition of a case against Pena,
which would have shown that [Petitioner] had no motive to agree to kill Rosas
and thus prejudiced his defense against the charges of murder and conspiracy to
commit murder. We disagree.

20
21
22
23
24
25
26
27
28

2

Petitioner does not suggest that the prosecution failed to disclose that Salazar and Arroyo had
provided opposing statements about the Farfan homicide to the prosecutors. In the response,
Respondent represents that the prosecution fulfilled its duty by “disclos[ing] each statement” to
the defense. Resp. at 32 n.8.
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
22

App. 27

ER 23

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 28 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 23 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

Rosas was murdered on June 26, 1991, by assailants who were not identified.
The prosecution’s evidence showed that [Petitioner] authorized Rosas’s murder
because Rosas had identified Pena as the person who had earlier robbed Petra
Gonzalez, who was the mother of Rosas’s girlfriend. The prosecution’s evidence
consisted of Pena’s confession, statements made by several [Nuestra Familia]
members, and evidence of the actual robbery itself wherein Gonzalez identified
Pena to the police as one of the robbers. Gonzalez testified that two masked men
broke into her home on December 31, 1983, and that Rosas went to her defense.
Gonzalez did not know who Pena was and did not recall if Pena was one of the
intruders.
John Kracht, the district attorney’s investigator, testified that he used to be
employed by the San Jose Police Department and that, while employed as such,
he had investigated the Rosas robbery and had spoken to Gonzalez. Gonzalez
identified Pena’s picture as that of one of the robbers. Gonzalez also told Kracht
that Pena had held a knife to her neck and had cut her.
During cross-examination, the defense asked Kracht whether his reports with
reference to the Rosas robbery investigation were closed; whether he ever
testified at a trial involving Pena regarding the Rosas robbery; and whether he
ever appeared in court “with reference to charges brought against Pablo Pena as a
result of this incident.” The prosecution objected to the questions on relevancy
grounds. The court sustained the objections. Trujeque’s counsel requested a
hearing on the defense objection. The court granted the request, and a hearing
was held out of the presence of the jury.

15
16
17
18
19
20
21
22
23
24
25
26
27
28

At the hearing, the defense stated, as an offer of proof, that Pena was not
prosecuted for the Rosas robbery, and this lack of prosecution showed that the
prosecution’s theory was not viable. The defense further stated that because Pena
was not prosecuted, “there never was any way that [Pena] would know that
anything happened.”
The court ruled that the objected questions were irrelevant, and, in any event, the
relevancy of the questions was “greatly outweighed by undue consumption of
time on a collateral issue, really.”
We find no error. Pursuant to Evidence Code section 210, “relevant evidence” is
evidence that has “any tendency in reason to prove or disprove any disputed fact
that is of consequence to the determination of the action.” Trial courts have wide
discretion in determining the relevancy of evidence.
The fact that was of consequence which the defense sought to establish with the
challenged questions was the viability of the prosecution theory that [Petitioner]
authorized the murder of Rosas because Rosas had identified Pena as one of the
robbers in the Rosas robbery. [Petitioner’s] argument is that such theory was not
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
23

App. 28

ER 24

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 29 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 24 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23

viable because Kracht’s investigation of the Rosas robbery had been closed, and
Kracht had not appeared in court in regard to any charges brought against Pena
respecting the Rosas robbery.
We fail to see the logic of the argument. The closure of Kracht’s investigation,
and the fact that Kracht never appeared nor testified at a trial involving the Rosas
robbery, did not mean that Rosas was without other means of knowing that Pena
was involved in the Rosas robbery. Rosas’s knowledge of Pena’s participation
could have come from sources other than Kracht’s investigation or court
testimony. In fact, Rosas was present when the robbery took place, and even
went to the defense of Gonzalez. Pena, as one of the robbers, likely knew of
Rosas’s presence during the robbery and of Rosas’s role in coming to the defense
of Gonzalez. There is evidence that in late June 1991, [Petitioner] told Salazar
that there was a “green light” on Rosas because Rosas had “snitched on Pablo
Pena, Panther.” Chavez testified that while he was in prison with Pena, Pena had
told him that he (Pena) had robbed Rosas’s home. There is also evidence that
after Rosas’s murder, Shelton asked [Petitioner] about it, and [Petitioner’s] reply
was: “Fuck that punk, I just told them [Chavez and Salazar] to deal with it, that he
[Rosas] had some situation with Panther [Pena].”
Because the questions of whether Kracht had closed his investigation and whether
he had appeared or testified at a trial involving the Rosas robbery did not
foreclose the prosecution theory that [Petitioner] had authorized the murder of
Rosas because Rosas knew that Pena was involved in the Rosas robbery, the trial
court did not exceed the bounds of reason, and therefore did not exceed its
discretion, in sustaining the prosecution’s objections to the challenged crossexamination questions on relevancy grounds.
Moreover, the trial court stated that, in any event, the relevancy of the questions
was “greatly outweighed by undue consumption of time on a collateral issue.”
[Petitioner] has not seriously challenged this Evidence Code section 352
determination by the trial court, except to point out that only two questions were
objected to. It is not possible to tell, however, how many more questions on the
subject might have been asked, and how much more time might have been spent
by both sides on the issue, had no timely objections been made to the initial
questions, and had not the trial court sustained the objections.
Resp. Ex. 1 at 34–37 (some alterations in original) (citation omitted).
As spelled out above, the question whether a trial court so restricted a defendant’s

24

presentation of evidence as to violate the right to present a defense implicates competing

25

considerations. On the one hand, the Sixth and Fourteenth Amendments “guarantee[] criminal

26

defendants ‘a meaningful opportunity to present a complete defense.’” Crane, 476 U.S. at 690

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
24

App. 29

ER 25

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 30 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 25 of 70

1

(quoting California v. Trombetta, 467 U.S. 479, 485 (1984)). In the context of impeachment, the

2

defense must be given “reasonable latitude” to cross-examine witnesses in order “to place the

3

witness in his proper setting and put the weight of his testimony and his credibility to a test.”

4

Smith v. Illinois, 390 U.S. 129, 132 (1968) (quoting Alford v. United States, 282 U.S. 687, 692

5

(1931)). On the other hand, trial judges retain “wide latitude” to “impose reasonable limits on

6

such cross-examination based on concerns about, among other things, harassment, prejudice,

7

confusion of the issues, the witness’ safety, or interrogation that is repetitive or only marginally

8

relevant.” Van Arsdall, 475 U.S. at 679; see also United States v. Scheffer, 523 U.S. 303, 308

9

(1998) (“A defendant’s right to present relevant evidence is not unlimited, but rather is subject to

10

reasonable restrictions.”). State rules excluding evidence from criminal trials therefore “do not

11

abridge an accused’s right to present a defense” as long as they are not arbitrary or

12

disproportionate. Scheffer, 523 U.S. at 308.

13

The California Court of Appeal did not unreasonably apply these cases in concluding that

14

the trial court did not unduly restrict the scope of Petitioner’s cross-examination of Kracht. In

15

sustaining the objections to Petitioner’s cross-examination questions, the trial court relied on

16

sections of the California Evidence Code that allow exclusion for lack of relevance and undue

17

consumption of time on a collateral issue. And the trial court’s rulings in those regards are

18

reasonable, non-arbitrary limits on the scope of cross-examination because Petitioner sought to ask

19

questions that had minimal, if any, relevance. The prosecution’s theory of the case was that

20

Petitioner’s motive to have Rosas killed was that Rosas had snitched on a Nuestra Familia

21

member, Pena, by identifying him as the perpetrator of a robbery. Petitioner desired to cross-

22

examine investigator Kracht about the disposition of Pena’s robbery prosecution—namely, that

23

Kracht had closed the case and that Kracht had not appeared or testified at a trial involving the

24

robbery. However, the fact that Pena was not prosecuted for robbery does not answer whether

25

Rosas knew that Pena committed the robbery or whether Rosas identified Pena as the robber. The

26

Court of Appeal documented other ways that Rosas could have known of Pena’s involvement—

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
25

App. 30

ER 26

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 31 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 26 of 70

1

including that Rosas was present during the robbery and that Pena shared that information in

2

prison—and pointed to evidence supporting the conclusion that Petitioner ordered Rosas’s murder

3

for snitching on Pena. Resp. Ex. 1 at 36. The prosecution also presented evidence that Petitioner

4

confessed that he ordered Rosas’s murder because “[Rosas] had some situation with [Pena].”

5

Resp. Ex. 1 at 36. Accordingly, the Court of Appeal did not unreasonably determine that the

6

exclusion of Petitioner’s cross-examination questions did not violate his Sixth and Fourteenth

7

Amendment rights, and Petitioner is not entitled to habeas relief on this claim.

8

4.

Failure to instruct on second degree murder

9

Petitioner’s fourth claim is that, based on the substantial evidence that Petitioner acted in a

10

rash manner in responding to a call from Chavez, the trial court had a sua sponte duty to instruct

11

the jury on second degree murder. Pet. at 16–17. According to Petitioner, the trial court’s failure

12

to instruct amounted to a violation of his Sixth Amendment right to present a defense and to a trial

13

by an impartial jury as well as his Fourteenth Amendment right to due process. Pet. at 17.

14

The California Court of Appeal rejected Petitioner’s claim, explaining:

15

17

[Petitioner] contends the trial court violated [Petitioner’s] state and federal
constitutional rights to due process and an impartial jury trial by refusing to
instruct the jury on the lesser included offense of second degree murder with
respect to . . . the murder of Rosas in count 12. The contention is without merit.

18

...

19

As to count 12, the Rosas murder, [Petitioner] requested the trial court to instruct
the jury on second degree murder. The prosecution objected, arguing that, as to
that murder, [Petitioner] was either guilty of conspiracy to commit first degree
murder or not guilty of any crime. The court denied [Petitioner’s] request,
stating: “As it relates to [Petitioner], . . . it’s either a first degree murder or it’s not
a first degree murder. I expect—or based on what I’ve observed during the
course of this trial, that the credibility of witnesses who will testify about
[Petitioner] will be attacked. The argument is going to be he didn’t commit any
crime. To the extent he did, the evidence suggests in my opinion that if there was
a crime, it’s a first degree murder. Therefore, I don’t believe it’s appropriate to
instruct on second degree murder.”

16

20
21
22
23
24
25
26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
26

App. 31

ER 27

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 32 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 27 of 70

1
2
3
4
5
6
7
8
9
10

As the court expected, [Petitioner’s] counsel subsequently argued to the jury that
[Petitioner] was not guilty at all of the Rosas homicide.
The trial court’s duty to instruct on lesser included offenses has been summarized,
thus: “‘It is settled that in criminal cases, even in the absence of a request, the trial
court must instruct on the general principles of law relevant to the issues raised by
the evidence. The general principles of law governing the case are those
principles closely and openly connected with the facts before the court, and which
are necessary for the jury’s understanding of the case.’ That obligation has been
held to include giving instructions on lesser included offenses when the evidence
raises a question as to whether all of the elements of the charged offense were
present but not when there is no evidence that the offense was less than that
charged. The obligation to instruct on lesser included offenses exists even when
as a matter of trial tactics a defendant not only fails to request the instruction but
expressly objects to its being given. Just as the People have no legitimate interest
in obtaining a conviction of a greater offense than that established by the
evidence, a defendant has no right to an acquittal when that evidence is sufficient
to establish a lesser included offense.”

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Further, “‘“[i]t has long been settled that the trial court need not, even if
requested, instruct the jury on the existence and definition of a lesser and included
offense if the evidence was such that the defendant, if guilty at all, was guilty of
something beyond the lesser offense.”’”
[Petitioner] claims that he acted rashly, and therefore without deliberation or
premeditation, when he approved the Rosas murder. The claim is not supported
by the facts on record.
The record shows that in late June 1991, [Petitioner] told Salazar that there was a
“green light” on Rosas because Rosas had “snitched on Pablo Pena, Panther.”
However, before the green light was executed, [Petitioner] wanted confirming
“paperwork” because if Rosas was killed and [Petitioner] was wrong, [Petitioner]
would himself be killed. Chavez testified that on the night Rosas was killed, he
received a telephone call from Roy Reveles and Tim Hernandez asking him for
authority “[t]o hit Little Eli [Rosas].” Chavez told Hernandez that he “didn’t have
the authority to make any decisions.” Chavez then contacted Salazar, who
contacted [Petitioner]. In a three-way telephone discussion with Salazar and
[Petitioner], Chavez told [Petitioner] that Reveles and Hernandez had asked for
his authority to kill Rosas and that he had told them that he “couldn’t make that
decision.” Chavez asked [Petitioner] what he was to do. [Petitioner] told Chavez
to “do what you got to do,” which meant to “kill [Rosas].”
This three-way telephone conversation took place while [Petitioner] was at the
home of Michelle Valderama, his sister-in-law.
Valderama overheard
[Petitioner’s] side of the conversation, including the name “Eli,” which was how
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
27

App. 32

ER 28

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 33 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 28 of 70

1
2
3
4
5
6
7
8
9
10

Rosas was called, and [Petitioner’s] instruction to the caller to “just do what you
got to do,” and for the caller to let him know what happened.
Subsequently, when [Petitioner] and Shelton were at San Quentin, [Petitioner]
told Shelton, in referring to Rosas: “Fuck that punk, I just told them [Chavez and
Salazar] to deal with it, that he [Rosas] had some situation with Panther [Pena],”
and that Rosas was behind “some drug deal that some drugs were involved and
that [Rosas] had supposedly had snitched on [Pena] who’s also [a Nuestra
Familia] member.”
The foregoing facts demonstrate premeditation and deliberation, not rashness. If
the jury accepted the facts as true, the killing of Rosas was murder of the first
degree. If the jury did not believe the foregoing evidence, particularly that
relating to the three-way conversation among [Petitioner], Chavez, and Salazar,
then [Petitioner] was not guilty of any crime. There was no middle ground.
Accordingly, we conclude the trial court did not err in refusing to give the second
degree murder lesser included offense instruction.

United States District Court
Northern District of California

11
12

Resp. Ex. 1 at 37–40 (some alterations in original) (citations omitted).
In some circumstances, failure to give requested instructions violates due process.

13
Specifically, the U.S. Supreme Court has held that in a capital case, where the evidence supports a

14
verdict on a lesser-included offense, failure to instruct a jury on that lesser-included offense

15
constitutes a violation of due process. Hopper v. Evans, 456 U.S. 605, 610–11 (1982); Beck v.

16
Alabama, 447 U.S. 625, 634–38 (1980). However, the Supreme Court has limited application of

17

that rule to the capital context. In 1973, the Court explained that it “ha[d] never explicitly held

18
that the Due Process Clause of the Fifth Amendment guarantees the right of a defendant to have

19

the jury instructed on a lesser included offense.” Keeble v. United States, 412 U.S. 205, 213

20
(1973). When the Court later held that due process requires giving such an instruction in capital

21
22

cases, the Court made clear that it was “not decid[ing] whether the Due Process Clause would
require the giving of such instructions in a noncapital case.” Beck, 447 U.S. at 638 n.14. Based

23
on those express reservations, the California Court of Appeal could reasonably decline to extend

24
Hopper and Beck to this noncapital case. Therefore, the Court of Appeal did not unreasonably

25
26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
28

App. 33

ER 29

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 34 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 29 of 70

1

apply Hopper or Beck in concluding that the trial court did not deprive Petitioner of due process

2

by refusing to instruct the jury on second degree murder.3
Petitioner also cites two Ninth Circuit decisions—United States v. Escobar de Bright, 742

United States District Court
Northern District of California

3
4

F.2d 1196, 1201–02 (9th Cir. 1984), and United States v. Unruh, 855 F.2d 1363, 1372 (9th Cir.

5

1987)—for the proposition that “[f]ailure to instruct upon the defendant’s theory of the case,

6

where there is evidence to support the instruction, is a violation of the Sixth Amendment right to

7

present a defense and to a trial by jury, and the Fourteenth Amendment right to due process.” Pet.

8

at 17. As noted above, circuit precedent cannot “refine or sharpen a general principle of Supreme

9

Court jurisprudence into a specific legal rule that [the U.S. Supreme] Court has not announced.”

10

Marshall, 569 U.S. at 64. Escobar de Bright and Unruh were both direct appeals, and neither

11

purports to hold that the U.S. Supreme Court has “clearly established” that failing to instruct on

12

the defendant’s theory is a constitutional violation, let alone that that rule derives from U.S.

13

Supreme Court precedent at all. These cases cannot serve as the basis for granting habeas relief to

14

Petitioner. See Marshall, 569 U.S. at 64.
In any event, even if the above-referenced cases applied in this instance, Petitioner would

15
16

not be entitled to habeas relief. All of the cases hold that an instruction is necessary only if the

17

evidence supports a verdict on a lesser-included offense, but, as the California Court of Appeal

18

reasoned, the evidence in Petitioner’s case does not support a verdict on second degree murder.

19

Petitioner points to only two facts in the record: (1) he was in bed when the three-way call came in

20

and (2) he told Chavez on the phone, “You know what time it is, Louie? You shouldn’t even have

21

to make this call.” Resp. Ex. 6, RT 17373, 12221. On their own, those facts do not indicate that

22

Petitioner “was obscured or disturbed by passion to such an extent as would cause the ordinarily

23
24
25
26
27
28

3

Petitioner’s reliance on Rose v. Clark, 478 U.S. 570, 578 (1986), is misplaced. In the cited
passage, the U.S. Supreme Court held that where a trial judge directs a verdict for the prosecution
in a criminal jury trial, harmless-error analysis does not apply because “the wrong entity judged
the defendant guilty.” Id. at 578. Here, there is no contention that the trial judge entered a
judgment of conviction or directed the jury to reach a particular verdict.
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
29

App. 34

ER 30

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 35 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 30 of 70

1

reasonable person of average disposition to act rashly and without deliberation and reflection, and

2

from such passion rather than from judgment.” People v. Lee, 971 P.2d 1001, 1007 (Cal. 1999)

3

(citation omitted). Moreover, the California Court of Appeal detailed the other facts, including

4

testimony from multiple witnesses that Petitioner had ordered the hit on Rosas and testimony from

5

one witness that Petitioner had admitted to authorizing the murder, that strongly support

6

premeditation and deliberation, not rashness. Accordingly, Petitioner has not shown entitlement to

7

habeas relief on this claim.

8

5.

Failure to instruct jury to decide whether one or multiple conspiracies existed

9

Petitioner’s fifth claim is that the trial court erred when it failed to instruct (and therefore

10

the jury did not decide) whether one or multiple conspiracies existed. Pet. at 17–18. Petitioner’s

11

argument appears to be that his Sixth Amendment right to trial by jury and his Fourteenth

12

Amendment right to due process were violated because the jury did not determine a material fact

13

necessary for guilt—namely, whether there was one conspiracy or multiple conspiracies. Pet. at

14

17–18.

15

The California Court of Appeal rejected Petitioner’s claim, explaining:

16

[Petitioner] contends the trial court deprived [Petitioner] of his state and federal
constitutional rights to a trial by jury and due process by failing to instruct the
jury to determine the essential factual question whether one or multiple
conspiracies existed. We disagree.

17
18
19
20
21
22
23
24
25
26
27
28

On conspiracy, the defense proposed a modified version of CALJIC No. 6.10, to
read as follows: “If you find the existence of a conspiracy beyond a reasonable
doubt, you must determine whether a single or multiple conspiracies have been
proven. If there was one overall agreement among the various parties to perform
various functions to carry out the objectives of the conspiracy, then there is but a
single conspiracy. If there were separate agreements each of which had its own
distinct, illegal end and which were not drawn together in a single, overall,
comprehensive plan, then each such agreement is a separate conspiracy. [¶] The
indictment alleges only a single count of conspiracy. If you find the existence of
multiple conspiracies, a defendant may be found guilty of conspiracy if the proof
shows beyond a reasonable doubt that he participated in one or more of the
conspiracies. However, to find a defendant guilty of conspiracy you must
unanimously agree as to which conspiracy or conspiracies he participated in. It is
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
30

App. 35

ER 31

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 36 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 31 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

not necessary that the particular conspiracy or conspiracies agreed upon be stated
in your verdict.”
The prosecution objected to this proposed instruction, arguing that while there
was one umbrella conspiracy, which was the NF, “there have to be some specific
efforts on the part of each conspirator to join in that conspiracy as a—if you
would like, a mini conspiracy within the ambit of the larger one. Obviously, the
larger one is the [Nuestra Familia] doing evil things as a group, but we have never
gone so far as to say that simply joining the [Nuestra Familia] makes one
responsible for all of the crimes then committed by the gang itself, necessarily.
But in terms of the umbrella conspiracy and for [Evidence Code section] 1223
there is such an umbrella conspiracy to commit crimes, the named crimes in
general. But that’s why in terms of the verdict form and also the accomplice stuff
and all of the rest of it, we have specific murder object, object crimes, that is, the
murder of certain specific individuals. The subjects of the object crimes, if you
will.”
The court refused the proposed instruction, stating that it found the last two
paragraphs thereof, which deal with multiple conspiracies, “potentially very
confusing.”
The next day, the court announced: “. . . I’ve rethought my position. As you
know, I’ve indicated before that I felt that the jury would not only have to find
unanimously which of the target crimes were the subject of the conspiracy, but I
went on to indicate that I felt they would have to be unanimous as to which
particular event associated with the target crimes, for example, which murder.
And in keeping with that position, I felt that the jury verdict forms should be
specific as to possible victims, where they could not only demonstrate their
unanimous opinion concerning the target crime, but which particular event. [¶]
After reconsidering, I’ve come to the conclusion I was wrong. And it’s my
opinion that the jury need only be unanimous about the target crimes, that they
don’t have to unanimously agree as to which event, nor does that have to be
reflected in the jury verdict form, whether it be which murder or which robbery or
which distribution of controlled substances. [¶] I am not inclined, still, to give
the instructions requested by the defense dealing with multiple conspiracies, and
the record is clear as to the proposed instructions which I rejected already.”
The court then gave the jury the following instruction on conspiracy (CALJIC No.
6.10): “A conspiracy is an agreement entered into between two or more persons
with the specific intent to agree to commit an object crime or crimes and with the
further specific intent to commit the object crime or crimes followed by an overt
act committed in this state by one or more of the parties for the purpose of
accomplishing the object or objects of the agreement. Conspiracy is a crime. [¶]
In order to find a defendant guilty of conspiracy, in addition to proof of the
unlawful agreement and specific intent, there must be proof of the commission of
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
31

App. 36

ER 32

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 37 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 32 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

at least one of the acts alleged in the indictment to be an overt act and that the act
committed was an overt act. It is not necessary to the guilt of any particular
defendant that defendant personally committed the overt act, if he was one of the
conspirators when the alleged overt act was committed. [¶] The term ‘overt act’
means any step taken or act committed by one or more of the conspirators which
goes beyond mere planning or agreement to commit a crime and which step or act
is done in furtherance of the accomplishment of the object of the conspiracy. [¶]
To be an ‘overt act,’ the step taken or act committed need not, in and of itself,
constitute the crime or even an attempt to commit the crime which is the ultimate
object of the conspiracy. Nor is it required that the step or act, in and of itself, be
a criminal or an unlawful act.”
The jury was also instructed pursuant to CALJIC No. 6.25: “In order to find a
defendant guilty of the crime of conspiracy, you must find beyond a reasonable
doubt that a defendant conspired to commit one or more of the object crimes of
the conspiracy, and you also must unanimously agree as to which particular crime
or crimes he conspired to commit. [¶] If you find defendant guilty of conspiracy,
you will then include a finding on the question as to which alleged object crimes
you unanimously agree a defendant conspired to commit. A form will be supplied
for that purpose for each defendant.”
In addition, because of the allegation in the indictment that the conspiracy was
committed for the benefit of a criminal street gang, the court instructed the jury
that “[i]f you find a defendant guilty of any crime charged, then you must decide
if he committed that crime or those crimes for the benefit of, at the direction of, or
in association with a criminal street gang.”
[Petitioner] argues that the question of whether one or more conspiracies existed
in this case was a question of fact for the jury to determine, and, therefore, the
trial court violated his state and federal constitutional rights to a trial by jury and
due process when that court refused his request to instruct the jury to “determine
whether a single or multiple conspiracies had been proven, and to agree
unanimously as to which conspiracy or conspiracies each defendant participated
in.” We disagree.
. . . “‘The crime of conspiracy is defined in the Penal Code as “two or more
persons conspir[ing]” “[t]o commit any crime,” together with proof of the
commission of an overt act “by one or more of the parties to such an agreement”
in furtherance thereof. “Conspiracy is a ‘specific intent’ crime. . . . The specific
intent required divides logically into two elements: (a) the intent to agree, or
conspire, and (b) the intent to commit the offense which is the object of the
conspiracy . . . . To sustain a conviction for conspiracy to commit a particular
offense, the prosecution must show not only that the conspirators intended to
agree but also that they intended to commit the elements of that offense.”’”

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
32

App. 37

ER 33

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 38 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 33 of 70

1
2

In a conspiracy, “[t]he gist of the offense is the unlawful agreement between the
conspirators to do an act contrary to law, accompanied by an overt act to at least
start to carry the conspiracy into effect.” . . . “‘[O]ne agreement gives rise to
only a single offense, despite any multiplicity of objects.’”

3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21

In Braverman v. United States (1942) 317 U.S. 49, 53–54 (Braverman), where the
defendants were charged with the illegal manufacture, transportation and
distribution of liquor, and each count charged a conspiracy to violate a different
penal statute, and where it was conceded that the different violations were all
pursuant to a single overall agreement, the United States Supreme Court
concluded that there was only one conspiracy, reasoning: “The gist of the crime of
conspiracy as defined by the statute is the agreement or confederation of the
conspirators to commit one or more unlawful acts ‘where one or more of such
parties do any act to effect the object of the conspiracy.’ The overt act, without
proof of which a charge of conspiracy cannot be submitted to the jury, may be
that of only a single one of the conspirators and need not be itself a crime. But it
is unimportant, for present purposes, whether we regard the overt act as a part of
the crime which the statute defines and makes punishable, or as something apart
from it, either an indispensable mode of corroborating the existence of the
conspiracy or a device for affording a locus poenitentiae. [¶] For when a single
agreement to commit one or more substantive crimes is evidenced by an overt act,
as the statute requires, the precise nature and extent of the conspiracy must be
determined by reference to the agreement which embraces and defines its objects.
Whether the object of a single agreement is to commit one or many crimes, it is in
either case that agreement which constitutes the conspiracy which the statute
punishes. The one agreement cannot be taken to be several agreements and hence
several conspiracies because it envisages the violation of several statutes rather
than one. [¶] The allegation in a single count of a conspiracy to commit several
crimes is not duplicitous, for ‘The conspiracy is the crime, and that is one,
however diverse its objects.’ A conspiracy is not the commission of the crime
which it contemplates, and neither violates nor ‘arises under’ the statute whose
violation is its object. Since the single continuing agreement, which is the
conspiracy here, thus embraces its criminal objects, it differs from successive acts
which violate a single penal statute and from a single act which violates two
statutes. The single agreement is the prohibited conspiracy, and however diverse
its objects it violates but a single statute . . . . For such a violation, only the single
penalty prescribed by the statute can be imposed.”

22
23
24
25

Here, the prosecution charged [Petitioner] with only one count of conspiracy.
Assuming that more conspiracy counts could have been charged under the facts,
the decision to charge [Petitioner] with only one conspiracy count was a
prosecutorial charging discretion that we do not review. The exercise of that
discretion involves questions of prosecutorial policies and judgment, not
questions of fact for the jury to determine.

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
33

App. 38

ER 34

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 39 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 34 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

Moreover, we fail to see how charging [Petitioner] with one count of conspiracy,
instead of multiple counts, could prejudice [Petitioner]. Any error would
therefore be harmless.
Furthermore, assuming there were multiple conspiracies, we do not see how the
existence of the uncharged conspiracies can result in the reversal of a guilty
finding in the one conspiracy that was charged. If the evidence submitted to the
jury supports the guilty finding on the charged conspiracy, the fact that the same
evidence might also have supported other conspiracies, which were not charged,
is of no consequence to the issue of innocence or guilt on the charged conspiracy.
In fact, the record evidence points only to one conspiracy—the agreement to
establish the [Nuestra Familia] as a criminal gang to commit murder, robbery,
burglary, extortion, and drug trafficking, among other crimes. Within that
umbrella conspiracy were sub-conspiracies to commit specific crimes. However,
the commission of the specific crimes, and the drawing up of plans required to
commit them, were all in pursuance of the overriding purpose of the NF, which
was to establish power through the use of crime, force, and fear, and to use that
power to further strengthen and perpetuate itself by killing its enemies, raising
money for the gang, and instilling obedience and discipline among its members
by killing members who break its rules. Thus, Rosas was killed because he had
“snitched on Pablo Pena, Panther.” The decision to kill Rosas, being one in
furtherance of the overriding purpose of the conspiracy, was part of the overall
conspiracy, and hence cannot be the basis for filing a separate charge of
conspiracy.

15
16
17
18
19
20
21
22
23
24
25
26
27
28

It has been held that the overall scheme need not be complete in all its aspects at
the time it is formed. “A conspiracy is not necessarily a single event which
unalterably takes place at a particular point in time when the participants reach a
formal agreement; it may be flexible, occurring over a period of time and
changing in response to changed circumstances.” “The general test is whether
there was ‘one overall agreement’ to perform various functions to achieve the
objectives of the conspiracy. Performance of separate crimes or separate acts in
furtherance of a conspiracy is not inconsistent with a ‘single overall agreement.’
The general test also comprehends the existence of subgroups or subagreements.”
Because the Rosas murder did not provide evidence of a conspiracy separate from
the overriding [Nuestra Familia] conspiracy, it did not support [Petitioner’s]
request for multiple conspiracies instruction. A trial court is required to instruct
the jury to determine whether a single or multiple conspiracies exist only when
there is evidence to support alternative findings.
In Zemek, the Ninth Circuit applied a four-factor analysis to determine whether
the crimes were committed pursuant to an overall scheme. These factors are: (1)
the nature of the scheme; (2) the identity of the participants; (3) the quality,
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
34

App. 39

ER 35

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 40 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 35 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17

frequency, and duration of each conspirator’s transactions; and (4) the
commonality of times and goals.
We are not pointed to any California case adopting the Zemek factors, nor has our
own research disclosed such a case. Nonetheless, even applying the Zemek
factors, as [Petitioner] suggests we do, we find in the record no convincing
evidence to support [Petitioner’s] claim of multiple conspiracies.
First, on the nature of the scheme, [Nuestra Familia] was organized primarily as a
prison gang. However, it also functioned on the streets, engaging in various
criminal activities. [Nuestra Familia]’s basic purpose was to make money
through crime for its members in and out of prison. [Nuestra Familia] members
pledge allegiance to act in concert and to commit crimes, including murder, for
the gang. [Nuestra Familia] has a written constitution, and its rules require the
members to cover up each other’s crimes. The only way to get out of the gang is
to die, be killed, or be a dropout/snitch. [Nuestra Familia]’s rule is “blood in,
blood out,” which means that one becomes a member of [Nuestra Familia] by
spilling blood, preferably by killing, and leaves the gang by being killed as a
coward, traitor, or deserter. A member may be killed by the gang for refusal to
follow a superior’s orders, or for failure to attend meetings.
On the identity of participants, members participate in whatever criminal
activities their superiors order them to do. There is common overlapping of crime
assignments.
On the quality of the frequency and duration of a conspirator’s transactions, the
members are committed to each other in a continuing relationship forged by the
bond of “blood in, blood out.” NF’s written constitution provides for a ranking
system where those in higher ranks issue orders to those in lower ranks, and
where the penalty for disobeying the orders of a superior is death.

18
19
20
21
22

On the commonality of time and goals, the time period for the conspiracy in this
case was two and a half years. The goals of the gang, which included making
money for its members in and out of prison through criminal activities, such as
murder, robbery, and drug trafficking, were shared by all the members.
The four Zemek factors to distinguish a single conspiracy from multiple
conspiracies all point to a single conspiracy in this case.

25

We conclude the trial court’s instructions were consistent with the law on
conspiracy, which is that a single agreement to commit a number of crimes is only
one conspiracy, regardless of the number of crimes sought to be committed, or
that are committed, under that conspiracy.

26

...

23
24

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
35

App. 40

ER 36

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 41 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 36 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

We conclude the trial court did not err in failing to instruct the jury to determine
whether one or multiple conspiracies existed in this case.
Resp. Ex. 1 at 40–49 (some alterations in original) (citations omitted).
The constitutional basis for Petitioner’s claim is unclear. Petitioner asserts that the trial
court should have directed the jury to decide whether one conspiracy or multiple conspiracies
existed. He points to the U.S. Supreme Court’s decision in In re Winship, which holds that “the
Due Process Clause protects the accused against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute the crime with which he is charged.” 397
U.S. 358, 364 (1970). The Court fails to see how that holding is implicated in Petitioner’s case.
As the California Court of Appeal noted, the prosecution charged Petitioner with only one count
of conspiracy. Such charging decisions generally are not reviewable. United States v. Armstrong,
517 U.S. 456, 464 (1996). Because Petitioner was charged with only one count of conspiracy and
the prosecution’s theory of the case was that there was a single conspiracy, the jury did not need to
decide whether there were multiple conspiracies. Instead, the jury was asked to determine whether
the prosecution had established beyond a reasonable doubt the elements of a single conspiracy,
and the jury returned a verdict that the prosecution met its burden. Thus, the jury found all facts
necessary to constitute the crime of conspiracy under the applicable standard.
More broadly, Petitioner seems to contest the California Court of Appeal’s holding that the
facts of Petitioner’s case qualify as a single conspiracy. Pet. at 18–20. But Petitioner does not
explain how that challenge presents a constitutional issue. Although the Constitution requires that
each necessary element of the offense be proven beyond a reasonable doubt, “the state
legislature’s definition of the elements of the offense is usually dispositive.” McMillan v.
Pennsylvania, 477 U.S. 79, 85 (1986). Here, the Court of Appeal interpreted the California crime
of conspiracy to encompass an agreement to commit multiple object offenses. Based on that
understanding of state law, Petitioner was not entitled to have the jury instructed in the manner he
asserted. Finally, Petitioner cannot override the Court of Appeal’s state-law decision by asking
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
36

App. 41

ER 37

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 42 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 37 of 70

1

this Court to apply the non-constitutional methodologies for distinguishing between conspiracies

2

used by the Supreme Court in Kotteakos v. United States, 328 U.S. 750, 754–55 (1946), or the

3

Ninth Circuit in United States v. Zemek, 634 F.2d 1159, 1167–68 (9th Cir. 1980). Petitioner’s

4

challenge to the conspiracy instruction fails, and he is not entitled to habeas relief on this claim.

5

6.

Failure to provide unanimity instruction

6

Petitioner’s sixth claim is that the trial court erred when it failed to instruct the jury to

7

unanimously agree on the facts underlying the conspiracy. Pet. at 20–22. Without such a

8

unanimity instruction, Petitioner contends, it is “impossible to determine whether the jury

9

unanimously agreed as to whom [Petitioner] conspired to murder.” Pet. at 21. Petitioner argues

10

that his Sixth Amendment right to trial by jury and his Fourteenth Amendment right to due

11

process were violated because the jury may not have unanimously agreed that Petitioner

12

committed each element of the underlying conspiracy charge. Pet. at 21.

13

The California Court of Appeal rejected Petitioner’s claim, explaining:

14

[Petitioner] contends he was deprived of his Sixth and Fourteenth Amendment
rights to a jury trial and due process by the trial court’s refusal to instruct the jury
to unanimously agree on the facts underlying the elements of the conspiracy, an
error that is reversible because it is impossible to determine whether the jury
unanimously agreed as to whom [Petitioner] conspired to murder. We disagree.

15
16
17
18
19
20
21
22
23
24
25
26
27
28

...
Because the agreement is the conspiracy, the diversity of the crimes that may be
the object of the agreement should be of little, if any, consequence. Proof that the
agreement has crime as its object should be enough. So long as there is unanimity
that crime was the object of the agreement, conspiracy is established regardless of
whether some jurors believe that crime to be murder and others believe that crime
to be something else. “A requirement of jury unanimity typically applies to acts
that could have been charged as separate offenses.” . . . “[I]f only one criminal
offense could exist as a result of the commission of various acts, the jury need not
agree on which particular act (or legal theory) a criminal conviction is based,
provided the jurors unanimously agree that all elements of the criminal offense
are proved beyond a reasonable doubt.”
. . . “It matters not that jurors may disagree over the theory of the crime, for
example, whether the situation involves felony murder or premeditated murder.
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
37

App. 42

ER 38

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 43 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 38 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Nor does it matter that they disagree on the theory of participation, for example,
whether there was direct participation or aiding and abetting or coconspiracy.
Nor does it matter that they disagree about the facts proving any of these theories.
If each juror concludes, based on legally applicable theories supported by
substantial evidence, that the defendant is guilty of the charged offense, the
defendant is properly found guilty even if the jurors disagree about the particular
theories or facts.”
. . . “In California it is unnecessary jurors unanimously agree on the theory of
criminal culpability supporting their unanimous conclusion of guilt . . . . [¶] . . .
[¶] . . . [W]here there is a single offense and a single charge, it is the task of each
juror to conclude, based perhaps on very different theories, whether the defendant
is guilty or not guilty. It is simply of no consequence that some jurors believe the
defendant is guilty based on one theory while others believe he is guilty on
another even when the theories may be based on very different and even
contradictory conclusions concerning, for example, the defendant’s basic intent in
committing the crime.”
[T]he California Supreme Court explained: “It is settled that as long as each juror
is convinced beyond a reasonable doubt that defendant is guilty of murder as that
offense is defined by statute, it need not decide unanimously by which theory he
is guilty. More specifically, the jury need not decide unanimously whether
defendant was guilty as the aider and abettor or as the direct perpetrator. This rule
of state law passes federal constitutional muster. [¶] . . . [¶] Not only is there no
unanimity requirement as to the theory of guilt, the individual jurors themselves
need not choose among the theories, so long as each is convinced of guilt.
Sometimes, as probably occurred here, the jury simply cannot decide beyond a
reasonable doubt exactly who did what. There may be a reasonable doubt that the
defendant was the direct perpetrator, and a similar doubt that he was the aider and
abettor, but no such doubt that he was one or the other.”
. . . “In analyzing the unanimity question in a robbery case, one Court of Appeal
used this example. ‘“Assume a robbery with two masked participants in a store,
one as the gunman and one as the lookout. If one witness makes a voice
identification of the defendant as the gunman who demanded money, but other
evidence, such as a fingerprint, suggests the defendant was actually holding the
door open as lookout, the jury would be faced with the same theories presented in
this case: find the defendant was the gunman and therefore a direct perpetrator, or
find he was at the door and therefore an aider and abettor. Either way he would
be guilty of robbery.” If 12 jurors must agree on the role played by the defendant,
the defendant may go free, even if the jurors all agree defendant committed the
crime. That result is absurd.’ Equally absurd would be to let the defendant go
free because each individual juror had a reasonable doubt as to his exact role.”

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
38

App. 43

ER 39

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 44 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 39 of 70

1
2
3
4
5
6
7
8
9
10

[T]he California Supreme Court had already observed: “If [defendant] intended
that only possession of the property should pass at the time of the sale, defendant
was guilty of larceny by trick or device, but if [defendant] intended that title
should pass, defendant was guilty of obtaining property by false pretenses.
Irrespective of [defendant’s] intent, however, defendant could be found guilty of
theft by one means or another, and since by the verdict the jury determined that he
did fraudulently appropriate the property, it is immaterial whether or not they
agreed as to the technical pigeonhole into which the theft fell.”
Here, [Petitioner] was convicted of one conspiracy. The indictment described that
conspiracy as a conspiracy to commit various crimes. Because any one of the
crimes that was the object of the conspiracy was sufficient to establish the
conspiracy, there were multiple theories upon which the prosecution could
proceed. The existence of such multiple theories precluded a unanimity
instruction. A unanimity instruction is inappropriate where multiple theories may
provide the basis for a guilty verdict on one discrete criminal event.
...

United States District Court
Northern District of California

11
12
13
14
15
16
17
18

Here, the specific crimes that constitute the object of the conspiracy are not
elements of the conspiracy. Rather, they are the means by which the purpose of
the conspiracy was to be achieved. Accordingly, the . . . requirement of jury
unanimity does not apply to them.
Recently, . . . the California Supreme Court settled the question of “whether the
jury must unanimously agree on a specific overt act,” by holding that “the jury
need not agree on a specific overt act as long as it unanimously finds beyond a
reasonable doubt that some conspirator committed an overt act in furtherance of
the conspiracy.”
We conclude the trial court did not err when it refused to instruct the jury that it
must unanimously decide whom, if anyone, [Petitioner] conspired to murder.

19
20
21
22
23
24
25
26
27
28

In any event, any error was invited. The record reflects that the prosecutor
informed the court that it had prepared verdict forms that “sought to identify the
targets for the conspiracy to commit murder,” adding: “We still think there is an
umbrella conspiracy and it’s pretty obvious that there is. The [Nuestra Familia] is
a group and they get together and they do all of these nefarious things. That’s the
object. But when it comes down to the particular subject matter of who they’re
planning to murder, that’s why we put in the specific subjects of that particular
object, object crime, otherwise, we think that we’re in trouble on appeal.” The
attorney for codefendant Lopez argued to the court that the jury should only have
to specify which of the object crimes a defendant conspired to commit, not the
specific victim of that object crime. The prosecutor repeated that he wished the
verdict form to specify whom, if anyone, a defendant conspired to kill.
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
39

App. 44

ER 40

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 45 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 40 of 70

1

7

The next day, counsel for Lopez objected to the prosecutor’s proposed verdict,
arguing that it was inconsistent to require specification for the target crime of
murder and not for the other target crimes, which had more than one victim.
[Petitioner] joined Lopez’s objection. The court, which had earlier agreed with
the prosecution on what the verdict form should ask the jury to indicate, reversed
itself and sustained [Petitioner’s] and Lopez’s objection, stating: “After
reconsidering, I’ve come to the conclusion I was wrong. And it’s my opinion that
the jury need only be unanimous about the target crime, that they don’t have to
unanimously agree as to which event, nor does that have to be reflected in the jury
verdict form, whether it be which murder or which robbery or which distribution
of controlled substances.”

8

Any error was therefore invited; consequently, [Petitioner] cannot complain.

2
3
4
5
6

9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18

Any error was also harmless. There is a split of authority on the proper standard
for reviewing prejudice when the trial court fails to give a unanimity instruction.
Some cases hold that the prejudice must be deemed harmless beyond a reasonable
doubt under Chapman v. California (1967) 386 U.S. 18, 24. Other cases hold that
the test is as enunciated in People v. Watson (1956) 299 P.2d 243, which is
whether “it is reasonably probable that a result more favorable to the appealing
party would have been reached in the absence of the error.”
We think Watson provides the correct standard on the issue. That is because the
requirement for jury unanimity in a criminal prosecution is a state constitutional
requirement. The United States Supreme Court “has never held jury unanimity to
be a requisite of due process of law. Indeed, the Court has more than once
expressly said that ‘[i]n criminal cases due process of law is not denied by a state
law . . . which dispenses with the necessity of . . . unanimity in the verdict.’” . . .
There being no right to a unanimous verdict under the United States Constitution,
the question of whether [Petitioner] was entitled to a unanimity instruction is a
state, not a federal, issue.

19
20
21
22
23
24
25
26
27
28

In any event, the jury found [Petitioner] guilty of the murder of Rosas. On the
record facts, which show that [Petitioner’s] participation in the murder of Rosas
was in authorizing the murder, and there being no evidence in the record that
[Petitioner] actually participated in the murder, or, being present, aided and
abetted in the commission thereof, the guilty verdict on [Petitioner] for the murder
of Rosas could only have been by reason of the jury unanimously finding that
[Petitioner] had conspired to murder Rosas. Because of this implicit unanimous
finding of conspiracy, it is not reasonably probable that [Petitioner] would have
obtained a more favorable verdict had the unanimity instruction in question been
given. For the same reason, any error was harmless even if the standard applied
were the Chapman standard of harmless error beyond a reasonable doubt.
Resp. Ex. 1 at 49–57 (some alterations in original) (citations omitted).
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
40

App. 45

ER 41

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 46 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 41 of 70

United States District Court
Northern District of California

1

It is axiomatic that due process and the right to trial by jury “require criminal convictions

2

to rest upon a jury determination that the defendant is guilty of every element of the crime with

3

which he is charged, beyond a reasonable doubt.” United States v. Gaudin, 515 U.S. 506, 510

4

(1995); Patterson v. New York, 432 U.S. 197, 204 (1977). Although state criminal defendants

5

have no federal right to a unanimous jury verdict (at least in noncapital cases), Johnson v.

6

Louisiana, 406 U.S. 356, 359 (1972), the California Constitution requires jury unanimity in a

7

criminal prosecution, Cal. Const. art. I, § 16. At bottom, Petitioner here does not challenge jury

8

unanimity, but instead the California Court of Appeal’s interpretation of California conspiracy

9

law. On this point, the Supreme Court has instructed that jurors are not “required to agree upon a

10

single means of commission” of a crime and that federal courts generally may not “substitute

11

[their] own interpretations of state statutes for those of a State’s courts.” Schad v. Arizona, 501

12

U.S. 624, 631, 636 (1991) (plurality opinion).

13

Here, the California Court of Appeal fully detailed why the jury did not need to agree on

14

whom Petitioner conspired to murder. Specifically, the Court of Appeal explained that “the

15

specific crimes that constitute the object of the conspiracy are not elements of the conspiracy.”

16

Petitioner cites to the California Supreme Court’s holding that “[a] requirement of jury unanimity

17

typically applies to acts that could have been charged as separate offenses.” People v. Beardslee,

18

806 P.2d 1311, 1323 (Cal. 1991). However, the Court of Appeal confronted Beardslee and

19

described why, on the facts of Petitioner’s case, the jury was properly instructed. Indeed, the

20

California Court of Appeal has previously recognized that “the [unanimity] instruction as to a

21

single act need not be given where the acts proved are just alternate ways of proving a necessary

22

element of the same offense.” People v. Mitchell, 232 Cal. Rptr. 438, 441 (Ct. App. 1986)

23

(internal quotation marks and citation omitted). As Petitioner acknowledges in his supplemental

24

points in support of traverse, his argument here overlaps with his argument that the trial court was

25

required to instruct on multiple conspiracies, Supp. Traverse 16, an argument which the Court has

26

addressed above.

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
41

App. 46

ER 42

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 47 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 42 of 70

Moreover, the California Court of Appeal rejected Petitioner’s argument on another

United States District Court
Northern District of California

1
2

legitimate basis, which Petitioner does not challenge here. Specifically, the Court of Appeal

3

concluded that any error was invited by Petitioner. Resp. Ex. 1 at 55. Petitioner could overcome

4

this failure to comply with California’s procedural rule only by demonstrating cause and prejudice

5

or a fundamental miscarriage of justice, Coleman v. Thompson, 501 U.S. 722, 750 (1991), neither

6

of which he has tried to show. Accordingly, Petitioner is not entitled to habeas relief on this

7

claim.

8

7.

Notice of charges

9

Petitioner’s seventh claim is that the prosecution did not reveal until well after the start of

10

trial that it was relying on “overt acts alleging crimes against Alfonso Urango and James Esparza.”

11

Pet. at 23. According to Petitioner, the prosecution’s delay deprived him of adequate notice of the

12

charges against him, in violation of the Sixth Amendment and his Fourteenth Amendment right to

13

due process. Pet. at 23.

14

The California Court of Appeal rejected Petitioner’s claim, explaining:

15

[Petitioner] contends he was deprived of his Sixth and Fourteenth Amendment
rights to due process and notice of the allegations that he conspired to murder or
assault both Urango and Esparza, where he did not learn of these allegations until
four months into trial. We disagree.

16
17
18
19
20
21
22
23
24
25
26
27
28

At the conclusion of the trial, the prosecution proposed a jury verdict form listing
the conspiracy’s potential victims. The list included Urango and Esparza, whose
names did not appear in the indictment as being involved in the alleged overt acts.
[Petitioner] objected to any reference to a conspiracy to murder Urango and
Esparza, arguing that [Petitioner] did not have notice of those charges because
there was no grand jury testimony given and no overt acts alleged that [Petitioner]
had conspired to kill either Urango or Esparza, and that the only evidence
connecting [Petitioner] to the Urango and Esparza incidents came up during
Salazar’s trial testimony. [Petitioner] argues the inclusion of Urango and Esparza
in the prosecutor’s verdict form violated [Petitioner’s] constitutional right to be
informed of the nature of the charges against him.
In our discussion on the requirement of jury unanimity, we concluded that the
target crimes, that is specific crimes that constitute the object of the conspiracy,
are not elements of the conspiracy; rather, they are only the means by which the
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
42

App. 47

ER 43

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 48 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 43 of 70

1
2

purpose of the conspiracy was to be achieved. Because the Urango/Esparza
incidents were not an element of the charged conspiracy, the prosecutor’s
reference added nothing to what the jury needed to reach a finding of conspiracy.
The outcome would have been the same.

3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Consequently, any error was harmless, regardless of whether the standard of
review applied is . . . harmless error beyond a reasonable doubt, or . . . reasonable
probability of a more favorable outcome.
Resp. Ex. 1 at 57–58.
The Sixth Amendment states that “[i]n all criminal prosecutions, the accused shall enjoy
the right . . . to be informed of the nature and cause of the accusation.” U.S. Const. amend. VI.
Similarly, as a matter of due process, it is “clearly established . . . that notice of the specific
charge, and a chance to be heard in a trial of the issues raised by that charge, if desired, are among
the constitutional rights of every accused in a criminal proceeding in all courts.” Cole v.
Arkansas, 333 U.S. 196, 201 (1948); In re Oliver, 333 U.S. 257, 273 (1948) (“A person’s right to
reasonable notice of a charge against him . . . [is] basic in our system of jurisprudence . . . .”).
Here, the California Court of Appeal did not unreasonably apply these broad principles in
deciding that Petitioner had adequate notice of the nature and charges against him. In many ways,
Petitioner’s case mimics Lopez v. Smith, 135 S. Ct. 1 (2014) (per curiam), where the U.S.
Supreme Court found habeas relief unwarranted. In that case, the prosecution charged the
defendant with murder, a charge which encompassed both principal and aider-and-abettor liability,
but focused at trial on the defendant’s liability as a principal. Id. at 2. At the close of evidence,
the prosecution requested an aiding-and-abetting instruction, which the trial court gave. Id. The
Ninth Circuit granted habeas relief, concluding that the defendant’s “Sixth Amendment and due
process right to notice had been violated because . . . the prosecution (until it requested the aidingand-abetting jury instruction) had tried the case only on the [principal liability] theory.” Id. at 3.
The U.S. Supreme Court reversed. The Court reasoned that “the general proposition that a
defendant must have adequate notice of the charges against him” was “too abstract to establish
clearly the specific rule [the defendant] need[ed].” Id. at 4.

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
43

App. 48

ER 44

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 49 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 44 of 70

United States District Court
Northern District of California

1

The same is true here. Petitioner does not dispute, nor could he, that he “was on notice that

2

he was charged with conspiracy to commit murder and assault with a deadly weapon by the

3

omnibus conspiracy count of the indictment.” Pet. at 22–23. Rather, he contends that he did not

4

receive notice because the indictment and grand jury proceedings did not mention as an overt act

5

anything relating to the attempts to kill Urango and Esparza. Pet. at 23. Petitioner cites no

6

Supreme Court authority requiring such specificity. As the California Court of Appeal noted, the

7

specific crimes that constitute the object of the conspiracy “are not elements of the conspiracy” but

8

“only the means by which the purpose of the conspiracy was to be achieved.” Resp. Ex. 1 at 57.

9

In these circumstances, the Court of Appeal could reasonably conclude that failing to include

10

information specific to Urango and Esparza did not undermine Petitioner’s notice of the

11

conspiracy charge. Moreover, in at least one respect, this case is less egregious than Lopez: the

12

prosecution here did not simply request an instruction at the close of trial; rather, the prosecution

13

discussed the Urango and Esparza incidents in its opening statement and introduced evidence

14

during its case-in-chief. On those facts, the California Court of Appeal reasonably determined that

15

Petitioner had “notice of the specific charge, and a chance to be heard in a trial of the issues raised

16

by that charge.” Cole, 333 U.S. at 201.

17

In Lopez, the U.S. Supreme Court also distinguished the exact authorities that Petitioner

18

relies on here. First, the Court explained that the decision in Lankford v. Idaho, 500 U.S. 110

19

(1991), “addressed whether a defendant had adequate notice of the possibility of imposition of the

20

death penalty—a far different question from whether respondent had adequate notice of the

21

particular theory of liability.” Lopez, 135 S. Ct. at 4. The Court further differentiated Lankford

22

on the ground that “the trial court itself made specific statements that encouraged the defendant to

23

believe that the death penalty was off the table.” Id. Those grounds apply with equal force in the

24

instant case. Second, the Court stated that the Ninth Circuit decision in Sheppard v. Rees, 909

25

F.2d 1234 (9th Cir. 1989), cannot form the basis for federal habeas relief because circuit precedent

26

may not be used to “refine or sharpen a general principle of Supreme Court jurisprudence into a

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
44

App. 49

ER 45

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 50 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 45 of 70

1

specific legal rule that [the] Court has not announced.” Lopez, 135 S. Ct. at 4 (quoting Marshall,

2

569 U.S. at 64). The Ninth Circuit’s decision in Sheppard does not directly address the issue

3

presented in this case. See id. Therefore, for essentially the same reasons stated in Lopez,

4

Petitioner is not entitled to habeas relief on this claim.

5

8.

6

Petitioner’s eighth claim is that his conviction for conspiracy to commit murder is

7

unconstitutionally vague and generic. Pet. at 24–25. Specifically, he argues that because “there is

8

no way of saying when he agreed to kill, with whom he agreed, how he agreed, or even whom he

9

agreed to kill,” it cannot be discerned whether “the jury relied on any specific illegal conduct.”

United States District Court
Northern District of California

10

Vagueness

Pet. at 24.

11

The California Court of Appeal rejected Petitioner’s claim, explaining:

12

[Petitioner] contends his conviction for conspiracy to commit murder violates
state and federal due process guarantees because a conspiracy to kill one of
various persons without agreement upon who was to be killed is
unconstitutionally vague and generic. The contention is without merit.

13
14
15
16
17
18
19
20
21
22
23
24
25

We have already determined that the trial court was not required to instruct the
jury that it had to agree unanimously whom [Petitioner] conspired to kill. Such
determination disposes of [Petitioner’s] present contention, as well.
[Petitioner’s] reliance on Suniga v. Bunnell (9th Cir. 1993) 998 F.2d 664, is
misplaced. Due process was implicated in Suniga because there was in that case
one theory of liability upon which the jury was instructed that did not exist in
California law. We do not have such a situation here.
In any event, any error was harmless because, as discussed, by finding [Petitioner]
guilty of the murder of Rosas on the record facts, the jury had also to find
unanimously that [Petitioner] had conspired to murder Rosas.
Resp. Ex. 1 at 58.
As noted above, in at least some circumstances, a state may constitutionally submit
multiple theories of criminal liability to a jury without requiring unanimity on any one of them.
Schad, 501 U.S. at 631 (plurality opinion). States do not have free rein to define different courses

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
45

App. 50

ER 46

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 51 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 46 of 70

1

of conduct as alternative means of committing a single offense, however. Id. at 632. Rather, the

2

Due Process Clause mandates that “no person may be punished criminally save upon proof of

3

some specific illegal conduct.” Id. at 633. For example, a state may not “convict anyone under a

4

charge of ‘Crime’ so generic that any combination of jury findings of embezzlement, reckless

5

driving, murder, burglary, tax evasion, or littering, for example, would suffice for conviction.” Id.

United States District Court
Northern District of California

6

The California Court of Appeal reasonably concluded that Petitioner’s conviction stayed

7

within these constitutional bounds. Petitioner repeats his argument that “there is no way of saying

8

when he agreed to kill, with whom he agreed, how he agreed, or even whom he agreed to kill.”

9

Pet. at 24. The Court of Appeal again explained that Petitioner’s conviction was based on a

10

specific theory of criminal conduct under the non-generic crime of conspiracy, which does not

11

require the jury to be unanimous on whom Petitioner conspired to kill. Resp. Ex. 1 at 58. The

12

instant case is also materially different than Petitioner’s cited authority, Suniga v. Bunnell, 998

13

F.2d 664 (9th Cir. 1993). In that case, unlike here, due process was implicated because the

14

defendant “could [have] be[en] found guilty of murder on a non-existent legal theory.” Id. at 669.

15

Thus, even considering Petitioner’s Ninth Circuit case, he has not shown entitlement to habeas

16

relief on this claim.

17

9.

Sufficiency of the evidence

18

Petitioner’s ninth claim is that there was insufficient evidence to support his conviction for

19

conspiracy to commit murder. Pet. at 25–27. Again emphasizing that the jury was not asked to

20

identify the target of Petitioner’s conspiracy, Petitioner argues that his conviction violates due

21

process because “this Court cannot determine whether or not the jury found him guilty of

22

conspiring to kill a person for whom there is constitutionally sufficient evidence in support of the

23

conviction.” Pet. at 25 (capitals omitted).

24

The California Court of Appeal rejected Petitioner’s claim, explaining:

25

[Petitioner] contends his conviction for conspiracy to commit murder must be
reversed for constitutionally insufficient evidence because this court cannot
determine whether or not the jury found him guilty of conspiring to kill a person

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
46

App. 51

ER 47

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 52 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 47 of 70

1
2
3
4
5
6

for which conspiracy there is constitutionally sufficient evidence in support of
conviction. The contention is without merit.
Again, we have already determined that the jury was correctly instructed that it
did not need to agree unanimously on which particular murder [Petitioner]
conspired to commit so long as it unanimously agreed that [Petitioner] conspired
to commit murder as the object of the conspiracy. The jury subsequently found
[Petitioner] guilty of the Rosas murder. The guilty finding on the Rosas murder
could have only been reached by a unanimous jury finding that [Petitioner]
conspired to kill Rosas. That unanimous conspiracy finding was sufficient to
support the guilty finding on the single conspiracy count.

7
8
9
10

United States District Court
Northern District of California

11
12
13

Moreover, where the jury is presented with several factual theories for conviction,
some of which are predicated upon insufficient evidence, “the appellate court
should affirm the judgment unless a review of the entire record affirmatively
demonstrates a reasonable probability that the jury in fact found the defendant
guilty solely on the unsupported theory.” The Rosas murder conviction
eliminates such a probability.
Resp. Ex. 1 at 58–59 (citation omitted).
Evidence is constitutionally sufficient to support a conviction when, “viewing the evidence
in the light most favorable to the prosecution, any rational trier of fact could have found the

14

essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307,

15

319 (1979); see also Cavazos v. Smith, 565 U.S. 1, 2 (2011) (per curiam) (“[I]t is the

16
17
18

responsibility of the jury—not the court—to decide what conclusions should be drawn from
evidence admitted at trial.”). The reviewing court presumes that the trier of fact resolved any
factual conflicts in the record in favor of the prosecution and defers to that resolution. Jackson,

19

443 U.S. at 326. The U.S. Supreme Court has “made clear that [sufficiency-of-the-evidence]

20

claims face a high bar in federal habeas proceedings.” Coleman v. Johnson, 566 U.S. 650, 651

21
22
23
24
25

(2012) (per curiam).
Here, the California Court of Appeal’s determination that sufficient evidence supported
Petitioner’s conspiracy conviction was not objectively unreasonable. The Court of Appeal
explained that because there was no record evidence that Petitioner participated in or was present
during the Rosas murder, the jury’s determination that Petitioner was guilty of the Rosas murder

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
47

App. 52

ER 48

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 53 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 48 of 70

1

necessarily demonstrates that sufficient evidence supports that Petitioner conspired to kill Rosas.

2

Resp. Ex. 1 at 59. Indeed, Petitioner does not challenge the sufficiency of the evidence supporting

3

his murder conviction, which included testimony that, in a three-way telephone conversation,

4

Petitioner approved Rosas’s murder and gave Chavez the authority to call the hit and testimony

5

that, in prison, Petitioner admitted to ordering the murder. See, e.g., Resp. Ex. 6, RT 12220.

6

Petitioner suggests that because the Court lacks an explicit indication about the jury’s theory, the

7

jury’s verdict could have rested on an unsupported ground. Pet. at 26. But Petitioner does not

8

identify any affirmative indication that the jury relied on an inadequate ground, and the Court of

9

Appeal followed well settled state and federal law espousing the general rule that “[w]hen a jury

10

returns a guilty verdict on an indictment charging several acts in the conjunctive, . . . the verdict

11

stands if the evidence is sufficient with respect to any one of the acts charged.” Griffin v. United

12

States, 502 U.S. 46, 56–57 (1991) (quoting Turner v. United States, 396 U.S. 398, 420 (1970));

13

see also People v. Guiton, 847 P.2d 45, 52 (Cal. 1993) (“If the inadequacy of proof is purely

14

factual, of a kind the jury is fully equipped to detect, reversal is not required whenever a valid

15

ground for the verdict remains, absent an affirmative indication in the record that the verdict

16

actually did rest on the inadequate ground.”). In any event, Petitioner does not develop an

17

argument that the other grounds that could support his conviction (such as conspiracy to kill

18

Urango and Esparza) are unsupported by substantial evidence.

19

Petitioner raises two additional points. First, he suggests that his conviction could not rest

20

on a conspiracy to murder Rosas because he received a separate punishment for the murder. Pet.

21

at 25–26. That issue goes to sentencing, not to the sufficiency of the evidence supporting his

22

conviction. The Court analyzes that argument below. Second, Petitioner argues that to the extent

23

his conviction was based on gang membership alone, the conviction violates due process.

24

Specifically, he cites the Ninth Circuit’s statement in United States v. Garcia, 151 F.3d 1243, 1246

25

(9th Cir. 1998), that “evidence of gang membership cannot itself prove that an individual has

26

entered a criminal agreement to attack members of rival gangs.” First and foremost, Garcia cannot

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
48

App. 53

ER 49

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 54 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 49 of 70

1

serve as the basis for habeas relief because it is not a decision of the Supreme Court and does not

2

purport to hold that the U.S. Supreme Court has “clearly established” the stated rule. See

3

Marshall, 569 U.S. at 64. Moreover, the California Court of Appeal did not insinuate that

4

Petitioner’s membership in Nuestra Familia alone was enough to show an agreement to

5

accomplish a specific illegal objective; rather, the Court described the defendants’ agreement to

6

commit specific crimes to advance “the overriding purpose of the [Nuestra Familia], which was to

7

establish power through the use of crime, force, and fear, and to use that power to further

8

strengthen and perpetuate itself by killing its enemies, raising money for the gang, and instilling

9

obedience and discipline among its members.” Resp. Ex. 1 at 45. Accordingly, Petitioner has not

United States District Court
Northern District of California

10

shown entitlement to habeas relief on the basis of insufficiency of the evidence.

11

10.

Failure to modify withdrawal instruction

12

Petitioner’s tenth claim is that the trial court should have modified California Jury

13

Instructions—Criminal (“CALJIC”) No. 6.20, which describes how a member of a conspiracy

14

may effectively withdraw from the conspiracy, before giving it to the jury in this case. Pet. at 27.

15

Specifically, he contends that the instruction could be misread to require oral communication for

16

withdrawal, even though the law clearly allows withdrawal by a non-verbal affirmative act. Pet. at

17

27. He argues that this instructional error interfered with his Sixth Amendment right to present a

18

defense and to trial by jury and violated his due process rights under the Fourteenth Amendment.

19

Pet. at 28.

20

The California Court of Appeal rejected Petitioner’s claim, explaining:

21

[Petitioner] contends the trial court violated his state and federal constitutional
rights to due process and a fair trial by jury by refusing to give the modified
withdrawal instruction that he requested, which was supported by the evidence
and which pinpointed the defense theory of the case. The contention is without
merit.

22
23
24
25
26
27
28

[Petitioner] requested the court to give a modified version of CALJIC No. 6.20,
reading as follows: “Any member of a conspiracy may withdraw from and cease
to be a party to the conspiracy, but [his][her] liability for the acts of [his] [her] coCase No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
49

App. 54

ER 50

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 55 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 50 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

conspirators continues until [he][she] effectively withdraws from the conspiracy.
[¶] Withdrawal may be communicated by an affirmative act bringing home the
fact of [his][her] withdrawal to [his][her] companions. The affirmative act must
be made in time for [his][her] companions to effectively abandon the conspiracy
and in a way which would be sufficient to inform a reasonable person of the
withdrawal. [¶] In order to effectively withdraw from a conspiracy, there must be
an affirmative and bona fide rejection or repudiation of the conspiracy which must
be communicated to the other conspirators of whom [he][she] has knowledge. [¶]
If a member of a conspiracy has effectively withdrawn from the conspiracy
[he][she] is not thereafter liable for any act of the co-conspirators committed
subsequent to [his][her] withdrawal from the conspiracy, but [he][she] is not
relieved of responsibility for the acts of [his][her] co-conspirators committed
while [he] [she] was a member. [¶] If the evidence raises a reasonable doubt as
to whether the defendant withdrew from the conspiracy, you must find that [he]
[she] did withdraw.”
The court refused [Petitioner’s] request and gave instead the unmodified version
of CALJIC No. 6.20, as follows: “A member of a conspiracy is liable for the acts
and declarations of his co-conspirators until he effectively withdraws from the
conspiracy or the conspiracy has terminated. [¶] In order to effectively withdraw
from a conspiracy, there must be an affirmative and good faith rejection or
repudiation of the conspiracy which must be communicated to the other
conspirators of whom he has knowledge. [¶] If a member of a conspiracy has
effectively withdrawn from the conspiracy he is not thereafter liable for any act of
the co-conspirators committed after his withdrawal from the conspiracy, but he is
not relieved of responsibility for the acts of his co-conspirators committed while
he was a member.”
[Petitioner] argues that the requested modification should have been granted
because without the requested modification “[t]he instruction given could be and
probably was interpreted to require that withdrawal from a conspiracy be by oral
communication,” adding that “[t]his is not correct—one may withdraw from a
conspiracy by an ‘affirmative act’ as well.”
The flaw in the argument is that the unmodified version given by the court did not
require, and could not be misinterpreted as requiring, that the withdrawal from the
conspiracy had to be orally communicated to the coconspirators. As given, the
instruction merely required that there be “an affirmative and good faith rejection
or repudiation of the conspiracy which must be communicated to the other
conspirators of whom he has knowledge.” An “affirmative” act need not be oral.
We do not see how the language of [Petitioner’s] proposed instruction differed
from the unmodified version in this regard since both versions used the word
“affirmative,” and the word “oral” did not appear in either version.

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
50

App. 55

ER 51

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 56 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 51 of 70

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

Moreover, [Petitioner’s] proposed version created more problems than it
attempted to solve.
For example, [Petitioner’s] version used the word
“companions” for “coconspirators.” “Companions” is a word without a settled
legal definition, and one with loose meaning. “Companions” are not necessarily
“coconspirators” within the meaning of California’s penal statutes. What exactly
did [Petitioner] mean by “companions”? [Petitioner’s] proposed version did not
define the term.
[Petitioner’s] proposed modification also provided that “[t]he affirmative act must
be made in time for [his][her] companions to effectively abandon the conspiracy
and in a way which would be sufficient to inform a reasonable person of the
withdrawal.” The addition of the “reasonable person” standard to the instruction
is highly questionable. [Petitioner] has cited no authority requiring the use of
such a standard.
We conclude the trial court did not err in rejecting [Petitioner’s] proposed
modification to CALJIC No. 6.20, and in giving CALJIC No. 6.20 to the jury
without modification.
Resp. Ex. 1 at 59–61 (some alterations in original).
Although instructional errors are cognizable in federal habeas corpus, they “generally may
not form the basis for federal habeas relief.” Gilmore v. Taylor, 508 U.S. 333, 344 (1993). It is
not enough that the instruction was incorrect as a matter of state law. Estelle v. McGuire, 502

15

U.S. 62, 71–72 (1991). Habeas relief is available if “the ailing instruction by itself so infected the

16

entire trial that the resulting conviction violates due process.” Id. at 72 (quoting Cupp v.

17

Naughten, 414 U.S. 141, 147 (1973)). Where the charge as a whole is ambiguous, the question is

18

whether there is a “reasonable likelihood” that the jury misapplied the instruction in a way that

19

violated the defendant’s constitutional rights. Estelle, 502 U.S. at 72 (quoting Boyde v.

20
21
22
23
24
25

California, 494 U.S. 370, 380 (1990)).
The California Court of Appeal did not unreasonably apply federal law when it concluded
that CALJIC No. 6.20 could not be misinterpreted to mean that a defendant can withdraw from a
conspiracy only by verbal communication. CALJIC No. 6.20 states: “In order to effectively
withdraw from a conspiracy, there must be an affirmative and good faith rejection or repudiation
of the conspiracy which must be communicated to the other conspirators of whom he has

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
51

App. 56

ER 52

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 57 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 52 of 70

1

knowledge.” Under the instruction, the defendant must “communicate[]” an “affirmative”

2

rejection or repudiation to the other known conspirators. But nothing in the instruction specifies

3

or suggests that the defendant must orally communicate the withdrawal; the instruction does not

4

use a word like “verbal” or “oral” at all. Instead, the instruction covers non-verbal “affirmative”

5

acts that “communicate[]” the defendant’s withdrawal to his coconspirators. With no identified

6

error of state law in the instruction, it was not unreasonable to conclude that a jury could not have

7

been misled.

8

Petitioner repeats his argument that two Ninth Circuit cases—Escobar de Bright and

9

Unruh—hold that failure to instruct on the defense’s theory is an error of constitutional magnitude.

10

Pet. at 28. For the reasons stated above, this circuit precedent cannot give rise to habeas relief in

11

Petitioner’s case. Even if Escobar de Bright and Unruh were held to apply here, those cases do not

12

provide defendants with an unfettered right to the instructions of their choice. Rather, the holdings

13

in those cases are tempered by the established rule that “the refusal to give a requested instruction

14

will not be overturned ‘if the charge as a whole adequately covers the theory of the defense.’”

15

United States v. Bradshaw, 690 F.2d 704, 710 (9th Cir. 1982) (quoting United States v. Kaplan,

16

554 F.2d 958, 968 (9th Cir. 1977)). Once Petitioner’s argument that CALJIC No. 6.20 is limited

17

to verbal communications of withdrawal is rejected, it is clear that the instruction is broad enough

18

to encompass Petitioner’s theory—namely, that he communicated his withdrawal by failing to

19

follow orders to kill Chavez. Pet. at 27. Petitioner’s challenge to the withdrawal instruction fails,

20

and he is not entitled to habeas relief on this claim.

21

11.

Consecutive sentences

22

Petitioner’s eleventh claim relates to the trial court’s sentencing of Petitioner to twenty-five

23

years to life for the murder of Rosas and a consecutive twenty-five years to life for the conspiracy

24

to commit murder. Pet. at 28. In particular, Petitioner argues that he should not receive

25

consecutive sentences when the “jury never found him guilty of conspiring to murder any specific

26

person other than Rosas.” Pet. at 29. According to Petitioner, the trial court decided facts that

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
52

App. 57

ER 53

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 58 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 53 of 70

1

increased the penalty of Petitioner’s crime beyond the prescribed statutory maximum, in violation

2

of California law and Petitioner’s right to trial by jury and due process. Pet. at 29.

3

The California Court of Appeal rejected Petitioner’s claim, explaining:

4

[Petitioner] contends he was improperly sentenced to consecutive terms of 25
years to life for both the Rosas murder conviction and for the conspiracy to
commit murder, in violation of section 654. The contention is without merit.

5
6
7
8
9

Section 654, subdivision (a), provides: “An act or omission that is punishable in
different ways by different provisions of law shall be punished under the
provision that provides for the longest potential term of imprisonment, but in no
case shall the act or omission be punished under more than one provision. An
acquittal or conviction and sentence under any one bars a prosecution for the
same act or omission under any other.”

10
...

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21

With respect to conspiracy, the rule was well summarized . . . as follows:
“Because of the prohibition against multiple punishment in section 654, a
defendant may not be sentenced ‘for conspiracy to commit several crimes and for
each of those crimes where the conspiracy had no objective apart from those
crimes. If, however, a conspiracy had an objective apart from an offense for
which the defendant is punished, he may properly be sentenced for the conspiracy
as well as for that offense.’ Thus, punishment for both conspiracy and the
underlying substantive offense has been held impermissible when the conspiracy
contemplated only the act performed in the substantive offense, or when the
substantive offenses are the means by which the conspiracy is carried out.
Punishment for both conspiracy and substantive offenses has been upheld when
the conspiracy has broader or different objectives from the specific substantive
offenses.”
Here, there is strong evidence that the NF, of which [Petitioner] was a member,
conspired to kill not only Rosas, but other persons as well, in addition to the
gang’s overriding conspiracy discussed [earlier].

22
23
24
25

We conclude the trial court did not err in not applying section 654, and in
sentencing [Petitioner] to consecutive life terms for the Rosas murder and the
conspiracy to commit murder.
Resp. Ex. 1 at 66–68 (alterations omitted).

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
53

App. 58

ER 54

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 59 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 54 of 70

1
2

the jury’s exclusive province. Under that guarantee, the U.S. Supreme Court has held that “[o]ther

3

than the fact of a prior conviction, any fact that increases the penalty for a crime beyond the

4

prescribed statutory maximum must be submitted to a jury, and proved beyond a reasonable

5

doubt.” Apprendi v. New Jersey, 530 U.S. 466, 490 (2000). Thus, the crucial issue is whether

6

“the required finding expose[s] the defendant to a greater punishment than that authorized by the

7

jury’s guilty verdict.” Id. at 494.

8

United States District Court
Northern District of California

The Sixth Amendment’s jury-trial guarantee assigns the determination of certain facts to

Here, the California Court of Appeal’s conclusion does not run afoul of Apprendi. The

9

jury found Petitioner guilty of murder and found Petitioner guilty of conspiracy to commit murder,

10

assault with a deadly weapon, intimidation of witnesses, and possession of a concealed firearm by

11

a convicted felon. Resp. Ex. 8, CT 1840–43. In undertaking the task of determining whether to

12

run consecutively the separate twenty-five-years-to-life sentences on each count, the trial court did

13

not make a finding that increased Petitioner’s punishment beyond the statutory maximum for

14

either the murder conviction or the conspiracy conviction. Apprendi itself is distinguishable

15

precisely because it involved sentencing for a discrete crime, not the aggregate effect of multiple

16

crimes. 530 U.S. at 474. Indeed, Apprendi rooted its rule in the historical tradition of having

17

juries decide factual questions to guard against the tyranny of the state. Id. at 477. The California

18

Court of Appeal could reasonably conclude that that same commitment is not implicated in the

19

decision about whether sentences should run concurrently or consecutively.4

20

Petitioner separately argues that the Court of Appeal misapplied California Penal Code

21

section 654. Pet. at 28. Here, the Court of Appeal fully explained why section 654 was

22

inapplicable: the conspiracy that Petitioner was charged with had a broader objective than the

23

specific substantive offense of murder. Resp. Ex. 1 at 66–67. Even if this Court were concerned

24
25
26
27
28

4
Indeed, although it does not constitute governing law for purposes of Petitioner’s habeas petition,
the Supreme Court later held that Apprendi does not apply to consecutive-sentencing decisions.
See Oregon v. Ice, 555 U.S. 160, 168 (2009).

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
54

App. 59

ER 55

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 60 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 55 of 70

1

that an error was committed, it is not the province of a federal habeas court to correct a

2

misapplication of state sentencing law absent some identified constitutional issue. See, e.g.,

3

Richmond v. Lewis, 506 U.S. 40, 50 (1992). Accordingly, Petitioner has not shown entitlement to

4

habeas relief on this claim.

5

12.

Shackling

6

Petitioner’s twelfth claim centers on the trial court’s decision to have all defendants,

7

including Petitioner, wear shackles during trial. Pet. at 30–36. Petitioner argues that the shackling

8

violated his right to an impartial jury and due process because the trial court’s decision was not

9

justified by an essential state interest specific to the trial. Pet. at 35–36. Petitioner further states

10

that the shackling prejudiced him because the shackles were visible to the jury throughout the trial

11

and at least some of the jurors saw the shackles. Pet. at 36. Petitioner did not present this claim in

12

his direct appeal. Rather, he made this claim in a petition for writ of habeas corpus to the

13

California Supreme Court, and his petition was summarily denied on April 30, 2003. Resp. Ex. 3.

14

Central to the right to a fair trial, guaranteed by the Sixth and Fourteenth Amendments, is

15

the notion that “one accused of a crime is entitled to have his guilt or innocence determined solely

16

on the basis of the evidence introduced at trial, and not on grounds of official suspicion,

17

indictment, continued custody, or other circumstances not adduced as proof at trial.” Taylor v.

18

Kentucky, 436 U.S. 478, 485 (1978). At the time of the California Supreme Court’s decision, the

19

U.S. Supreme Court defined shackling as “the sort of inherently prejudicial practice that . . .

20

should be permitted only where justified by an essential state interest specific to each trial.”

21

Holbrook v. Flynn, 475 U.S. 560, 568–69 (1986). Even binding and gagging a defendant could be

22

constitutionally permissible as a last resort. Illinois v. Allen, 397 U.S. 337, 343–44 (1970). The

23

determination of an essential state interest “turns on the facts of the case.” Hedlund v. Ryan, 854

24

F.3d 557, 568 (9th Cir. 2017).

25
26
27
28

On the particular facts of this case, the Court concludes that there was a reasonable basis
for the California Supreme Court to deny relief. The Court recognizes the seriousness of
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
55

App. 60

ER 56

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 61 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 56 of 70

1

shackling and the likelihood that the practice could influence a jury in ways that will not be readily

2

apparent in the record. See Riggins v. Nevada, 504 U.S. 127, 137 (1992) (noting that some

3

consequences “cannot be shown from a trial transcript”). Nevertheless, here, the facts and context

4

reasonably demonstrate that the trial court’s decision to shackle Petitioner was justified by an

5

essential state interest specific to Petitioner’s trial—namely, security of those in the courtroom.
In particular, Petitioner had decision-making authority as a member of a violent gang,

United States District Court
Northern District of California

6
7

which leveraged contacts inside and outside prison to kill those who opposed the gang. Petitioner

8

(as well as the other defendants) was specifically charged with a count of conspiracy to commit

9

witness intimidation. Resp. Ex. 8, CT 1840. And there had been incidents in the lead-up to trial

10

with respect to certain witnesses. For example, after Mari Reyes testified before the grand jury,

11

she was threatened by one of the Nuestra Familia members, being told that she should “be careful

12

or else . . . [she’d] end up like the rest.” Resp. Ex. 14, RT 1920–21. Similarly, one of the jailed

13

Nuestra Familia members stated that “when the indictments do come out, we’ll start from the top,

14

the ones that done the most damage, we’ll eliminate them first, and we’ll go down the line.” Resp.

15

Ex. 14, RT 3234. On this record, the California Supreme Court could have reasonably concluded

16

that shackling in this case was “justified by an essential state interest specific to [the] trial.”

17

Holbrook, 475 U.S. at 569.
Moreover, the trial court held multiple hearings to resolve particular issues related to the

18
19

shackling.5 Notably, Petitioner does not identify any place in the record where either he or one of

20

his codefendants requested to be completely free of shackles. However, multiple requests were

21
22
23
24
25
26
27
28

5

Although the Court focuses on the shackling-specific hearings, the trial court also held multiple
hearings about other security concerns. Among other things, the court dealt with issues relating to
defendants’ housing, security arrangements during attorney–client meetings, and the number of
security personnel in the courtroom. See, e.g., Resp. Ex. 15D, RT 93; Resp. Ex. 15B, RT 263–64;
Resp. Ex. 6, RT 5–13. The prosecution highlighted security concerns and reiterated that “there
[was] substantial evidence to believe that the lives of witnesses are in danger.” Resp. Ex. 15D, RT
79. The court often sought to balance such concerns against the defendants’ rights to assistance of
counsel. See, e.g., Resp. Ex. 15B, RT 263–64 (ordering that “the writing hand of the defendant be
free during the attorney client interview” to facilitate communication between the attorneys and
their clients).
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
56

App. 61

ER 57

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 62 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 57 of 70

1

made for less restrictive alternatives. Even though the requirement to pursue less restrictive means

2

of shackling was not clearly established until 2005, Crittenden v. Ayers, 624 F.3d 943, 971 (9th

3

Cir. 2010), the trial court specifically considered these alternatives and rejected more restrictive

4

options. For example, at a pretrial hearing in August 1994, defense counsel asked that their clients

5

be allowed to have one hand free during court proceedings. Resp. Ex. 15C, RT 1140. The

6

prosecution objected, noting that the grand jury testimony showed that various defendants would

7

pose a safety risk to witnesses. Resp. Ex. 15C, RT 1141. Defense counsel responded that the

8

safety risk of unshackling one hand was minimal because their “clients would still have leg irons

9

on and one hand restrained.” Resp. Ex. 15C, RT 1142. The trial court ruled that “the defense

10

request be honored and that one hand be unshackled.” Resp. Ex. 15C, RT 1147. The court

11

explained that such unshackling was necessary to avoid the “possible impediment to the right to

12

present a defense and issues involving human dignity.” Resp. Ex. 15C, RT 1147.

13

At another point in pretrial proceedings, the prosecution raised the issue of whether

14

defendants should wear stun belts in court. When the issue first surfaced, Petitioner’s counsel

15

noted at a June 1996 hearing that stun belts would be uncomfortable and “very, very obvious to

16

the jury”; the court deferred ruling until the belts arrived. Resp. Ex. 6, RT 17, 20. At a later

17

hearing, Petitioner’s counsel voiced concerns about using the stun belts and stated that

18

“[Petitioner] is opposed to the use of the [stun] belt, much prefers the bolt to the floor as we talked

19

about last Monday.” Resp. Ex. 6, RT 253. Finally, when the stun belts arrived, the court held

20

another hearing in July 1996. Resp. Ex. 6, RT 448. At that hearing, Petitioner’s counsel stated:

21
22
23
24
25
26
27
28

Since the defendants have been shackled to the bolts on the floor, it’s allowed
freedom of movement. I can communicate with [Petitioner], it’s unobtrusive,
can’t be seen. It’s covered, virtually soundproof and he’s comfortable with it.
With regard to the [stun] belt that has been demonstrated, I don’t think that would
provide the same sort of comfort as far as the defendant is concerned and would
be more obtrusive. And the chance of accident with the use of that and injury to
other persons other than defendants is certainly present. I object to the use of the
electric belt.
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
57

App. 62

ER 58

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 63 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 58 of 70

1

Resp. Ex. 6, RT 452. The court concluded that though stun belts could be used, “given the

2

duration of [the] trial, . . . and the willingness of all the defendants to agree to be shackled to the

3

ground . . . , [the court would] exercise [its] discretion and direct that the defendants be shackled to

4

the ground as requested.” Resp. Ex. 6, RT 458–59. Based on the trial court’s thorough weighing

5

of the factors at play, the California Supreme Court had a reasonable basis to deny habeas relief.

United States District Court
Northern District of California

6

Petitioner’s responses do not alter this conclusion. Petitioner first contends that the trial

7

judge was required to hold an evidentiary hearing and make explicit findings of an essential state

8

interest. Pet. at 30. But, as noted above, the trial court convened multiple proceedings at which

9

these issues were discussed in detail. In any event, neither Holbrook nor Allen—the two U.S.

10

Supreme Court shackling cases relevant here—clearly avows that trial courts must hold an

11

evidentiary hearing or recite specific factual findings. It was not until the 2005 decision in Deck

12

v. Missouri, 544 U.S. 622, 634 (2005), that the U.S. Supreme Court clarified that shackling

13

requires a case-by-case determination supported by “formal or informal findings.” See also id. at

14

649 (Thomas, J., dissenting) (criticizing the majority’s adoption of an “additional requirement of

15

on-the-record findings” by the trial judge). Even then, the Court left open the possibility that there

16

could be “exceptional case[s] where the record itself makes clear that there are indisputably good

17

reasons for shackling.” Id. at 635 (majority opinion). Indeed, before Deck was decided, the Ninth

18

Circuit had stated: “[W]e have never held, and we refuse to hold now, that a trial court must

19

conduct a hearing and make findings before ordering that a defendant be shackled.” Morgan v.

20

Bunnell, 24 F.3d 49, 52 (9th Cir. 1994) (per curiam) (quoting Jones v. Meyer, 899 F.2d 883, 886

21

(9th Cir. 1990)). Thus, even if the Court concluded that the trial court’s findings and hearings

22

were imperfect, neither was required by clearly established federal law as of the time of the

23

California Supreme Court decision.

24

Petitioner also cites to statements by the trial judge that Petitioner believes undermines the

25

notion that security concerns necessitated shackling. First, at one of the hearings involving the

26

stun belts, the trial judge stated, in response to a comment from Lopez’s attorney that Lopez had

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
58

App. 63

ER 59

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 64 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 59 of 70

1

“never been a problem in court and . . . would prefer the shackle,” that “[Lopez has] never been a

2

problem in the courtroom. None of the defendants have been a problem in the courtroom.” Resp.

3

Ex. 6, RT 13. Then, at the hearing deciding whether to unshackle one of the defendants’ hands,

4

the trial judge stated that “there [had] been no evidence presented to [the court] to suggest that

5

there would be an escape from th[e] courtroom . . . [or] that any of the defendants might be

6

violent” and reiterated that “the defendants have never been disruptive and . . . have always been

7

respectful.” Resp. Ex. 15C, RT 1147. Placed in their appropriate context, those statements are not

8

as broad as they might appear at first blush. For one thing, the judge’s statements came in

9

response to specific requests from the defense lawyers—requests not to use stun belts and requests

10

to unshackle one hand, respectively. For another, all of those statements were made during

11

pretrial proceedings, when the risk of danger to witnesses had not yet manifested. Most

12

importantly, however, the defendants had been shackled during pretrial proceedings, including at

13

the time that the trial judge made the statements. Thus, it is difficult to interpret the trial judge’s

14

statements as general observations about the defendants’ behavior; it is more reasonable to

15

understand those statements to reflect how the defendants had acted while wearing shackles. In

16

this way, the trial judge’s statements do not detract from the reasonable basis upon which the

17

California Supreme Court could have denied relief. Accordingly, Petitioner is not entitled to

18

habeas relief on his shackling claim.

19

The Court also notes that, on habeas review, Petitioner must show that the error had

20

“substantial and injurious effect or influence in determining the jury’s verdict.” Hedlund, 854

21

F.3d at 568 n.7 (quoting Brecht v. Abrahamson, 507 U.S. 619, 623 (1993)). Petitioner cannot

22

clear that bar here. In support of his contention that multiple jurors saw his shackles (but did not

23

see the shackles of the other three defendants), Petition submits only his own notes from trial and

24

his own drawing of the layout of the courtroom. Pet. Ex. 12. Those materials are not evidence

25

and, in any event, do not definitively show what the jury could or did see. Petitioner submits no

26

supporting documentary evidence, such as his own affidavit or an affidavit from one of the jurors.

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
59

App. 64

ER 60

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 65 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 60 of 70

1

Additionally, prejudice is diminished because Petitioner’s counsel did not ask for

2

Petitioner to be unshackled and did not object to the judge informing the jury that Petitioner was

3

shackled. Resp. at 91. As a general matter, “[a] jury is presumed to follow its instructions.”

4

Weeks v. Angelone, 528 U.S. 225, 234 (2000). Here, the court told the jury multiple times not to

5

consider the shackling. At the beginning of the case, the court instructed the jury from a statement

6

prepared by one of the defense attorneys: “The defendants in this case are shackled. The fact that

7

they are shackled is not evidence. You cannot allow that to affect your decision in this case, nor

8

can you speculate as to the reason for the shackling.” Resp. Ex. 17, RT 651. The court shortly

9

thereafter instructed that the defendants are presumed innocent. Resp. Ex. 17, RT 652. At the end

10

of the case, the court reminded the jury: “The fact that physical restraints have been placed on the

11

defendants must not be considered by you for any purpose. They are not evidence of guilt, and

12

must not be considered by you as any evidence that any defendant is more likely to be guilty than

13

not guilty.” Resp. Ex. 11, CT 755. These curative instructions provide assurance that the jury did

14

not rely on Petitioner’s shackling, especially where Petitioner’s counsel agreed for the jury to be

15

instructed in this manner.

16

Further, and finally, the prosecution had strong evidence tending to show Petitioner’s guilt.

17

Both Salazar and Chavez testified that Petitioner had approved the murder of Rosas in the three-

18

way phone call; Petitioner’s sister-in-law testified that she heard Petitioner’s side of the

19

conversation, which included references to Rosas and the instruction to “do what you got to do”;

20

and Shelton testified that Petitioner confessed in prison that he told Salazar and Chavez to deal

21

with Rosas. In light of all of these circumstances, Petitioner has not shown that, even if the trial

22

court erred by ordering shackling, that error had substantial and injurious effect or influence in

23

determining the jury’s verdict.

24

13.

25

Petitioner’s thirteenth claim is that his attorney provided ineffective assistance at multiple

26
27
28

Ineffective assistance throughout trial

stages of the litigation. Pet. at 37–56. Petitioner presented this argument for the first time in a
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
60

App. 65

ER 61

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 66 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 61 of 70

1

habeas petition denied by the California Supreme Court on April 30, 2003. Resp. Ex. 3. Where,

2

as here, an ineffective assistance claim does not accuse an attorney of totally failing to subject the

3

prosecution’s case to meaningful adversarial testing, the “specific attorney errors [are] subject to

4

Strickland’s performance and prejudice components.” Bell v. Cone, 535 U.S. 685, 697–98 (2002).

5

As noted earlier, the performance component asks whether counsel’s performance “so undermined

6

the proper functioning of the adversarial process that the [proceedings] cannot be relied on as

7

having produced a just result.” Strickland, 466 U.S. at 686. As the U.S. Supreme Court has

8

instructed, courts must “apply[] a heavy measure of deference to counsel’s judgments.” Id. at 691.

9

The prejudice component asks whether “there is a reasonable probability that, but for counsel’s

10

United States District Court
Northern District of California

11

unprofessional errors, the result of the proceeding would have been different.” Id. at 694.
Petitioner’s contentions fall into three groups. First, Petitioner challenges his attorney’s

12

decision to oppose the severance motion brought by other defendants. Second, Petitioner

13

disagrees with his attorney’s handling of certain evidence related to the murder of Rosas. Third,

14

Petitioner argues that his attorney did not adequately pursue evidentiary avenues in opposing the

15

prosecution’s motion to vacate Petitioner’s plea agreement. The Court analyzes each of these

16

categories in turn.

17
18

a.

Motion to sever

Petitioner first claims that his attorney’s performance with respect to the prosecution’s

19

motion to consolidate was deficient. Pet. at 38–46. The Court begins with a brief factual

20

background. The prosecution moved to consolidate two indictments charging twenty-one

21

defendants in total. In one of the indictments, Petitioner was charged with conspiracy to commit

22

various crimes (including murder) in Count One and murder of Rosas in Count Twelve. Resp. Ex.

23

8, CT 1370–72, 1388–89. Eighteen other defendants were also charged in Count One, and six

24

other defendants were also charged in Count Twelve. Resp. Ex. 8, CT 1370, 1388–89.

25
26
27
28

Multiple defendants opposed consolidation and filed differing motions to sever. For
example, Truejque moved to sever his trial from that of Hernandez and Reveles, Petitioner, and
Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
61

App. 66

ER 62

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 67 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 62 of 70

1

Count Twelve. Pet. Ex. 2 at 9. Arroyo and Serna moved to sever Hernandez and Reveles, and

2

Arroyo also moved to sever Petitioner. Pet. Ex. 3 at 4–5; Pet. Ex. 4 at 12. The prosecution

3

objected to the severance of Petitioner. Important here, Petitioner’s counsel filed a motion

4

opposing the severance of Petitioner. Resp. Ex. 8, CT 1104–07. The motion explained that “if

5

[Petitioner] was charged in the indictment with Count 12 only, as are [Hernandez] and [Reveles],

6

justice would best be served and the court discretion would best be exercised by granting the

7

severance.” Resp. Ex. 8, CT 1104. However, because Petitioner was also charged in Count One

8

(along with Truejque, Arroyo, and Serna), the motion argued that Petitioner should not be severed.

9

Resp. Ex. 8, CT 1105–07. The court severed the trial of Hernandez and Reveles but otherwise

10

United States District Court
Northern District of California

11

granted the prosecution’s motion to consolidate the indictments. Resp. Ex. 8, CT 1110.
Petitioner asserts that opposing severance and supporting consolidation constituted

12

constitutionally deficient performance on the part of his attorney. Although Petitioner identifies

13

good reasons to think that severance may have been warranted, Petitioner’s counsel’s motion

14

opposing severance also identifies good reasons to support consolidation. On these facts, there is

15

a reasonable basis to conclude that Petitioner’s counsel, in conjunction with his client, made an

16

informed tactical decision that did not wholly undermine the proper functioning of the adversarial

17

process.

18

As Petitioner’s counsel’s motion opposing severance explains, Petitioner’s case was

19

unlike Hernandez’s and Reveles’s. Those defendants were charged only in Count Twelve, and

20

none of the remaining defendants were charged in that count. Resp. Ex. 8, CT 1104. Although

21

Petitioner was also charged in Count Twelve, he shared an overlapping charge with the remaining

22

defendants—namely, the conspiracy to commit murder and other crimes in Count One. Resp. Ex.

23

8, CT 1105. Therefore, trying Petitioner together with the other defendants would produce

24

efficiencies well-recognized and favored under federal and state law. See Zafiro v. United States,

25

506 U.S. 534, 537 (1993) (“There is a preference in the federal system for joint trials of defendants

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
62

App. 67

ER 63

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 68 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 63 of 70

1

who are indicted together.”); People v. Ochoa, 966 P.2d 442, 475 (Cal. 1998) (“Because

2

consolidation ordinarily promotes efficiency, the law prefers it.”).

3

Likewise, Petitioner’s counsel could reasonably have believed that trying Petitioner with

4

the remaining defendants would be beneficial. Although the other defendants were charged with

5

capital crimes, Petitioner’s counsel could have reasonably believed that any prejudice would be

6

overcome by Petitioner seeming less culpable by comparison. Resp. Ex. 6, RT 17627 (“I felt from

7

a tactical standpoint it would be better for [Petitioner] to be tried with the death penalty defendants

8

since he is the least culpable of all, he would be viewed in a better light by the jury . . . .”); see also

9

People v. Balderas, 711 P.2d 480, 492 (Cal. 1985) (“[N]othing in the prior cases suggests that

10

severance is required whenever capital charges are involved.”). Petitioner’s counsel also

11

highlighted the downfalls of severance: Petitioner could suffer prejudice from being tried with

12

Hernandez and Reveles, who were charged with fewer crimes that had more tangential ties to the

13

gang, and Petitioner could be subjected to multiple full trials on the murder and conspiracy counts,

14

resulting in a possible violation of Petitioner’s due process rights. Resp. Ex. 8, CT 1105–06;

15

Resp. Ex. 18, RT 7. In light of these alternatives, Petitioner’s counsel could reasonably conclude

16

that consolidation was the preferable course.

17

The record also suggests that the decision about whether to oppose severance was fully

18

deliberated between Petitioner and his counsel. As a general matter, Petitioner’s counsel testified

19

at a hearing that he had “fully informed [Petitioner] and [had] discussed all of the important

20

decisions with regard to this case.” Resp. Ex. 6, RT 17626. More specifically, with regard to the

21

motions for severance, Petitioner’s counsel stated that he had considered the positives and

22

negatives to each of the various options. Resp. Ex. 6, RT 17627. As Petitioner’s counsel

23

described, opposing severance “was a tactical decision that was made and made with [Petitioner’s]

24

knowledge.” Resp. Ex. 6, RT 17627; see also Resp. Ex. 6, RT 17627–28 (“With regard to . . .

25

refus[ing] to file motion for severance, I indicated . . . that we opposed that, we opposed the

26

motion for severance.”). Indeed, in a filing submitted to the court, Petitioner admitted that he had

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
63

App. 68

ER 64

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 69 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 64 of 70

1

“agreed not to be severed from th[e] case because [he] was convinced that every defendant made

2

[him] look innocent according to [his attorney].” Resp. Ex. 8, CT 1710. Thus, the record supports

3

that Petitioner and his attorney made an informed decision together about whether to oppose

4

severance. The California Supreme Court could have reasonably determined that Petitioner had

5

failed to establish the performance component of his ineffective assistance claim on the severance

6

issue.

7

Finally, even if Petitioner had shown deficiency in performance, the California Supreme

8

Court could have reasonably concluded that he had not made the requisite showing of prejudice.

9

Improper joinder does not automatically result in a constitutional violation. United States v. Lane,

10

474 U.S. 438, 446 n.8 (1986). And there is reason to think that the trial court would not have

11

granted severance even if Petitioner’s attorney had not opposed or had affirmatively asked for it.

12

As noted above, California law (as well as federal law) has stated a preference for joint trials. See

13

Ochoa, 966 P.2d at 475; see also Zafiro, 506 U.S. at 537. “The burden is on the party seeking

14

severance to clearly establish that there is a substantial danger of prejudice requiring that the

15

charges be separately tried.” People v. Bean, 760 P.2d 996, 1007 (Cal. 1988). Here, the

16

prosecution made the same arguments as Petitioner’s counsel in its oppositions to the various

17

defendants’ severance motions. See Resp. at 97. Given that California law starts with a

18

presumption of trying defendants together when they are jointly charged in at least one count, see

19

Cal. Penal Code § 1098; People v. Ortiz, 583 P.2d 113, 116–17 (Cal. 1978), it makes sense that

20

the trial court would sever Hernandez and Reveles (who were charged only in Count Twelve) but

21

not Petitioner (who was charged in Counts One and Twelve). In these circumstances, the

22

California Supreme Court could reasonably conclude that Petitioner had not shown “a reasonable

23

probability that, but for counsel’s unprofessional errors, the result of the proceeding would have

24

been different.” Strickland, 566 U.S. at 694. Accordingly, Petitioner is not entitled to habeas

25

relief on the ground that his attorney provided ineffective assistance of counsel as to the motion to

26

sever.

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
64

App. 69

ER 65

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 70 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 65 of 70

1

United States District Court
Northern District of California

2

b.

Rosas murder evidence

Petitioner next contends that he received ineffective assistance because his counsel

3

improperly handled certain evidence related to the Rosas murder. Pet. at 46–49. Specifically,

4

Petitioner argues that his counsel should have elicited particular testimony from three witnesses.

5

Pet. at 46–49. Petitioner cites no U.S. Supreme Court authority requiring counsel to present the

6

particular evidence at issue here. Accordingly, the Court analyzes counsel’s conduct with respect

7

to each witness under Strickland.

8

First, Petitioner asserts that his counsel failed to ask certain questions of Mary Rosas, the

9

cousin of target Elias Rosas. Petitioner submits an investigative report by the Santa Clara Office

10

of the District Attorney in which Mary Rosas states that Raul Reveles sent a message to Elias that

11

he planned to kill Elias because he blamed Elias for a narcotics arrest. Pet. Ex. 9 at 2. Petitioner

12

does not submit a sworn declaration from Mary Rosas or other evidence to confirm that Mary

13

Rosas would have testified under oath to the same effect. Moreover, Petitioner’s counsel would

14

not have been able to question Mary Rosas about her statement in court: her statement almost

15

certainly constitutes inadmissible hearsay because it merely reflects second-hand knowledge of

16

what others said. See generally People v. Sanchez, 374 P.3d 320, 326 (Cal. 2016). Thus,

17

Petitioner cannot claim that his counsel acted unreasonably in “fail[ing] to question Mary Rosas

18

regarding Raul Reveles[’s] 1990 threats.” Pet. at 46.

19

Second, Petitioner condemns his counsel’s failure to question Roland Saldivar about his

20

statement during a police interview. In particular, Petitioner reads Saldivar’s statement to assert

21

that “Salazar did not telephone [P]etitioner for any reason the night Elias Rosas was killed as

22

alleged by the prosecution.” Pet. at 48. The problem is that Petitioner had admitted to the

23

prosecution, in an interview where Petitioner’s attorney was present, that he had received two

24

phone calls from Salazar that night. Resp. Ex. 21, RT 14. Thus, the two stories appeared to be in

25

conflict, and Petitioner’s counsel could have reasonably believed that presenting Saldivar’s

26

narrative could undermine Petitioner’s. Moreover, other facts weakened the import of Saldivar’s

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
65

App. 70

ER 66

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 71 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 66 of 70

1

statement. Although Saldivar stated that he was present with Salazar when Salazar was talking

2

with Chavez on the phone about Rosas and the decision was made to murder Rosas, his statement

3

does not preclude a three-way conversation with Petitioner, especially when Saldivar

4

acknowledged that he was not allowed to hear much. Pet. Ex. 13. Out of the presence of the jury,

5

Saldivar further testified that he could not remember what Salazar said in the phone call. Resp.

6

Ex. 6, RT 16986. Given the low value of eliciting Saldivar’s testimony on this point, combined

7

with Petitioner’s counsel’s knowledge that Petitioner had stated under oath that he had talked to

8

Salazar on the night of the Rosas murder, Petitioner’s counsel could have reasonably concluded

9

that it was best not to press Saldivar and risk harmful testimony.
Third, Petitioner claims that his counsel was ineffective in failing to call Reveles, who

United States District Court
Northern District of California

10
11

allegedly made a statement that Petitioner was innocent of the murder of Rosas. Petitioner’s

12

counsel addressed this point at a hearing before the trial court. He explained that “[a]ll Albert

13

Reveles said was that as far as he knew, [Petitioner] had nothing to do with the communications

14

between . . . Chavez and Salazar.” Resp. Ex. 6, RT 17737. But, as Petitioner’s counsel described,

15

that fact did not necessarily prove anything because Reveles was not in a position to know

16

whether Petitioner was involved or not. Resp. Ex. 6, RT 17737. Thus, in Petitioner’s counsel’s

17

view, “[Reveles] was no help to . . . [Petitioner] as far as [he] could see.” Resp. Ex. 6, RT 17737.

18

Petitioner’s counsel also indicated that he had discussed the matter with Petitioner. Resp. Ex. 6,

19

RT 17737. Because Petitioner does not specify the basis for his assertion about Reveles or

20

otherwise submit an affidavit from Reveles, it was reasonable to conclude that Petitioner had not

21

shown that his attorney’s performance was constitutionally deficient. See Strickland, 466 U.S. at

22

686.

23

Accordingly, there was a reasonable basis for the California Supreme Court to deny

24

Petitioner’s claim that his attorney improperly handled the identified evidence related to the Rosas

25

murder.

26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
66

App. 71

ER 67

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 72 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 67 of 70

1
2

Motion to vacate Petitioner’s plea agreement

Finally, Petitioner adds further arguments to those made above about why his attorney

3

provided ineffective assistance with regard to the proceedings on the prosecution’s motion to

4

vacate Petitioner’s plea agreement. Pet. at 49–53. Specifically, Petitioner challenges his counsel’s

5

(1) refusal to secure a copy of the polygraph readout and (2) decision not to call two witnesses to

6

testify that Petitioner wished to correct errors in a March 1993 statement to the prosecution. Pet.

7

at 49–53. The Court analyzes these specific challenges in turn.

8
9

United States District Court
Northern District of California

c.

Based on the record, the California Supreme Court could have reasonably concluded that
the decision not to obtain the polygraph readout was reasonable. It is true that “counsel has a duty

10

to make reasonable investigations or to make a reasonable decision that makes particular

11

investigations unnecessary.” Strickland, 466 U.S. at 691. Nevertheless, counsel’s conduct is

12

measured “from counsel’s perspective at the time.” Id. at 689. Although Petitioner cites a 1998

13

declaration from the polygraph operator that he believed that he had contacted Petitioner’s counsel

14

and recommended performing a second polygraph examination, Pet. Ex. 10 at 3, it is not clear that

15

that information was before his counsel at the time of the motion to vacate. In fact, Petitioner’s

16

counsel stated in an affidavit that the polygraph operator “did not at any time indicate,” in his

17

report or otherwise, “that a second examination of [Petitioner] was necessary or called for in order

18

to render an accurate result.” Resp. Ex. 23. Indeed, Petitioner’s counsel declared that, if he had

19

received such a suggestion, he would have actively pursued a second polygraph to avoid going to

20

trial. Resp. Ex. 21, RT 71–72; Resp. Ex. 23. On this basis, it would have been reasonable for the

21

California Supreme Court to conclude that Petitioner had not shown that his counsel’s actions

22

were outside the range of professional competent assistance.

23

The record also supports a reasonable conclusion that Petitioner’s counsel made a sound

24

judgment not to call two persons associated with the prosecution as witnesses during the

25

proceedings on the motion to vacate. Petitioner claims that his attorney should have put on

26

prosecution investigator Williams and Sergeant Quimet to testify that Petitioner had contacted

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
67

App. 72

ER 68

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 73 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 68 of 70

1

them to correct errors in his statement to the prosecution in March 1993. Pet. at 52–53. However,

2

Petitioner suggests that he wished to give further background facts and clarify discrepancies, not

3

that he wished to recant or fully revise his statement. Pet. at 52–53. Indeed, Petitioner does not

4

provide a declaration from Williams or Quimet that details what Petitioner said to them. In these

5

circumstances, Petitioner’s counsel’s explanation is eminently reasonable: “I didn’t call them

6

because I didn’t feel what they could contribute was relevant to whether or not there was a

7

conflict, whether or not there was an effort to deceive the prosecution during the course of the

8

giving of those statements.” Resp. Ex. 6, RT 17742. Accordingly, there was a reasonable basis

9

for the California Supreme Court to deny Petitioner’s claim that his attorney’s conduct in the

10

proceedings on the prosecution’s motion to vacate Petitioner’s plea agreement fell below an

11

objective standard of reasonableness.

12
13

In sum, Petitioner has not shown entitlement to habeas relief on his claim for ineffective
assistance of counsel.

14

14.

Right to control defense

15

Petitioner’s fourteenth, and last, claim relates to decisions made by his counsel about what

16

evidence to present in defense at trial. Pet. at 57–72. Specifically, Petitioner states that he wished

17

to present evidence, in the form of his testimony and testimony from other witnesses, that he never

18

received the three-way phone call where he allegedly ordered the hit on Rosas. Pet. at 70.

19

Petitioner contends that his Sixth Amendment right to present a defense was infringed. Pet. at 71.

20

Like with the previous two claims, Petitioner did not present this claim in his direct appeal, but

21

instead in a petition for writ of habeas corpus, which was summarily denied by the California

22

Supreme Court on April 30, 2003. Resp. Ex. 3.

23

Petitioner cites only one U.S. Supreme Court case in support of his arguments, Faretta v.

24

California, 422 U.S. 806 (1975). That case is inapplicable here. There, the U.S. Supreme Court

25

held that “[t]he Sixth Amendment, when naturally read, . . . implies a right of self-representation.”

26

Id. at 821. Thus, in the circumstance where a defendant “clearly and unequivocally declared to the

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
68

App. 73

ER 69

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 74 of 114

United States District Court
Northern District of California

Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 69 of 70

1

trial judge that he wanted to represent himself and did not want counsel,” the court “deprived him

2

of his constitutional right to conduct his own defense” by forcing him “to accept against his will a

3

state-appointed public defender.” Id. at 835–36. Here, Petitioner does not contend that he wished

4

to represent himself. Instead, he asserts the right to control what witnesses to call, what questions

5

to ask those witnesses, and what defense to assert. Nothing in Faretta clearly establishes that level

6

of control when a defendant is represented. To the contrary, Faretta indicates that “when a

7

defendant chooses to have a lawyer manage and present his case, law and tradition may allocate to

8

the counsel the power to make binding decisions of trial strategy in many areas.” Id. at 820.

9

Petitioner does not argue by reference to other U.S. Supreme Court authority that his lawyer was

10

not entitled to make the particular decisions at issue in this case. As the trial court put it, “[i]t’s

11

the attorney’s job in a case to make tactical decisions and to conduct a defense in a way that the

12

lawyer feels will be beneficial to the client.” Resp. Ex. 6, RT 20105.

13

Certainly, Petitioner’s counsel could not make the decision about whether Petitioner

14

should testify. A criminal defendant has the right to testify on his own behalf and retains the right

15

to make the decision whether to testify. Rock v. Arkansas, 483 U.S. 44, 52–53 (1987); Jones v.

16

Barnes, 463 U.S. 745, 751 (1983) (noting that “the accused has the ultimate authority to make

17

certain fundamental decisions regarding the case,” including whether to “testify in his or her own

18

behalf”). But the facts definitively show that Petitioner was informed about his right to testify.

19

On July 11, 1997, the trial court held a hearing at the same time that the jury was deliberating to

20

explore Petitioner’s grounds for dismissing his attorney. Resp. Ex. 6, RT 20084. At the hearing,

21

Petitioner stated: “I know I have the right to take the stand on my behalf and I know that I have a

22

right not to take the stand.” Resp. Ex. 6, RT 20092. His sole objection was that “[he] would have

23

been better off taking the stand like [he] wanted to.” Resp. Ex. 6, RT 20092; see also Resp. Ex. 6,

24

RT 20092 (“I think I would have been better to take the stand to defend myself on my behalf.”).

25

Petitioner’s counsel responded that “[w]e’ve discussed his testifying from the moment I first

26

interviewed him in the county jail, his right to testify and what the problems were, what the pitfalls

27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
69

App. 74

ER 70

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 75 of 114
Case 5:03-cv-02930-EJD Document 254 Filed 03/27/18 Page 70 of 70

1

were from his testifying.” Resp. Ex. 6, RT 20098. At the end of the hearing, the court denied

2

Petitioner’s request and stated that “I do not believe that [your attorney] did not adequately explain

3

to you about the right to testify or not to testify. I am satisfied that you knew exactly what right

4

you had with reference to that.” Resp. Ex. 6, RT 20104. Petitioner did not otherwise assert that

5

his attorney prevented him from testifying. Accordingly, Petitioner is not entitled to habeas relief

6

on this claim.
CONCLUSION

7
8
9

United States District Court
Northern District of California

10

After a careful review of the record and pertinent law, the Court concludes that the Petition
for a Writ of Habeas Corpus is DENIED.
Further, a Certificate of Appealability is DENIED. See Rule 11(a) of the Rules Governing

11

Section 2254 Cases. Petitioner has not made “a substantial showing of the denial of a

12

constitutional right.” 28 U.S.C. § 2253(c)(2). Nor has Petitioner demonstrated that “reasonable

13

jurists would find the district court’s assessment of the constitutional claims debatable or wrong.”

14

Slack v. McDaniel, 529 U.S. 473, 484 (2000). Petitioner may not appeal the denial of a Certificate

15

of Appealability but may seek a certificate from the Court of Appeals under Rule 22 of the Federal

16

Rules of Appellate Procedure. See Rule 11(a) of the Rules Governing Section 2254 Cases.

17
18

The clerk shall terminate any pending motions, enter judgment in favor of Respondent, and
close the file.

19

SO ORDERED.

20

Dated: March 27, 2018

21
22

______________________________________
EDWARD J. DAVILA
United States District Judge

23
24
25
26
27
28

Case No.: 03-cv-02930-EJD
ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS; DENYING CERTIFICATE
OF APPEALABILITY
70

App. 75

ER 71

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 76 of 114
Case 5:03-cv-02930-EJD Document 22-2 Filed 05/25/05 Page 4 of 56

S110307

IN THE SUPREME COURT OF CALIFORNIA
En Banc

In re EDDIE M. VARGAS, SR. on Habeas Corpus

Petition for writ of habeas corpus is DENIED.

SUPREME COURT

FIL-ED

APR 3 0 2003
frederlc~flllH Qlerk

App. 76

ER 72

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 77 of 114

~------------ ---Case 5:03-cv-02930-EJD Document 22-2 Filed 05/25/05 Page 2 of 56

RECEIVED
Nov

Court of Appeal, Sixth Appellate District - No. HO 17310 C
1 l .,.f/f/1
8100648
l.ERk s
.r r
l.JPACA,fc COlJAr

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,

v.
EDWARD VARGAS, Defendant and Appellant.

Petition for review DENIED.

Chief Justice

App. 77

ER 73

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 78 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 12 of 48

c~

:;.110 Cal.Rptr.2d 210
~
.~
Page 1
91 Cal.App.4th 506, 110 Cal ..kptr.2d 210, 00 Cal. Daily Op. Serv. 6785, 20v.1 Daily Journal D.A.R. 8253
(Cite as: 91 Cal.App.4th 506, 110 Cal.Rptr .2d 210)
t>

Court of Appeal, Sixth District, California.
The PEOPLE, Plaintiff and Respondent,

v.
Edward VARGAS, Defendant and Appellant.
No. H017310.
Aug. 6, 2001.
As Modified on Denial of Rehearing Sept. 4, 2001.
Review Denied Nov. 14, 2001.
Defendant was convicted in the Superior Court,
Santa Clara County, Superior Ct. No. 156285,
Kevin J. Murphy, J., of conspiracy to commit 96
overt acts including murder, robbery, and drug
offenses, as well as one count of murder, and was
sentenced to total prison term of 60 years to life.
Defendant appealed. The Court of Appeal, Premo,
J., held that:' (1) six-month delay between
defendant's breach of plea agreement and state's
motion to vacate plea agreement did not waive
state's right to seek vacation of agreement; (2)
limitations on defendant's examination of witnesses
were appropriate; (3) conspiracy to commit seconddegree murder was not lesser included offense of
conspiracy to commit murder; (4) decision to kill
one victim was part of overall conspiracy and could
not form basis for separate charge of conspiracy; (5)
defendant was not entitled to multiple conspiracies
instruction; (6) unanimity instruction was not
required on conspiracy charge; (7) evidence was
sufficient to support conspiracy conviction; (8)
defendant was not entitled to modified version of
withdrawal instruction; (9) prosecutor's comments
during closing argument were fair rebuttal; and (10)
consecutive sentences did not violate sentencing
statute proscribing multiple punishments for a single
act.
Affirmed.
West Headnotes
[1) Criminal Law ~273.1(2)

110k273 .1 (2)
Power of the court to set aside a plea bargain on the
ground of breach by a defendant of its terms is
beyond question.
[2) Criminal Law ~ 1031 (4)
110k1031(4)

Defendant's failure to secure ruling on his
argument, in opposition to state's motion to set aside
his plea agreement, that setting aside of the
agreement was prohibited by laches precluded
review of such argument on appeal.
[3] Criminal Law @:::>273 .1 (2)
110k273.1(2)
Six-month delay between defendant's statement,
deemed to be in violation of his obligations under
plea agreement, and state's filing of motion to
vacate plea agreement did not amount to ratification
or acceptance by state of defendant's second
statement and did not waive state's right to seek to
vacate plea agreement, given complexity of gangrelated conspiracy case in connection with which
defendant's plea had been entered, where plea
agreement implicitly authorized prosecution to move
to vacate defendant's plea for breach by defendant
of its terms at any time prior to conclusion of trial,
and defendant's obligation thereunder was clearly
continuing.
[4] Criminal Law ~273.1(2)
110k273.1(2)
Bargaining.
Filing of motion to vacate plea agreement based on
defendant's breach of his obligations thereunder
amounted to exercise of prosecutorial discretion to
charge and prosecute defendant, and to conduct
prosecution in manner deemed best for effe~tive and
efficient administration of law enforcement.
[5] Criminal Law ~1167(5)
l lOkl 167(5)
Any impropriety in six-month delay between
defendant's statement, deemed to· be in violation of
his obligations under plea agreement, and state's
filing of motion to vacate plea agreement did not
prejudice defendant and was harmless error, where
defendant's trial did not begin for more than two
ears after his plea agreement had been set aside,
giving defendant sufficient time to prepare for his
defense.
[6] Sentencing and Punishment~1487
350Hk1487
Sentence of 60 years to life given defendant
convicted of conspiracy to commit 96 overt acts
including murder, robbery, and drug offenses, as
well as one count of murder, was not rendered
violative of federal constitutional protection against
cruel and unusual punishment by fact that he would
have served only five years under negotiated plea

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 78

ER 74

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 79 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 13 of 48
Pagel

110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, 1.10 Cal.Rptr.2d 210)

agreement vacated on state's motion upon his breach
of its terms. U .S.C.A. Const.Amend. 8.
[7] Criminal Law ®::=>641.13(6)
I l0k641. l3(6)
Defendant's unsupported contention that· reasonably
competent trial counsel would have informed
himself of probable outcome of polygraph
examination of defendant before stipulating to
admissibility of results thereof was insufficient to
permit appellate review of defendant's claim of
ineffective assistance of counsel, where in absence
of any evidence that counsel's agreement to
polygraph examination stipulation was not informed
decision, counsel was entitled to presumption that
his decision was tactical choice. U.S.C.A.
Const.Amend. 6.
[8] Criminal Law ~338(6)
110k338(6)
Impeaching
Limitation of cross-examination of state's witnesses
and refusal to permit direct examination of potential
defense witness, in gang-related conspiracy
prosecution, regarding an uncharged murder was not
abuse of discretion; potential defense witness never
testified, evidence with respect to uncharged murder
was relevant only to impeachment of state's witness
with potential defense witness' contradictory
statement concerning uncharged murder, and
permitting litigation of uncharged murder would
have amounted to mini-trial on uncharged crime,
resulting in jury confusion and inordinate
consumption of time. West's Ann.Cal.Evid.Code §
352.
[9] Criminal Law ~1153(1)
l lOkl 153(1)
Standard of review for a trial court's balancing of
the probative value and potential for undue prejudice
of proffered evidence is abuse of discretion. West's
Ann.Cal.Evid.Code § 352.
[10] Criminal Law ~338(1)
110k338(1)
Cross-examination of police witness in gang-related
conspiracy and murder prosecution, with respect to
status of separate investigation of a co-defendant,
was properly precluded as tending to elicit only
irrelevant evidence; state's evidence showed that
defendant ordered murder because victim could
identify a co-defendant as one perpetrator of a
robbery, and closure of witness' investigation of the
co-defendant did not require conclusion that
defendant had no way to know that victim could
identify co-defendant. West's Ann.Cal.Evid.Code §

210.
[11] Criminal Law ~338(1)
110k338(1)
Trial courts have wide discretion in determining the
relevancy of evidence. West's Ann.Cal.Evid.Code
§ 210.
[12] Indictment and Information ~191(.5)
210k191(.5)
Conspiracy to commit second-degree murder was
not lesser included offense of conspiracy to commit
murder.
[13] Criminal Law ~795(2.50)
110k795(2.50)
Instruction on second-degree murder as lesser
included offense was not warranted in prosecution
for
first-degree
murder,
where
evidence
demonstrated
that
defendant
acted
with
premeditation and deliberation in ordering victim's
murder and did not demonstrate that defendant had
acted with rashness in doing so.
[14] Criminal Law ~1134(3)
l lOkl 134(3)
Decision to charge defendant with only one
conspiracy count, rather than multiple counts, was
prosecutorial charging discretion not subject to
appellate review; exercise of that discretion involves
questions of prosecutorial policies and judgment, not
questions of fact for jury to determine.
[15] Criminal Law ~ 1167(1)
110k1167(1)
Any error in charging defendant with one count of
conspiracy to commit 96 overt acts, rather than
multiple counts of conspiracy, did not prejudice
defendant and was harmless, where existence of
uncharged conspiracies would not compel reversal
of defendant's conviction; if evidence submitted to
jury supported guilty finding on charged conspiracy,
fact that the same evidence might also have
supported other, uncharged conspiracies, was of no
consequence to issue of innocence or guilt on
charged conspiracy.
[16] Criminal Law ~29(5.5)
l 10k29(5.5)
Decision to kill murder victim, being one in
furtherance of overriding purpose of conspiracy,
which was to establish criminal street gang to
commit murder, robbery, burglary, extortion, and
drug trafficking, was part of overall conspiracy and
could not form basis for separate charge of
conspiracy.
[17] Conspiracy ~48.2(2)
91k48.2(2)

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 79

ER 75

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 80 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 14 of 48
Page3

110 Cal. Rptr .2d 210
(Cite as: 91 Cal.App.4th 506, 110 Cal.Rptr.2d 210)
Multiple conspiracies instruction was not warranted
in prosecution for conspiracy to commit murder and
related crimes, where murder ordered by defendant
did not evince conspiracy separate from overriding
conspiracy with which defendant and others were
charged, namely, conspiracy to establish criminal
street gang to commit murder, robbery, burglary,
extortion, and drug trafficking.
[18] Conspiracy ®::=>48.2(1)
91k48.2(1)
Trial court is required to instruct the jury to
determine whether a single or multiple conspiracies
exist only when there is evidence to support
alternative findings.
[19] Conspiracy ®::=>48.2(2)
91k48.2(2)
Assuming applicability of four-part Zemek test to
determine whether crimes charged as a conspiracy
were committed pursuant to overall scheme,
defendant's involvement in murder was not part of
conspiracy separate from overall conspiracy, as
required to entitle defendant to multiple conspiracies
instruction; conspiracy at issue was a criminal street
gang, operating both in prison and on the streets,
gang members were required to participate in all
criminal activities ordered by their superiors, gang
membership was constant and could be terminated
only by death, time period for conspiracy was two
and a half years, and gang's goals, including
murder, were shared by all members.
[20] Conspiracy ®;:::,24(2)
91k24(2)
Single agreement to commit a number of crimes is
only one conspiracy, regardless of the number of
crimes sought to be committed, or are committed,
under that conspiracy.
[21] Criminal Law ®;:::,872.5
110k872.5
Because an agreement to commit a criminal act or
acts is conspiracy, the diversity of the crimes that
may be the object of the agreement should be of
little, if any, consequence; so long as there is jury
unanimity that crime was the object of the
agreement, conspiracy is established regardless of
whether some jurors believe that crime to be murder
and others believe that crime to be something else.
[22] Criminal Law ®;:::,798(.5)
110k798(.5)
Unanimity instruction was not warranted in
prosecution for conspiracy to commit 96 overt acts,
where defendant was convicted of one conspiracy,
described in indictment as conspiracy to commit

various crimes; because any of the crimes forming
object of conspiracy was sufficient to establish
conspiracy, prosecution could proceed upon multiple
theories, precluding unanimity instruction.
[23] Criminal Law ®;:::,798( .5)
11 Ok798(. 5)
Unanimity instruction is inappropriate where
multiple theories may provide the basis for a guilty
verdict on one discrete criminal event.
[24] Criminal Law ®;:::,872.5
110k872.5
Jury unanimity requirement does not apply where
specific crimes that constitute the object of a
conspiracy are not elements of the conspiracy, but
rather are the means by which the purpose of the
conspiracy is to be achieved.
[25] Criminal Law ®;:::,1038.2
110kl038.2
Conspiracy defendant waived appellate review of
his contention that he was entitled ·to unanimity
instruction, where state originally proposed that such
instruction be given, but trial court ultimately
declined to do so on basis of objections filed by
defendant and a co-defendant.
[26] Criminal Law ®::=>1173.2(1)
110k1173.2(1)
.
Trial court's rejection of unanimity instruction in
conspiracy prosecution was subject to review for
reasonable probability that result more favorable to
appealing party would have been reached in absence
of error complained of, where requirement for jury
unanimity in a criminal prosecution was state
constitutional requirement rather than requisite of
due process of law. West's Ann.Cal. Const. Art. 1,
§ 16.
[27] Criminal Law ®;:::,798(.5)
110k798(.5)
Question of whether a defendant is entitled to a
unanimity instruction is a state, not a federal, issue,
there being no right to a unanimous verdict under
the United States Constitution. West's Ann.Cal.
Const. Art. 1, § 16.
[28] Criminal Law ®;:::,1173.2(1)
l lOkl 173.2(1)
Any error in trial court's failure to give unanimity
instruction in conspiracy prosecution was harmless,
where unanimous finding of conspiracy was implicit
in jury's unanimous conclusion that defendant was
guilty of murder in which his only role had been to
authorize murder of victim by others; absent any
evidence that defendant actually participated in
murder, or, being present, aided and abetted in

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 80

ER 76

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 81 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 15 of 48
Page4

110 Cal.Rptr .2d 210
(Cite as: 91 Cal.App.4th 506, 110 Cal.Rptr.2d 210)
commission thereof, guilty verdict on murder charge
could only have been by reason of unanimous
finding that defendant conspired to murder victim.
[29] Criminal Law ~798 .5
110k798.5
Inclusion in jury verdict form, in prosecution for
conspiracy involving 96 overt acts including murder,
of conspiracy to murder two victims not charged in
indictment and not mentioned until four months into
trial, did not implicate defendant's constitutional
rights to due process and to notice of allegations
against him, where specific crimes constituting
object of conspiracy were not elements of the
conspiracy. U.S.C.A. Const.Amends. 6, 14.
[30] Criminal Law ~ 1175
110k1175
Any error in inclusion in jury verdict form, in
prosecution for conspiracy involving 96 overt acts
including murder, of conspiracy to murder two
victims not charged in indictment and not mentioned
until four months into trial was harmless.
[31] Conspiracy ~43(6)
91k43(6)
Charge of conspiracy to kill one of various persons,
without requirement that there be agreement upon
who was to be killed, is not unconstitutionally vague
and generic.
[32] Criminal Law ~1173.2(1)
llOkll 73 .2(1)
Any error in defendant's conviction for conspiracy
to commit murder, without requirement that jury
agree unanimously as to which victim defe11:dant
conspired to kill, was harmless, where jury
convicted defendant of one murder and such
conviction implied unanimous finding of conspiracy
to murder.
[33] Conspiracy <€=>47(8)
91k47(8)
Evidence was sufficient to support conviction for
conspiracy to commit murder, where jury did not
need to agree unanimously on which particular
murder defendant conspired to commit so long as it
unanimously agreed that defendant conspired to
commit murder as object of the conspiracy, and jury
subsequently found defendant guilty of particular
murder; guilty finding as to murder could have only
been reached by way of unanimous jury finding that
defendant conspired to kill victim, as defendant was
not directly involved in victim's murder.
[34] Criminal Law ~ 1175
110k1175
Where the jury is presented with several factual

theories for conviction, some of which are
predicated upon insufficient evidence, the appellate
court should affirm the judgment unless a review of
the entire record affirmatively demonstrates a
reasonable probability that the jury in fact found the
defendant guilty solely on the unsupported theory.
'[35) Criminal Law ~809
110k809
Conspiracy defendant was not entitled to modified
version of withdrawal instruction, stating that there
was no requirement that withdrawal from conspiracy
be communicated orally to other conspirators, where
standard instruction given by the court did not
include such requirement, and defendant's proposed
modifications created confusion not found in
standard instruction. CAUIC 6.20.
[36] Criminal Law ~1037.2
110kl037.2
Conspiracy defendant waived appellate review of
his contention that prosecutor's closing argument
improperly injected issues of gender bias and racial
bias, where trial counsel objected to prosecutor's
remarks, but did not additionally request admoniti.on
that would have cured any harm, and defendant
made no showing that claimed harm would not have
been cured by appropriate admonition.
[37] Criminal Law ~726
110k726
Prosecutor's comments during closing argument in
conspiracy prosecution, to effect that certain of
defense counsel's comments evinced gender, racial,
or age-based bias against her, were fair rebuttal of
defense counsel's uncalled-for remarks · denigrating
prosecutor's intelligence 'and competence.
[38] Criminal Law <S::=> 1171.1 (4)
110k1171.1(4)
Any error in prosecutor's comments during closing
argument in conspiracy prosecution, to effect that
certain of defense counsel's comments evinced
gender, racial, or age-based bias against her, was
not egregious enough to warrant reversal of
defendant's conviction, where comments did not
render trial fundamentally unfair or involve use of
deceptive or reprehensible methods to attempt to
persuade either court or jury.
[39] Criminal Law ~1171.1(4)
l lOkl 171.1(4)
Any error in prosecutor's comments during closing
argument in conspiracy prosecution, to effect that
certain of defense counsel's comments evinced
gender, racial, or age-based bias against her, did not
prejudice defendant and was harmless, where

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 81

ER 77

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 82 of 114

1

Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 16 of 48

110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, .1.10 Cal.Rptr.2d 210)
prosecutor did not comment on race, or sex, or age,
of defendant, but rather on her own race, sex, and
age, as they might have affected opposing counsel's,
and court's and jury's, regard of her, and comments
pertained to how evidence might be unfairly viewed
by jury because of defense counsel's claim that
prosecutor was unable to understand and analyze
evidence correctly.
[40] Criminal Law ®:==>1171.1(2.1)
110k1171.1(2.1)
Defendant charged with conspiracy failed to
demonstrate that prosecutor's comments during
closing argument, alleged by him to constitute
misconduct, prejudiced his right to fair trial.
[41] Sentencing and Punishment ®:==>559(3)
350Hk559(3)
Imposition of consecutive sentences upon
convictions of murder and conspiracy to commit
murder did not violate sentencing statute proscribing
multiple punishments for a single act, where
conspiracy had objectives apart from the murder of
which defendant was convicted.
West's
Ann.Cal.Penal Code§ 654(a).
**215 *517 Bill Lockyer, Attorney General, Robert
R. Anderson and
Ronald A. Bass, Assistant
Attorneys General, Stan M. Helfman and John R.
Vance, Jr., Deputy Attorneys General, for Plaintiff/
Respondent
Kathy M. Chavez, Berkeley, Tara Mulay, for
Defendant/ Appellant.

PageS

~I

Code unless otherwise stated.

The indictment was amended on July 8, 1996, to
add the allegation that defendant had suffered two
prior felony convictions.
Defendant pleaded not guilty and denied the
enhancement allegations.
The jury found defendant guilty on both, and also
found true the enhancement allegations.
The court sentenced defendant to a total prison term
of 60 years to life, as follows: **216 25 years to
life on count 1; a consecutive 25 years to life on
count 12; and a consecutive IO-year enhancement
for the two prior felony convictions.
We affirm.

FACTS
A. Nuestra Familia
The Nuestra Familia (NF) is a prison gang that was
founded in September 1968 by inmates at the
California State Prison San Quentin (San Quentin).
NF is a "cold-hearted gang" that commits murders,
burglaries, extortion, and other crimes, including
selling drugs to raise money for its members.
Persons who testify against the NF are killed.
Since its founding, NF has become "the most
organized prison gang in the California Department
of Corrections (CDC).
NF has also, since its
founding, extended its influence outside of prison
walls to the "streets."
NF has a written
constitution. The governing body of NF is called
the "Mesa."
11

PREMO, J.
Defendant Edward Vargas was charged by grand
jury indictment with conspiracy to commit murder,
robbery, assault with a deadly weapon, arson,
burglary, extortion, intimidation of witnesses,
terrorist threats, escape, possession of concealable
firearm by a convicted felon, *518 and distribution
of heroin, cocaine, phencyclidine (PCP), and
methamphetamine (count 1), and the murder of Elias
Rosas (Pen.Code,§ 187; [FNl] · count 12). Count
1 alleged 96 overt acts.
The indictment further
alleged that counts 1 and 12 were committed for the
benefit of, at the direction of, and in association
with a criminal street gang, with the specific intent
to promote, further, and assist in criminal conduct
by gang members, within the meaning of section
186.22, subdivision (b)(l).
FNl. Further statutory references are to the Penal

New NF members receive "schooling" on such
subjects as how to construct weapons from found
material, how to attack an enemy, and how to build
the gang outside prison.
To be eligible for NF membership, a prisoner had
to be a member of the "Northern Structure" (NS).
NF membership is a lifetime commitment. Leaving
the NF is, according to its constitution, an offense
punishable by death. *519 Of this lifetime
commitment, Ronnie Shelton, an NF member who
testified for the prosecution, stated: "Blood in blood
out is not written literally into the constitution word
for word, although between the lines it is definitely

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 82

ER 78

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 83 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 17 of 48
-~

Page6

110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ... 519, 110 Cal.Rptr.2d 210, **216)
there, that you come into the organization with
blood on your hands, preferably murder, if not, any
other criminal acts and, for example, a deserter,
traitor or coward who decides to defect and leave
the organization, blood out is meaning to kill him. 11
Shelton further testified that although the
constitution provides for an automatic death sentence
for a traitor (i.e., "an NF who decides to defect,
drop out, of the organization"), in practice, there
was discretion.
Shelton said he could be
"considered a traitor because I have defected and
I'm testifying."
Asked if his defection meant a
death sentence, Shelton testified: "Yes. If they ever
had an opportunity to get near me they--pretty sure
some would try to kill me, and perhaps maybe some
wouldn't. It's not carved in stone to kill, because
it's upon the individual if he wants to proceed and
pursue that hit or just back off, because maybe he
just doesn't want to do nothing, maybe he's on the
verge of dropping out. 11
One objective of the NF is "to build the
organization on the outside, become self-supporting,
work with those in alliance, any and all illegal
ventures to build the funds that can be utilized to
take care of members behind the walls or drug deals
on the streets." Building the organization "on the
streets
was important "[t]o promote the
organization so others can recognize the
powerfulness of the NF, which is basically the
umbrella organization for the Northern Structure
and, in a sense, directly, indirectly intimidate those
with large quantities of drugs or anything that the
NF can use to edify their own system. 11
11

NF members on the street were expected to
contribute money to the NF bank," which was the
NF fund held for the benefit of the NF members.
The contributions from individual members were to
be made from dealing drugs or getting
"contributions" from drug dealers.
The NF
members on the "street" were under the control of
the Regional Security Department (RSD) to whom
they were to report.

The Northern Structure was formed by the NF "as
a gang under them to take the heat off [the NF]."
NF was superior to NS. NF and NS operated for
*520 the common purpose of raising money through
crimes to help NF members who are in prison and
their families. NF and NS did not use terms like
"kill" or "murder" in discussing those acts; they
used instead gang language, such as "dealt with" for
murder, io conceal the subject of discussion from
eavesdroppers.

C. Testifying NF Members
C-1. Ronnie Shelton
In May 1985, Shelton, while serving time at San
Quentin, was recruited into the NF by NF member
Michael Sosa. Shelton had been a member of the NS
prior to his entry to the NF. In December 1990,
Shelton became the RSD for San Jose.
After his indictment, Shelton decided to leave the
NF and testify for the prosecution.
Among the
reasons Shelton cited for his decision were
exhaustion and the fact that the NF wanted to
control his defense. Shelton was facing the death
penalty for the murders in which he participated.
Shelton pied guilty to four first degree murders
(i.e., the murders of Herrera, Valles, Apodaca, and
Perez). For these murders, Shelton received a total
prison term of 100 years to life. Shelton was 35
years old when he testified. Shelton said he did not
expect to live long enough to be eligible for parole,
and that, for his participation in the four murders,
he deserved to be in prison for the rest of his life.
C-2. Louis Chavez

11

**217 Murders, or "hits," had to be sanctioned by
higher authority. In NF terminology, approval for
murder was called a II green light." A NF member
who killed another NF member had to be killed.

B. Northern Structure

Chavez was recruited into NF from NS in 1989 at
the Tehachapi State Prison (Tehachapi) by Joseph
Hernandez and Vincent Arroyo.
Chavez knew
defendant while both of them were at Tehachapi.
After the murders of Herrera, Rosas, and Baca,
codefendant Lopez told Chavez that Chavez's status
in the NF was "on freeze" until Chavez brought
them a "body," i.e., committed a murder. Chavez
said this meant that "if [he] didn't take care of
business, they [the NF] were going to take [him]
out," i.e., kill him.
Chavez agreed to testify for the prosecution on
condition that he be prosecuted only for the crimes

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 83

ER 79

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 84 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 18 of 48
Page7

110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ·r520, 110 Cal.Rptr .2d 210, **217)
that he had actually committed.
C-3. Jerry Salazar

Salazar was recruited into the NS when he was 18
years old.
Salazar should have been sent to the
California Youth Authority (CYA), but because
*521 he had been paralyzed from a car accident that
happened when he was 16, and had been confined to
a wheelchair, Salazar could not be accommodated at
the CYA; instead, Salazar was sent to the CDC. As
part of the NF recruitment process, Salazar was
given secret documents that explained the NS and
contained the 14 "bonds, 11 or the "dos and don'ts of
the Structure. 11 Salazar was active in the NS from
1987 to 1993.
Salazar joined the NF while he was in custody on
the present charges. In 1993, while in a holding
cell with Arroyo, Salazar was told by Arroyo that he
(Arroyo) knew that Salazar had spoken with the San
Jose Police Department, but that Salazar should not
worry because he (Arroyo) was going to "let it slide
because as long as [Salazar] didn't give nobody up
on a murder." Salazar, in violation of the NF's
code of silence, had told the San Jose Police in 1992
that **218 Guzman, Shelton, Villanueva, and
codefendant Lopez were members of the NF.
After the 1993 conversation with Arroyo, Salazar
overheard codefendant Trujeque tell codefendant
Serna that they would. let Salazar slide for a while
and then kill him.
In 1993, Salazar, in a written plea agreement,
agreed to testify for the prosecution with the
understanding that the prosecution would decide
whether his sentence was to be life without the
possibility of parole, or 50 years to life.
C-4. Anthony Guzman

Guzman joined the NS while in prison in late 1987
or early 1988, after reading the gang's 14 "bonds"
and agreeing to live by them.
In August 1992, Guzman fled to Mexico to avoid
arrest on the indictment. Guzman's wife, who was
also indicted, joined him, but later returned to the
United States. Back in the U.S., Guzman's wife
told Guzman in a telephone conversation that the NF
wanted to kill him because they believed that he was

cooperating with the district attorney.
Guzman
explained that he decided to testify for the
government because people had died 11 for nothing";
he was facing the death penalty; his wife was
indicted; and his children were upset.

C-5. Mendoza, Saldivar, Arroyo
Other NF members who testified for the
prosecution were Carlos Mendoza and Roland
Saldivar. NF member Vincent Arroyo pied guilty,
pursuant to his plea agreement, but did not testify.
*522 D. Conspiracy,· Some Overt Acts
D-1. NF's Hit List

While at Tehachapi, Chavez, Hernandez, and Pablo
"Panther" Pena prepared an NF "hit" list, which
was a list of persons who should be killed by the NF
for various reasons. Among the people in the list
were Tony "Little Weasel" Herrera and James
"Jocko" Esparza, both for being gang drop-outs, and
Carlos Mejias, for having an NF member stabbed.
Eli Rosas was not on that list.
When Chavez was paroled, he took the "hit" list
with him.
Chavez was to give the hit list to
Cervantes, but did not. Instead, on July 25, 1991,
Chavez gave the hit list, as well as an NF
membership list, to his parole officer, E.J. Allen.
D-2. Chavez as Regional Security Director

While Chavez was in prison, he was ordered by NF
Mesa member Hernandez to organize the NF' s San
Jose regiment. Chavez was to work on the NF's
bank. Hernandez told Chavez to "organize it, you
know, get it together, 11 and maintain it by II dealing
drugs" and "robbing connections. 11 Chavez was to
report by letter to Hernandez, who was still in
prison, matters relating to the NF.
When Chavez was released on parole on April 19,
1990, he was made the RSD for San Jose. In
violation of Hernandez's "orders," Chavez did not
report to Hernandez, and did not execute his
assignment as directed. Chavez did sell PCP, but
did not put the proceeds into the NF "bank."
D-3. Attempted Murder of Mejias
Chavez testified that Carlos Mejias was not a
member of NF. In 1990, the NF wanted to kill

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 84

ER 80

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 85 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 19 of 48
110 Cal.Rptr .2d 210

~\

Page8

(Cite as: 91 Cal.App.4th 506, ···522, 110 Cal.Rptr .2d 210, **218)

Mejias because Mejias, while ·in prison, had ordered
the murder of an NF member, which was carried
out.
Salazar testified that at a barbecue prepared by his
mother at Kelly Park in San Jose on July 4, 1990,
Chavez and another NF member, Lencho Guzman,
were present. Victor "Sleepy" Esquibel, who had
no **219 gang affiliation, was also present.
Although not invited, Mejias showed up. Chavez,
who knew that the NF wanted Mejias killed, ordered
that Mejias' s murder be carried out. Salazar, upon
Chavez's direction, provided a knife. When Mejias
left, Guzman and Esquibel left with him. Guzman
and Esquibel returned about 30 *523 minutes later,
and told Salazar that Mejias had been killed. In
fact, Mejias survived, and was treated for his
wounds.

D-4. Shelton Replaces Chavez as RSD
Shelton testified that while he was in prison, he was
instructed by the NF leadership to maintain, upon
parole, "the spirif' of NF and get things organized
and make sure there was a regiment established."
Shelton was paroled to San Jose on May 27, 1990.
II

In September 1990, Andrew "Mad Dog" Cervantes,
who was from the Stockton NF regiment, called a
meeting of the San Jose NF members at the home of
Lisa Quevas.
Among the NF members present
were Shelton, Chavez, and Lopez. Trujeque was not
present when the meeting started, but arrived later.
The meeting discussed subjects like weapons, who
in San Jose had drugs they could steal, and the need
for members to keep in communication with NF.
Toward the end of the meeting, Cervantes promoted
Shelton to RSD and demoted Chavez to second in
command.

D-5. Lopez Became Second in Command
Lopez was paroled on September 17, 1990, and
became second in command to Shelton by December
1990. Shelton testified that at the NF meetings held
in December 1990, "[w]e would discuss who was in
communication, who had weapons, drugs, people
that needed to be killed, people that had drugs and
we wanted perhaps for them to pay rent, a
percentage to the organization, things of that
nature."

Lopez was arrested for parole violation in May
1991. While in jail, Lopez made Salazar RSD for
San Jose. At a meeting at the house of Salazar's
mother in June 1991, Rosas, who had just been
paroled and who was in charge of security while in
prison, believed that he, and not Salazar, should be
running the "streets.
Salazar told Rosas that
Lopez had placed him in charge, "and that was it.
11

11

When defendant was paroled in the Spring of 1991,
Lopez told Salazar from jail to meet defendant. In
June· 1991, defendant took over control of the NF in
San Jose. Chavez told Trujeque that defendant was
now in charge of the San Jose NF.
At Lopez's direction, Salazar turned over to
defendant the NF "bank" containing between $2,000
and $2,500.
Defendant subsequently spent the
money on beer, barbecues, and partying.
Defendant made Salazar the head of security, which
was the second highest position under the RSD.
*524 Defendant was arrested in early July 1991.
With defendant's arrest, Salazar took over the
"streets." In mid-July 1991, Serna was paroled.
Upon Lopez's direction from jail, Serna took over
the San Jose regiment from Salazar. Serna testified
that Lopez had directed him "[t]o start taking care of
business out there, and start building up the bank
again, and to rob connections."

D-6. Murder of Herrera
At an NF meeting on November 17, 1990, attended
by, among others, Shelton, Lopez, and Trujeque,
the NF decided to kill Herrera, a major drug dealer.
Herrera had been on the NF hit list. John Blanco, a
prominent San Jose drug dealer, who was present at
the meeting, said that **220 Herrera had told the
police about his activities. Shelton, who had earlier
opposed the killing of Herrera because Herrera was
assisting the NF by dealing drugs, volunteered to
carry out the murder, explaining that the RSD had to
set an example.
On November 19, 1990, two days after the
meeting, and before Herrera's murder could be
carried out, Villanueva, an NF member who was to
participate in Herrera's murder, was arrested.
Villanueva called Shelton from jail, saying that he
believed Herrera had told the police about him.

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 85

ER 81

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 86 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 20 of 48
Page 9.

110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ···524, 110 Cal.Rptr.2d 210, **220)
On November 20, 1990, Shelton met with Lopez to
plan Herrera's murder. Lopez was to obtain a gun
and Betsy Spencer's Chevette. Shelton, Lopez, and
Trujeque discussed the need to kill witnesses.
Trujeque suggested they dump Herrera's body in a
park.
Later that day, Shelton, Lopez, and Trujeque met
Herrera and asked Herrera to get inside Spencer's
Chevette.
When Herrera was inside the car,
Trujeque displayed a .38 caliber revolver.
Trujeque got out of the car, pointed the gun at
Herrera, and pulled the trigger twice. The gun did
not fire.
Herrera got out and started to run.
Lopez tackled Herrera. Shelton shot Herrera six
times in the head. Trujeque fired his gun again.
After more misfires, the gun went off.

him because there were police in the area.

D-8. Murder of Valles
Larry Valles was a PCP dealer.
At one NF
meeting, the NF discussed the need for Valles "to
kick down drugs to the gang." It was decided that
Valles needed to be "jacked up."
Shelton subsequently arranged a meeting with
Valles. Shelton arrived first. After Valles arrived,
Lopez also arrived.
Out of Valles's presence,
Shelton and Lopez discussed the extortion they were
going to make. Valles told Shelton and Lopez that
he (Valles) did not pay "rent. 11 Shelton shot Valles
between the eyes.
**221 D-9. Attempted Murder of Urango

Spencer testified she suspected her Chevette was
involved in Herrera's murder because on
Thanksgiving Day, several days after Herrera's
murder, it was discovered on fire. Spencer testified
that Lopez had borrowed the car and had later told
her that the car was stolen from him when he parked
it at a 7-Eleven store with the keys in the ignition.

D- 7. First Attempt to Kill Jasso
The NF made two attempts to kill Robert Jasso, a
bouncer at JP's bar in San Jose, who was not a
member of either the NF or the NS. The first
attempt was in the Spring of 1991, and the second
was in the Fall of that year.
*525 In December 1990, an NF member reported
to Shelton that at Herrera's funeral, Jasso had said:
"Fuck Lucky [Shelton], Fuck Lucky, I know [that]
Lucky killed [Herrera]."
Shelton took Jasso's
statements as a show of disrespect to him and the
NF. Shelton directed Lopez, his second in
command, to have Jasso killed, adding that he
wanted all NF members to know that Jasso was to
be killed. Shelton said that to let Jasso' s disrespect
to the NF pass would cause diminution of the NF' s
power "[a]nd people would just not be willing to
cooperate with drug transactions on a respectful
level." Jasso' s murder was further discussed at the
NF meetings in December 1990 and April 1991.

Lopez, Robert Rios, and Jason Vasquez looked for
Jasso in late winter or early spring to kill him.
However, when they found Jasso, they could not kill

Lopez authorized the murder of Alphonso "Huero"
Urango because Urango "disrespected" the NF by
not returning two guns, which belonged to the NF.
Urango had said that he would trade the guns for a
gram of PCP. Salazar testified that Urango's offer
was "an automatic green light." Salazar talked with
defendant about Urango's murder. In late June, or
early July 1991, NF members, including Salazar,
Mendoza, and defendant went to Urango's
apartment to kill him.
When they arrived,
defendant told Saldivar and Mendoza to go to the
apartment door, knock on it, and shoot Urango
when he opened the door. When Saldivar and
Mendoza knocked on the door, Urango's girlfriend,
who was eight months pregnant, answered the door.
Saldivar and Mendoza did not have the "guts II to kill
Urango under the circumstances.
No further
attempts on Urango's life were made.
*526 D-10. Murder of Rosas
Rosas was a member of the NS.

On December 31, 1983, two masked men broke
into the home of Petra Gonzalez, who was the
mother of Rosas' girlfriend.
Rosas went to
Gonzalez's defense.
After the Gonzalez robbery, and while Pena was in
prison with Chavez, Pena told Chavez that he (Pena)
had robbed Rosas' home, taking drugs.
Pena
further told Chavez that he (Pena) believed that
Rosas had "snitched on him." Chavez stated that
even though Rosas was the victim, Rosas should not

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 86

ER 82

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 87 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 21 of 48
'~
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ···:,26, 110 Cal.Rptr .2d 210, **221)

Page 10

have told the police because Pena was a member of
the NF at the time of the robbery, and Rosas was
not.

carry out defendant's order because he believed that
defendant had a 11 personal thing" on Esparza
concerning defendant's girlfriend.

In late June 1991, after defendant was paroled,
defendant discussed the Rosas matter with Salazar.
Defendant told Salazar that there was a "green light"
on Rosas because Rosas had II snitched on Pablo
Pena, Panther. 11 However, defendant wanted to get
some confirming "paperwork" first because if he
(defendant) was wrong and Rosas was killed, he
(defendant) would be killed. Defendant told Salazar
that the NF was not to hunt down Rosas to kill him,
but that if an NF member should run across him,
Rosas should be killed.

D-12. Plot to Kill Chavez

On the night of Rosas' murder, Chavez received a
telephone call from Albert Reveles and Tim
Hernandez. Hernandez told Chavez that he was at
a home where Rosas was "running his mouth II about
Chavez, saying that Chavez was to be "hit" by the
NF. Hernandez asked Chavez what should be done
to Rosas, saying he wanted to kill Rosas. Chavez
told Hernandez he did not have the authority to
authorize the murder of Rosas because defendant
was in charge.
Chavez contacted Salazar, who set up a three-way
telephone conference with defendant.
In that
telephone conference, defendant approved the
murder of Rosas, saying: 11 Do what you got to do."
Defendant also told Chavez that he (Chavez) had the
authority to call the hit.
Hours later, Hernandez called Chavez to report that
Rosas had been killed.
Subsequently, defendant told Shelton at San Quentin
that Rosas was behind some drug deal that some
drugs were involved and [Rosas] supposedly had
snitched on [Pena] who's also an N.F. member. 11
Defendant admitted to Shelton that he [defendant]
had called the Rosas "hit. 11
1
'

*527 D-11. Order to Kill Espana
Esparza was on the NF 11 hit" list that Chavez and
Pena had compiled in 1990. Salazar testified that
defendant had ordered him to kill Esparza.
Defendant told Salazar that Esparza was in trouble
because Esparza was claiming that he was a **222
member of the NS, and he was not. Salazar did not

Shelton testified that after conferring with Lopez,
he (Shelton) decided that Chavez should be killed.
Lopez had written Shelton that Chavez's II status was
on freeze until he (Chavez) [brought] a body to [the
organization]," meaning until he "killed somebody"
and he proved himself. In August 1991, Shelton
began plotting Chavez's murder.
In September 1991, while Shelton and defendant
were in prison, Shelton asked defendant why Chavez
was not dead yet. Defendant told Shelton that he
wanted to kill Chavez himself because he
(defendant) had not yet committed a murder for the
NF.
. Chavez testified that "Smiley Joe" Ramirez had told
him that the NF wanted to kill him (Chavez).
D-13. Murder of Esteban Guzman

·

Salazar testified that in July 1991, Serna called to
say that he was bringing drugs for Salazar to sell.
When Serna arrived, he told Salazar that the drugs
belonged to a border brother" (i.e., Mexican)
Serna said he shot the drug
whom he robbed.
owner with a shotgun and left no witnesses. The
victim turned out to be Esteban Guzman.
11

Anthony Guzman testified that after the murder of
Esteban Guzman, Serna told him that he (Serna)
killed Esteban because Esteban was a member of a
rival gang.
Esteban had died from a shotgun
wound to his chest.
D-14. Murder of Baca

Salazar testified that Serna had told him that he
(Serna) had killed Marcos "Puppet" Baca with a .22
caliber revolver because Baca was a police
informant.
Anthony Guzman also testified that Serna had
admitted to him that he and two others had killed
Baca with a .22 caliber revolver because Baca "was
no *528 good [and] that he was giving up people in
the county jail.
Guzman, who was superior to
11

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 87

ER 83

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 88 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 22 of 48
110 Cal.Rptr .2d 210

Page 11

(Cite as: 91 Cal.App.4th 506, ...S28, 110 Cal.Rptr.2d 210, **222)

Serna in the NF, told Serna not to kill anymore
because he (Guzman) did not want to be responsible.
D-15. Murder of Apodaca

Sheila Apodaca was, at one time, Lopez's
girlfriend. On December 30, 1990, Shelton met
Apodaca. The next day, Apodaca gave Shelton a
ride.
During the ride, Apodaca brought up the
subject of Herrera's murder. Apodaca said that she
believed Shelton and the others were crazy.
Shelton told Lopez about his (Shelton's)
conversation with Apodaca. Lopez told Shelton not
to worry because Apodaca did 11-ot know what was
going on.
When Lopez was in prison, he wrote Shelton saying
that he thought Apodaca might tell the police what
she knew about the Herrera and Valles murders, and
that Apodaca should be killed.

giving him a hard time, was being irresponsible, and
was losing drugs. Lopez said that Perez, who was
not an NF member, was disrespecting him. Lopez
wanted to kill Perez, but Shelton asked Lopez to
wait.
When Lopez was in prison, Lopez *529
wrote Shelton saying that Perez should be killed
because Perez was talking to law enforcement.
Perez's murder was discussed at the same NF
meeting in which Apodaca's murder was discussed.
On August 29, 1991, Salazar met with Trujeque
and Mendoza. Salazar volunteered to lure Perez to
a meeting, and accompanied Trujeque and Mendoza
to that meeting. When they arrived at the meeting
place, Perez came up to the window of their car and
spoke with them. When Perez got in the car, the
foursome drove off. When the car stopped, Salazar
and Mendoza shot Perez. Salazar explained this was
his first murder and he committed it for the gang.
D-17. Second Attempt to Murder Jasso

On August 26, 1991, at an NF meeting at
Guzman's apartment, Apodaca' s murder was
discussed. Shelton explained that he, Serna, and
Salazar all wanted to kill Apodaca. The next day,
Shelton and Guzman were arrested.
From the
county jail, Shelton sent Lopez a message saying
that the Perez and Apodaca murders were still on.
Salazar testified that Apodaca was to be killed
because Lopez had learned that Apodaca was going
to tell the police about Lopez's involvement in the
Herrera murder. **223 Lopez called Apodaca a
"snitch bitch."
Subsequently, Salazar arranged a meeting with
Apodaca at Mt. Pleasant High School. Salazar then
told Serna and Trujeque to proceed to the meeting
place.
Salazar observed Serna handling a .357 caliber
revolver to make sure that there were no fingerprints
on the bullets. When Serna and Trujeque went to
the appointed place, Salazar stayed behind, nervous
from knowing that he had set up Apodaca to be
murdered.
When Serna and Trujeque returned,
Serna told Salazar that he (Serna) had shot Apodaca
twice in the head.
D-16. Murder of Perez

Lopez told Shelton that Ray "Chocolate" Perez was

Salazar testified that Shelton and Lopez authorized
the murder of Jasso because Jasso was
"disrespecting the NF." Jasso was a close friend of
Herrera and was "kind of pissed off because the NF
killed [Herrera]."
In late August and early September 1991, Santos
"Bad Boyn Burnias, an NF member, called Salazar,
who was in Utah, and told him to return to San Jose
because the NF had to "take care of Jasso. When
Salazar returned, he, Burnias, and Joey Gonzalez
went to JP's Bar in Gonzalez's jeep. When they
saw Jasso, Burnias got out of the jeep, saying he
would be back. Within five minutes, Burnias was
back. Burnias told Salazar and Gonzalez that he
had just shot Jasso three times.
11

Burnias later admitted to Shelton that he had shot
Jasso, saying he was "just taking care of business."
Jasso survived the assassination attempt. He was
treated for gunshot wounds to his shoulder and head.

90NIENTIONS
Defendant contends:
1. The prosecution waived any claim that defendant
had violated his plea agreement when it failed to
bring its motion to vacate the plea agreement until
16 months after it had been entered into, and almost

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 88

ER 84

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 89 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 23 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, · =,29, 110 Cal.Rptr .2d 210, **223)
six months after defendant's second statement to the
prosecution which was the supposed trigger for the
motion; and the trial court therefore erred and
deprived defendant of his state and federal
constitutional rights to due process by granting the
prosecution's untimely motion to vacate the plea
agreement.
*530 2. Defendant's sentence of 60 years to life
violates the federal constitutional protection against
cruel and unusual punishment given the improper
vacating of his plea agreement under which he
would have served only five years.
**224 3. Trial counsel deprived defendant of his
Sixth Amendment right to effective assistance of
counsel during the proceedings on the motion to
vacate his plea agreement by failing to fully
investigate the likelihood of defendant passing a
polygraph examination prior to stipulating to the
admission of the results of a polygraph examination.

4. The trial court violated defendant's Sixth and
Fourteenth Amendment rights by precluding
defendant from cross-examining two prosecution
witnesses and conducting direct examination of one
potential defense witness regarding the killing of
Farfan, which would have elicited evidence that the
prosecution pursued a flawed policy of presenting
unreliable accomplice witnesses against defendant
and that a critical witness against defendant was
unworthy of belief.

5. The trial court violated defendant's Sixth and
Fourteenth Amendment rights to confrontation and
due process by unduly restricting the scope of crossexamination of Kracht regarding the disposition of a
case against Pena, which would .have shown that
defendant had no motive to agree to kill Rosas and
thus prejudiced his defense against the charges of
murder and conspiracy to commit murder.
6. The trial court violated defendant's state and
federal constitutional rights to due process and an
impartial jury trial by refusing to instruct the jury on
the lesser included offense of second degree murder
with respect to the conspiracy to commit murder in ,
count 1 and the murder of Rosas in count 12.
·
7. The trial court deprived defendant of his state
and federal constitutional rights to a trial by jury and
due process by failing to instruct the jury to

Page 12

determine the essential factual question whether one
or multiple conspiracies existed.
8. Defendant was deprived of his Sixth and
Fourteenth Amendment rights to a jury trial and due
process by the trial court's refusal to instruct the
jury to unanimously agree on the facts underlying
the elements of the conspiracy, an error which is
reversible because it is impossible to determine
whether the jury unanimously agreed as to whom
defendant conspired to murder.

*531 9. Defendant was deprived of his Sixth and
Fourteenth Amendment rights to due process and
notice of the allegations that he conspired to murder
or assault both Urango and Esparza, where he did
not learn of these allegations until four months into
trial.
10. Defendant's conviction for conspiracy to
commit murder violates state and federal due
process guarantees because a conviction for
conspiracy to kill one of various persons without
agreement upon who was to be killed is
unconstitutionally vague and generic.
11. Defendant's conviction for conspiracy to
commit murder must be reversed for constitutionally
insufficient evidence because this court cannot
determine whether or not the jury found him guilty
of conspiring to kill a person for whom there is
constitutionally insufficient evidence in support of
conviction.
12. The trial court violated defendant's state and
federal constitutional rights to due process and a fair
trial by jury by refusing to give a legally correct
defense-requested jury instruction which was
supported by the evidence and which pinpointed the
defense theory of the case.
13. The prosecutor committed prejudicial
misconduct and deprived defendant of his state and
federal constitutional rights to due process and a fair
trial by making an inflanumttory comment and an
ungrounded **225 attack on· defense counsel in
closing argument.
14. Defendant was improperly sentenced to
consecutive terms of 25 years to life for both the
Rosas murder and the conspiracy to commit murder,
in violation of section 654.

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 89

ER 85

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 90 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 24 of 48

~
110 Cal.Rptr.2d 210
,
(Cite as: 91 Cal.App.4th 506, ...531, 110 Cal.Rptr .2d 210, **225)
DISCUSSION

Vacation of Plea Agreement
Defendant contends the prosecution waived any
claim that defendant had violated his plea agreement
when it failed to bring its motion to vacate the plea
agreement until 16 months after it had been e~tered
into, and almost six months after defendant's second
statement to the prosecution, which was the
supposed trigger for the motion; and the trial court
therefore erred and deprived defendant of his state
and federal constitutional rights to due process by
granting the prosecution's untimely motion to vacate
the plea agreement. We disagree.
On March 23, 1993, defendant entered into a plea
agreement with the prosecution, which provided in
pertinent part: "(1) [Defendant] will enter a *532
plea of guilty to count 22 of the indictment in this
case (gang-participation, a violation of Penal Code
section 186.22 [subdivisions] (a) [and] (c)) and will
admit allegations (to be added to the indictment) of
having served two separate prior prison terms within
the meaning of Penal Code section 667 .5
[subdivision] (b). [f.l If, at the time of sentencing,
[defendant] has fully complied with the terms and
conditions of this agreement, the People will move
to dismiss the conspiracy charge (Count 1) and the
murder charge (Count 12), and [defendant] will be
sentenced to the aggravated term of three years on
Count 22 (gang-participation) plus one year for each
prior prison term, for a total of five years;
[,I
] (4) Sentencing shall not occur until after the
completion of any trial or trials for any of
[defendant's] co-defendants in this case. [f.l ... [f.l
(6) (Defendant] shall truthfully disclose all
information with respect to the activities of himself
and others concerning all matters about which agents
or representatives of The People inquire of him. [f.l
(7) [Defendant] shall cooperate fully with law
enforcement authorities in their investigation and
prosecution of this case .... [,I] (8) [Defendant] shall
truthfully testify at any trial or retrial or other court
proceeding with respect to any matter related to this
case about which The People may request his
testimony or pursuant to order of the court.
(9)
[Defendant] must at all times give complete and
truthful information; should [defendant] give false,
incomplete or misleading information or testimony,
or otherwise violate any provision of this agreement,
this agreement shall be null and void and [defendant]
shall thereafter be subject to prosecution for any

m...

cm

Page 13

criminal violation of which The People have
knowledge including perjury.
Any such
prosecution may be premised upon any information
provided by [defendant] and such information may
be used against him; such a prosecution may not
proceed, however, unless the Court, after an
independent review of the relevant facts, finds that
there has been a material violation of this agreement
by [defendant].".
On July 13, 1994, the prosecution moved to vacate
defendant's guilty plea and the plea agreement on
the ground that defendant had violated the terms of
the plea agreement "by providing to the prosecution
material information, which is untrue." Defendant
opposed the motion, arguing laches and specific
performance by defendant.
On December 21, 1994, the court, following a
hearing, granted the People's motion on the basis of
its finding that defendant **226 had willfully
violated the terms of the plea agreement. The court
stated: "And I will rule as follows: In evaluating
the evidence in this case if the only evidence that
was before the court was the two statements made
by the defendant I would certainly come to the
conclusion that the statements were inconsistent.
But based upon that evidence alone I don't believe I
could conclude and I *533 wouldn't have concluded
that there was a willful attempt on the part of the
defendant to violate the witness agreement that he
entered into. (,0 But in addition to that evidence
that was presented during the course of the hearing
we had the testimony of agent Hilley who testified
that the defendant, in effect, failed the polygraph
examination as it related to two crucial questions.
And yes, I did follow his testimony as to how he
arrived at the conclusion that if one is deceptive as
to one question then the conclusion is that he would
be deceptive as to all of the questions, and I did
understand his testimony in that regard.
But,
nevertheless, his testimony was the defendant was
deceptive as it related to questions posed to him
about material matters. [ffl Additionally, there was
the testimony of the defendant which the court
considered--could consider as well and I did. My
evaluation of the defendant's testimony was that he
was not credible in many respects.
He almost
conceded withholding certain things, not quite, but
almost. And I was left with the impression that he
was less than candid on the witness stand because of
some threat that had been made to him or probably

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 90

ER 86

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 91 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 25 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, •533, 110 Cal.Rptr .2d 210, **226)
more likely members of his family that he was
unwilling fully to go into.
And that was my
impression as to what may well be the reason for the
defendant's inconsistent statements made to the
prosecution during the course of [the] two occasions
when he was questioned.
[,0 Therefore, my
conclusion is that there was a willful violation of the
witness agreement in this case and that that willful
violation amounts to material evidence that relates to
this particular case. [,r] Specifically, I find that he
willfully violated paragraph 6 of the witness
agreement which required him [to] truthfully
disclose all information with respect to the activities
of himself and others concerning all matters about
which agents or representatives of the People inquire
of him. [,r] I also find that he willfully violated
paragraph 9 which required him to at all times give
complete and truthful information. [,0 Therefore,
the witness agreement and the disposition entered
into by the defendant is now set aside. The original
charges are reinstated. 11
[ 1] The power of the court to set aside a plea
bargain on the ground of breach by a defendant of
its terms is beyond question. " ' 11 A plea agreement
is, in essence, a contract between the defendant and
the prosecutor to which the court consents to be
bound. 11 ' "
(People v. Armendariz (1993) 16
Cal.App.4th 906, 911, 20 Cal.Rptr.2d 311.) "When
a guilty plea is entered in exchange for specified
benefits such as the dismissal of other counts or an
agreed maximum punishment, both parties,
including the state, must abide by the terms of the
agreement." (People v. Walker (1991) 54 Cal.3d
1013, 1024, 1 Cal.Rptr.2d 902, 819 P.2d 861.)
As stated in People v. Collins (1996) 45
Cal.App.4th 849, 863-864, 53 Cal.Rptr.2d 367:
"The reciprocal nature of a plea bargain agreement
mandates that either party to the agreement be
entitled to enforce the agreement *534 in a situation
where the party is deprived of the benefit of the
bargain. [Citations.] ... Failure to hold a defendant
to the terms of his bargain would undermine the
integrity of the judicial process.
In this case,
defendant's breach of his bargain included testifying
falsely, conduct which is manifestly corrosive of our
system of justice. There is no question **227 that
courts have inherent authority to protect the integrity
of the judicial process. [Citation.]"
[2] We note that here the trial court, in granting the

Page 14

prosecution's motion, did not address defendant's
laches argument.
Yet, defendant did nothing to
secure a ruling on that specific issue. Defendant's
failure precludes him from raising the issue on
appeal.
"Because defendant failed to obtain a
pretrial ruling on the issue and did not pursue his
objection at trial, we will not address his contention,
for it is procedurally barred. [Citation.]" (People v.
Roberts (1992) 2 Cal.4th 271, 297, 6 Cal.Rptr.2d
276, 826 P.2d 274.)
[3] In any event, defendant's laches and waiver
argument is without merit. The record discloses that
defendant made two statements following the plea
agreement. The first statement was made on the
same date as the plea agreement, March 23, 1993.
The second statement was made 10 months later on
January 26, 1994.
The prosecution's motion to
vacate defendant's plea agreement was filed on July
13, 1994, six months after the second statement.
Defendant complains that the six-month delay in the
filing of the prosecution's motion to vacate the plea
agreement was "in effect a ratification and
acceptance of [defendant's] statements," and was
"tantamount to waiver." We do not think so.
First, "[t]he prosecution of criminal offenses on
behalf of the People is the sole. responsibility of the
public prosecutor. [Citations.] [,0 The prosecutor
ordinarily has sole discretion to determine whom to
charge, what charges to file and pursue, and what
punishment to seek. [Citation.] ... An individual
exercise of prosecutorial .discretion is presumed to
be ' "legitimately founded on the complex
considerations necessary for the effective and
efficient administration of law enforcement .... 11 '
[Citations.] [,0 Exclusive prosecutorial discretion
must also extend to the conduct of a criminal action
'In conducting a trial a
once commenced.
prosecutor is bound only by the general rules of law
and professional ethics that bind all counsel.'
[Citation.] The prosecutor has the responsibility to
decide in the public interest whether to seek,
oppose, accept, or challenge judicial actions and
rulings. These decisions ... involve 'the complex
considerations necessary for the effective and
efficient administration of law enforcement.' " (Dix
v. Superior Court (1991) 53 Cal.3d 442, 451-452,
279 Cal.Rptr. 834, 807 P.2d 1063, original italics.)
[4] *535 Here, moving to vacate defendant's guilty
plea on the basis of defendant's breach of the terms

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 91

ER 87

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 92 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 26 of 48
110 Cal.Rptr.2d 210

Page 15

{Cite as: 91 Cal.App.4th 506, •535, 110 Cal.Rptr.2d 210, **227)

of the plea agreement was effectively exercising
prosecutorial discretion to charge and prosecute
defendant, and to conduct that prosecution in the
manner deemed best 'for the effective and efficient
administration of law enforcement.' " (Dix v.
Superior Court, supra, 53 Cal.3d at p. 452, 279
Cal.Rptr. 834, 807 P.2d 1063.)
Given the
complexity of this case, six months was not an
unreasonable time for the prosecution to decide to
hold defendant to his bargain and require defendant
to suffer the consequences of his breach of its terms.
11

Second, the plea agreement implicitly authorized
the prosecution to move to vacate defendant's plea
for breach by defendant of its terms at any time
prior to the conclusion of the trial. This implicit
authority is clear from the language of the plea
agreement, which inter alia provided that
"[s]entencing shall not occur until after the
completion of any trial or trials"; defendant "shall
truthfully disclose all information with respect to the
activities of himself and others concerning all
matters about which agents or representatives of
**228 The People inquire of him"; defendant "shall
cooperate fully with law enforcement authorities in
their investigation and prosecution of this case";
defendant "shall truthfully testify at any trial or
retrial or other court proceeding with respect to any
matter related to this case about which The People
may request his testimony"; and defendant "must at
all times give complete and truthful information. 11

therefore, sufficient time to prepare for his defense.
Defendant's citation to People v. Miller (1992) 6
Cal.App.4th 873, 8 Cal.Rptr.2d 193 and In re
Ronald E. (1977) 19 Cal.3d 315, 137 Cal.Rptr. 781,
562 P.2d 684, is misplaced. Neither case involved
vacating a plea agreement for violation by the
defendant of its terms.
*536 We conclude the prosecution's motion to
vacate defendant's plea agreement was not barred by
laches or waiver, and that the trial court did not err
in vacating defendant's plea agreement.
Cruel and Unusual Punishment

[6] Defendant contends his sentence of 60 years to
life violates the federal constitutional protection
against cruel and unusual punishment given the
improper vacating of his plea agreement under
which he would have served only five years. The
· contention is without merit.
Defendant concedes that "a sentence of 60 years to
life for murder and conspiracy is not per se cruel
and unusual. 11
Defendant argues merely that
because the vacation of his plea agreement was
invalid, he should have been entitled to receive the
benefit of his bargain, which was a sentence of five
years, and, therefore, the 60-years-to-Iife sentence
imposed on him was cruel and unusual.

Defendant's obligation under the agreement to tell
the truth and to cooperate fully with the prosecution
was clearly continuing. That obligation was to last
throughout the entire course of the trial.
Consequently, the prosecution was not required to
act immediately, and piecemeal, to void the plea
agreement upon any particular breach.
The
prosecution had discretion under the agreement to
look at how a particular breach might affect the
entirety of its trial strategy, and to act only when it
was convinced that voiding the plea agreement did
not jeopardize its ability to prove its case.
The
prosecution could choose to act at any time within
the time frame of the agreement, which was, at the
very least, the full course of the trial.

Defendant contends trial counsel deprived him of
his Sixth Amendment right to effective assistance of
counsel during the proceedings on the motion to
vacate his plea agreement by failing to fully
investigate the likelihood of his passing a polygraph
examination prior to stipulating to the admission of
the results of a polygraph examination.
We
disagree.

[5] In any event, the six-month delay, if a delay it
was, did not prejudice defendant. Defendant's trial
did not start for over two years after his plea
agreement had been set aside.
Defendant had,

It has repeatedly been held that " '[a] convicted
defendant's claim that counsel's assistance was so
defective as to require reversal of a conviction or
death sentence has two components.' [Citations.]

Because we have determined that the trial court
committed no error in setting aside defendant's plea
bargain, defendant's cruel and unusual challenge
also fails.
Ineffective Assistance of Counsel

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 92

ER 88

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 93 of 114

\

Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 27 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, j36, 110 Cal.Rptr.2d 210, **228)

'First, the defendant must show that counsel's
performance was deficient.'
[Citations.]
Specifically, he must establish that 'counsel's
representation fell below an objective **229
standard of reasonableness . . . under prevailing
professional norms.' [Citations.]''
(People v.
Ledesma (1987) 43 Cal.3d 171, 216, 233 Cal.Rptr.
404, 729 P.2d 839.) "In addition to showing that
counsel's performance was deficient, a criminal
defendant must also establish prejudice before he
can obtain relief on an ineffective-assistance claim."
(Id. at p. 217, 233 Cal.Rptr. 404, 729 P.2d 839.)
"Errorless counsel is not required .... " (People v.
Williams (1988) 44 Cal.3d 883, 937, 245 Cal.Rptr.
336, 751 P.2d 395.)
Moreover, "a court need not determine whether
counsel's performance was deficient before
examining the prejudice suffered by the defendant as
a *537 result of the alleged deficiencies.
The
object of an ineffectiveness claim is not to grade
counsel's performance. If it is easier to dispose of
an ineffectiveness claim on the ground of lack of
sufficient prejudice, which we expect will often be
so, that course should be followed. Courts should
strive to ensure that ineffectiveness claims not
become so burdensome to defense counsel that the
entire criminal justice system suffers as a result.
Strickland v. Washington (1984) 466 U.S. 668, 697,
104 S.Ct. 2052, 80 L.Ed.2d 674.)
11

(

[7] Here, after the prosecution had filed its motion
to set aside the plea agreement, defendant's counsel
and the prosecutor stipulated that defendant would
submit himself to a polygraph examination by an
expert acceptable to both parties, and that the results
of the test would be submitted to the court to aid it
in its determination of whether defendant had
committed a material breach of the plea agreement.
The defense and the prosecution then mutually
agreed on FBI special agent Ron Hilley to conduct
the polygraph test on defendant. Hilley concluded
that defendant was deceptive in his answers to the
four relevant questions that were related to a
particular inconsistency in defendant's statements.
In its order setting aside defendant's plea
agreement, the court stated that it relied in part on
Hilley' s testimony.
In arguing ineffective assistance, defendant asserts
that "reasonably competent counsel would not

Page 16

stipulate to the admission of polygraph results
without first conducting some investigation to ensure
that the stipulated evidence would be favorable to
[defendant]." (Original underscore.) Defendant
points to no place in the record, however, which
would indicate that trial counsel had agreed to the
stipulation relating to defendant's polygraph
examination without first reasonably informing
himself of the probable outcome of such an
examination.
Defendant bears the burden of
showing to this court that trial counsel's agreement
to the polygraph examination stipulation was not an
informed decision. As stated in People v. Mitcham
(1992) 1 Cal.4th 1027, 1058, 5 Cal.Rptr.2d 230,
824 P.2d 1277: "When a defendant on appeal
makes a claim that his counsel was ineffective, the
appellate court must consider whether the record
contains any explanation for the challenged aspects
of the representation provided by counsel. 'If the
record sheds no light on why counsel acted or failed
to act in the manner challenged, "unless counsel was
asked for an explanation and failed to provide one,
or unless there simply could be no satisfactory
explanation," [citation], the contention must be
rejected.' [Citations.]"
On this record, def~ndant has not carried his burden
of showing that trial counsel's decision was not
informed. Presuming an informed decision *538 by
trial counsel, we must further presume that trial
counsel's decision was a tactical choice which we
cannot, for such lack of showing, review in this
appeal.
**230 Non-Charged Homicide of Farfan

[8] Defendant contends the trial court violated his
Sixth and Fourteenth Amendment rights by
precluding him from cross-exannmng two
prosecution witnesses and . conducting direct
examination of one potential defense witness
regarding the killing of Farfan, which would have
elicited evidence that the prosecution pursued a
flawed policy of presenting unreliable accomplice
witnesses against defendant and that a critical
witness against defendant was unworthy of belief.
The contention is without merit.
Salazar, Arroyo, and Mendoza, who were indicted
with defendant and other codefendants, entered
guilty pleas.
The prosecution thereafter called
Salazar and Mendoza to the witness stand, but did

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 93

ER 89

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 94 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 28 of 48
110 Cal.Rptr .2d 210

Page 17

(Cite as: 91 Cal.App.4th 506, · jJ8, 110 Cal.Rptr .2d 210, **230)

not call Arroyo.

ask Salazar questions relating to the Farfan murder.

· Defendant joined a defense motion to allow the
defense to cross-examine Salazar regarding the
Farfan murder. In particular, the defense wanted to
show to the jury that Salazar had made the statement
that Arroyo had authorized Farfan' s murder, and
that Arroyo had denied authorizing Farfan' s murder.
The attorney representing codefendant Trujeque told
the court at a ,bench conference that "[o]ne of the
two of them is lying. And, therefore, there is a
problem with the deals that they've cut with the
prosecution.
The prosecution objected that the
proffered evidence constituted impeachment on a
collateral matter. The court told the defense that if
it decided to bring up the Farfan murder, which
happened after the indictment in this case, it did so
at its own risk if the evidence turned out to be
inadmissible because it would require an
admissibility hearing.

On March 17, 1997, just prior to the
commencement of Salazar's cross-examination, the
defense brought up again the issue of whether it
could ask Salazar questions on the Farfan homicide
and asked the court for a hearing on the issue. The
prosecution restated its intention not to call Arroyo
as a witness, and further told the court that Arroyo's
attorney had informed her that Arroyo "will take the
**231 Fifth and will not testify if called as a witness
by the defense.
11

11

On February 7, 1997, prior to Salazar's testimony,
the court took up the Farfan issue again.
The
prosecution argued that evidence relating to the
Farfan murder would be admissible only if Arroyo
testified, since evidence of Salazar's participation in
that murder would then be admissible as a prior bad
act for impeachment;
moreover, if Salazar's
testimony was the result of a plea bargain in which
the murder of the Farfan case was dismissed, "then
that could be presented also as an issue, although I
would say parenthetically that his testimony [was]
not predicated on the dismissal of the Farfan case.
11

The defense agreed with the prosecution that
evidence of the Farfan homicide was admissible only
if Arroyo testified.
However, counsel for
codefendant Trujeque expressed his intention to
attack Salazar's credibility *539 with the Farfan
homicide because Salazar's and Arroyo's statements
respecting that homicide contradicted each other.
The court asked Trujeque' s attorney if he intended
to call Arroyo as a witness if the prosecution did not
call Arroyo. Trujeque's attorney responded he
would do so if Salazar testified that Arroyo had
authorized Farfan' s murder. The prosecution stated
that it had been informed by Arroyo's attorney that
if the defense attempted to call Arroyo as a witness,
Arroyo would assert his right against selfincrimination, adding that if Arroyo testified the
prosecution would not grant Arroyo immunity. The
court stated it was disposed to allow the defense to

The court did not rule on the issue, stating instead
that it "would like to see how the situation
develops, and inquiring of the defense what it
intended to ask Salazar.
Trujeque' s attorney
responded that he would ask Salazar if he (Salazar)
had ordered Farfan' s murder. If Salazar answered
he did not, he (Trujeque's attorney) would then ask
Salazar if Arroyo did. The court stated: "Well, let
me indicate this, Mr. Salazar has made it clear in no
uncertain terms he's testifying truthfully and turned
his life around. If you want to impeach his claim
of truthfulness by asking him whether he was
involved in the Farfan murder, you can. If you,
and, I take it, if you do, that's a prerequisite to
impeaching him, assuming that he says he was not.
(,0 As far as going any further with this witness as
to who ordered it and that sort of thing, that's
premature. That sounds like you're attempting to
set up impeachment of Arroyo. He has not testified
yet.
We don't know if he's going to testify.
Should he testify, we can revisit the issue."
11

On March 18, 1997, during Salazar's crossexamination, the defense explained its theory of
admissibility, which was that the Farfan homicide
was an impeachable offense as to Salazar, and
would further show that Salazar had a reason not to
be truthful about his role in that homicide because
his plea agreement was conditioned upon his noninvolvement in it. The court replied that if it let in
any mention of the Farfan homicide, it would let in
all facts surrounding that homicide.
·
Defendant joined the motion to allow Salazar to be
examined about the Farfan homicide.
*540 The court denied the defense request, stating:
"[M]y ruling at this point subject to counsel
persuading me differently is that that subjec.t is not

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 94

ER 90

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 95 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 29 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ..;40, 110 Cal.Rptr.2d 210, **231)
to be covered in cross-examination. I will sustain
the [Evidence Code section] 352 objection. In so
doing I'm considering the amount of time that we
would have to devote to the Farfan matter.
But
more than that, I'm also considering everything I've
heard in cross-examination so far, and I used the
There's
term ammunition, it's not a legal term.
been a wealth of evidence that has been used so far
to attack the credibility of this witness, and what has
occurred so far during cross-examination. And it
seems to me the Farfan matter isn't something
crucial. So I find the relevancy to be substantially
outweighed by undue consumption of time and
confusing the issues."
On March 19, 1997, the court allowed the parties to
discuss the Farfan homicide issue further.
The
defense made an offer of proof that included the
(1) Salazar's ex-wife became
following:
romantically involved with Farfan in the late
summer of 1992, and the two lived openly together
in January 1993; (2) Salazar knew that his ex-wife
was living with Farfan; (3) Salazar stated in his
June 23 statement to the police that while he was in
a holding cell in early 1993, he heard Arroyo say
that a "green light" should be placed on Farfan
because Farfan had cheated the NF out of its money;
(4) in September 1993, Farfan told parole agent E.J.
Allen that his (Farfan's) life was in danger because
he was dating Jessica Salazar and another woman;
(5) Farfan was murdered on September 27, 1993;
(6) Salazar met Louis Oliverez in 1989; (7) on
October 7, 1993, Nancy Hermocillo told the police
that on September 23, 1993, which was four days
prior to Farfan's murder, she was at a friend's
house and overheard a telephone conversation
between Salazar and Oliverez wherein Salazar had
asked Oliverez to kill Farfan; and (8) Salazar's plea
agreement was conditioned **232 upon Salazar's
noninvolvement in the Farfan murder.
On March 26, 1997, the court once more denied the
defense motion, reasoning that the prosecution did
not intend to call Arroyo as a witness. The court
admitted that the proffered evidence was relevant,
but found it inadmissible under Evidence Code
section 352 because admission of the evidence would
confuse the jury and consume an undue amount of
time.
The court explained: "The issue of the
admissibility of testimony concerning Paul Farfan,
as I recall, arose in the context of a discussion at the
bench where it was. anticipated that Mr. Salazar and

Page 18

Mr. Arroyo would both testify. And the offer of
proof was that their testimony would conflict as it
relates to the subject of the green light on Paul
Farfan, thus establishing that someone's not telling
the truth, whether it's Mr. Salazar or whether it is
Mr. Arroyo.
And at that time, as I recall, I
indicated preliminarily that I would allow some
questioning in that area.
[,O Now, since that
discussion, my *541 understanding at this point is
that Mr. Arroyo is not going to be testifying as a
witness. That may change. If he does testify as a
witness, this issue undoubtedly will be revisited,
because I invite Mr. Mayfield [counsel for
Trujeque] to revisit the issue. But the issue is not
squarely before the court now. [,0 . . . [,O The issue
as I indicated is a [Evidence Code section] 352
issue. It is not a relevancy issue because obviously
this testimony satisfies in my opinion the defense of
relevant evidence in California.
But being a
[Evidence Code section] 352 issue, the court has to
look at the probative value and weigh it against the
possibility of confusing the issues, principally
confusing the jury as well as the undue consumption
of time. [,O Now, the justification for offering this
testimony in a very general sense is two-fold. One,
it's the credibility of Jerry Salazar. And then, No.
2, something that I have quite--1 have not completely
understood, that is, Mr. Selvin [counsel for
codefendant Herminio Serna], the argument about
the theory--the theory of the conspiracy, its
admissibility under the theory of the conspiracy. [,0
. . . [,0 Credibility is a very broad term. Whether
they're talking about credibility in a general sense
that Jerry Salazar is a liar or in a more specific
sense that he's a liar in this particular case, has lied,
and even more particularly has violated the plea
We're still
agreement by not telling the truth.
talking about credibility. [,0 . . . [,O [S]o far as it
relates to Mr. Salazar, he has been impeached about
prior inconsistent statements in a number of
instances by defense counsel.
Additionally, he's
admitted lying in the past, and not just as it relates
to the June '93 interview, but he has been compelled
or persuaded to admit that he lied in other instances
on the witness stand. [,0 Defense counsel certainly
can argue the significance of his inconsistent
statements, certainly can be argued that he has lied
and is in fact an admitted liar. [,0 But not only that,
as it relates to the use of the Farfan murder as an
example of an act of moral turpitude which bears on
his credibility, Mr. Salazar has been confronted with
a number of instances that counsel can use to argue

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 95

ER 91

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 96 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 30 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, .>41, 110 Cal.Rptr .2d 210, **232)
the point of credibility. [,0 There's the bowling
alley set up that Mr. Salazar was involved [in]
whereby an individual from Fresno was robbed and
pistol whipped. [,I] There's the incident at J.P.'s
involving two Chinese males that Mr. Salazar was
involved with whereby he ... sucker punched one of
the individuals after apologizing to him, suggesting
that he is a man of bad character not simply because
he's violent, but there's also the suggestion he's
homophobic. [,0 There's an incident described in
the testimony at a disco where Mr. Salazar was
there with Mr. Lopez and **233 Mr. Shelton. Cf.I
There's the incident involving Roland Saldivar's
uncle where Salazar admitted on the stand that he
pointed a gun at the individual•
There IS the issue
involving Mr. Urango where Mr. Salazar admitted
to looking for him to kill him. (,0 There's the
incident at King and Story Road where Mr. Salazar
was the driver and a passenger shot, apparently
wounding several Surenos. [,J] There's the incident
involving ... Alex Flemate, where *542 Mr. Salazar
was involved in a plot to kill him. [11] There's the
issue involving Spookio.
And one of the
interpretations of the evidence that I would assume
the defense would find favorable was their
suggestion that Mr. Salazar was involved in a plot to
kill Spookio motivated by jealousy. (,0 There's the
Beto Jasso incident, attempted· killing of Carlos
Mejias, that Mr. Salazar was involved in. [,0 We
heard about a New Years incident I believe in
Watsonville where Mr. Salazar had a stabbing
instrument and apparently stabbed the wrong person
by accident. [,O We've heard that he planned the
murder of one of the defendants in this case, Eddie
Vargas. [,I] There's even been a suggestion that
when he was thrown in the hole when he was in
prison just before his release that he was involved in
some inappropriate activity. [,I] And then I also
made note of his involvement in a robbery of a drug
dealer in the City of Fresno. And there are others.
[,0 The point I'm making is there's ample evidence
to attack the credibility of Mr. Salazar based not
only on his inconsistent statements of his admissions
of being untruthful, but based on a number of
specific instances. This is significant because in my
opinion it lessens the probative value of the Paul
Farfan incident. [f.l So what I find is the probative
value, although there is some probative value, is not
particularly extensive for all the reasons that I listed,
and in particular the specific instances which counsel
has inquired into already. ['ill What I do find is to
allow the inquiry into the Paul Farfan incident as

m

Page 19

described in the offer of proof will cause undue
consumption of time and can lead to the confusing of
the jury in this case because one possible situation is
a mini-trial where the death of Paul Farfan will be
litigated.
Certainly the People are allowed to
litigate that issue if I allow the defense to do so. [,0
In short, I find that the probative value is
outweighed by the factors I cited.
The court's
ruling is the testimony is not admissible. [,O I want
to remind in particular Mr. Mayfield, if we have a
situation arise similar to what we envisioned in the
past, we, being all of us, involving Mr. Arroyo
testifying, then the court is happy to revisit the
issue."
On April 16, 1997, the defense again sought to
bring out the issue of Salazar's perjury on the basis
of the conflict between Salazar, who said that
Arroyo had authorized Farfan's murder, and
Arroyo, who denied authorizing such murder. The
defense wanted to question Mendoza, who Salazar
said was present when Arroyo gave the green light
to murder Farfan. Trujeque' s counsel argued that
he should be allowed to question Mendoza whether
Arroyo had given the "green light, 11 and be allowed
to call Arroyo to ask whether he authorized the
murder.
The prosecution responded that if the court allowed
evidence of the Farfan homicide to come in, it was
going to prove that what Salazar had said was true.
*543 The court reiterated its ruling that evidence of
the Farfan homicide was inadmissible, adding: "It
was mentioned this afternoon that as it relates to the
issue of credibility, Mr. Mayfield indicated he
wanted to establish that Salazar will lie about
murders. Well, that's already been established in the
testimony that he made some false accusations as it
relates to who participated in what, and I know
you' re all familiar with that testimony. [,0 The
right **234 to confront and cross-examine is not
without limitation as we all know. And I feel that
as it relates to Mr. Salazar, he has been confronted
and cross-examined, not only at length, but with
reference to a number of subjects where counsel
would be able to argue forcefully that the man is a
liar when this case is argued. 11

On August 15, 1997, the court denied defendant's
motion for a new trial which defendant based, inter
alia, on the ground of error in precluding evidence

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 96

ER 92

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 97 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 31 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, · :543, 110 Cal.Rptr.2d 210, **234)
relating to the Farfan incident.
[9] The standard of review for Evidence Code
section 352 challenges is abuse of discretion. The
court in its discretion may exclude evidence if its
probative value is substantially outweighed by the
probability that its admission will (a) necessitate
undue consumption of time or (b) create substantial
danger of undue prejudice, of confusing the issues,
or of misleading the jury." (Evid. Code, § 352.)
11

On appeal, " '[a] trial court's exercise of discretion
will not be disturbed unless it appears that the
resulting injury is sufficiently grave to manifest a
miscarriage of justice. [Citation.] In other words,
discretion is abused only if the court exceeds the
bounds of reason, all of the circumstances being
considered. [Citation.]' " (People v. Green (1995)
34 Cal.App.4th 165, 182-183, 40 Cal.Rptr.2d 239.)
The underlying assumption in defendant's challenge
is that the proffered evidence relating to the Farfan
incident would have shown that either Salazar or
Arroyo was lying. The assumption is flawed. The
prosecution repeatedly told the parties and the court
that it was not going to call Arroyo as a witness,
and, in fact did not call Arroyo. Because Arroyo
did not testify, his version of the story was not
before the jury.
Consequently, the jury did not
know that Arroyo's version was in conflict with
Salazar's version. It follows that while Arroyo's
version was relevant as tending to discredit Salazar,
the court could reasonably conclude it was not
probative enough to outweigh its potential for
prejudice in terms of time consumption and issue
confusion. The prosecution had indicated that if
Arroyo testified, it would adduce evidence to prove
that Salazar was telling the truth. The court, for its
part, stated that if it allowed the defense to bring out
evidence relating *544 to the Farfan incident, it
would also have to allow the prosecution to litigate
the issue.
The result would be a minitrial on a
crime with which defendant was not charged,
resulting in jury confusion and inordinate
consumption of time.
Defendant argues that the trial court's concern that
allowing Salazar to be questioned on the Farfan
incident would result in undue consumption of time
was not well-founded because the trial was in fact
finished several months earlier than estimated. The
argument is not persuasive. "Undue consumption of

Page20

time" refers not only to the time used to try the
case, but also the time lost to the court by giving
one case more time than needed, to the prejudice of
other cases which could have productively used the
time wasted. Here, the trial took five months of
the court's time. Giving this case more time than
was reasonably necessary was prejudicially taking
off time from other cases that needed judicial
attention just as well.
Defendant's reliance on In re Anthony P. (1985)
167 Cal.App.3d 502, 213 Cal.Rptr. 424 (In re
Anthony P.), United States v. Giovanelli (2d Cir.
1991) 945 F.2d 479 (Giovanelli), People v. Randle
(1982) 130 Cal.App.3d 286, 181 Cal.Rptr. 745 (
Randle ), and People v. Babbitt (1988) 45 Cal.3d
660, 248 Cal.Rptr. 69, 755 P.2d 253 (Babbitt), is
misplaced. Those cases addressed distinguishable
situations. In re **235 Anthony P. involved the
scope of cross-examination about a racial bias,
which is not an issue here; Giovanelli involved a
prosecution in federal court of a defendant who had
been acquitted in a state trial; Randle did not
involve an Evidence Code section 352 issue at all;
and Babbitt did not find that undue consumption of
time was an appropriate factor to consider.
We are also not persuaded by defendant's argument
that "the excluded evidence would have shown that
the prosecution knowingly presented false or at least
misleading testimony." The prosecution was ready
to prove that Salazar was telling the truth had
defendant been allowed to examine Salazar about the
Farfan incident.
We conclude the trial court did not abuse its
discretion in disallowing evidence relating to the
Farfan homicide.

Cross-Examination of John Kracht
[ 1OJ Defendant contends the trial court violated his
Sixth and Fourteenth Amendment rights to
confrontation and due process by unduly restricting
the scope of cross-examination of John Kracht
regarding the disposition of a case against Pena,
which would have shown that defendant had no
motive to agree to kill Rosas and thus prejudiced his
defense against the charges of murder and
conspiracy to commit murder. We disagree.

*545 Rosas was murdered on June 26, 1991, by

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 97

ER 93

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 98 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 32 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ··545, 110 Cal.Rptr .2d 210, **235)
assailants who were not identified.
The
prosecution's evidence showed that defendant
authorized Rosas' s murder because Rosas had
identified Pena as the person who had earlier robbed
Petra Gonzalez, who was the mother of Rosas' s
girlfriend. The prosecution's evidence consisted of
Pena's confession, statements made by several NF
members, and evidence of the actual robbery itself
wherein Gonzalez identified Pena to the police as
Gonzalez testified that two
one of the robbers.
masked men broke into her home on December 31,
1983, and that Rosas went to her defense.
Gonzalez did not know who Pena was and did not
recall if Pena was one of the intruders.
John Kracht, the district attorney's investigator,
testified that he used to be employed by the San Jose
Police Department and that, while employed as
such, he had investigated the Rosas robbery and had
spoken to Gonzalez. Gonzalez identified Pena's
picture as that of one of the robbers. Gonzalez also
told Kracht that Pena had held a knife to her neck
and had cut her.
During cross-examination, the defense asked Kracht
whether his reports with reference to the Rosas
robbery investigation were closed; whether he ever
testified at a trial involving Pena regarding the Rosas
robbery; and whether he ever appeared in court
"with reference to charges brought against Pablo
Pena as a result of this incident." The prosecution
objected to the questions on relevancy grounds.
The court sustained the objections.
Trujeque's
counsel requested a hearing on the defense
objection.
The court granted the request, and a
hearing was held out of the presence of the jury.
At the hearing, the defense stated, as an offer of
proof, that Pena was not prosecuted for the Rosas
robbery, and this lack of prosecution showed that
the prosecution's theory was not viable.
The
defense further stated that because Pena was not
prosecuted, "there never was any way that [Pena]
would know that anything happened."
The court ruled that the objected questions were
irrelevant, and, in any event, the relevancy of the
questions was "greatly outweighed by undue
consumption of time on a collateral issue, really."

**236 (11] We find no error.
Pursuant to
Evidence Code section 210, "relevant evidence" is

Page21

evidence that has "any tendency in reason to prove
or disprove any disputed fact that is of consequence
Trial courts
to the determination of the action."
have wide discretion in determining the relevancy of
evidence. (Babbitt, supra, 45 Cal.3d at p. 681, 248
Cal.Rptr. 69, 755 P.2d 253.)
The fact that was of consequence which the defense
sought to establish with the challenged questions was
the viability of the prosecution theory that *546
defendant authorized the murder of Rosas because
Rosas had identified Pena as one of the robbers in
the Rosas robbery. Defendant's argument is that
such theory was not viable because Kracht's
investigation of the Rosas robbery had been closed,
and Kracht had not appeared in court in regard to
any charges brought against Pena respecting the
Rosas robbery.
We fail to see the logic of the argument.
The
closure of Kracht's investigation, and the fact that
Kracht never appeared nor testified at a trial
involving the Rosas robbery, did not mean that
Rosas was without other means of knowing that
Pena was involved in the Rosas robbery. Rosas's
knowledge of Pena's participation could have come
from sources other than Kracht' s investigation or
court testimony. In fact, Rosas was present when
the robbery took place, and even went to the defense
of Gonzalez. Pena, as one of the robbers, likely
knew of Rosas' s presence during the robbery and of
Rosas' s role in coming to the defense of Gonzalez.
There is evidence that in late June 1991, defendant
told Salazar that there was a "green light" on Rosas
because Rosas had "snitched on Pablo Pena,
Panther."
Chavez testified that while he was in
prison with Pena, Pena had told him that he (Pena)
had robbed Rosas's home. There is also evidence
that after Rosas' s murder, Shelton asked defendant
about it, and defendant's reply was: "Fuck that
punk, I just told them [Chavez and Salazar] to deal
with it, that he [Rosas] had some situation with
Panther [Pena]."
Because the questions of whether Kracht had closed
his investigation and whether he had appeared or
testified at a trial involving the Rosas robbery did
not foreclose the prosecution theory that defendant
had authorized the murder of Rosas because Rosas
knew that Pena was involved in the Rosas robbery,
the trial court did not exceed the bounds of reason,
and therefore did not exceed its discretion, in

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 98

ER 94

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 99 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 33 of 48
. i 10 Cal.Rptr.2d 210
~
Page22
(Cite as: 91 Cal.App.4th 506, ~46, 110 Cal.Rptr.2d 210, **236)
sustaining the prosecution's objections to the
challenged cross-examination questions on relevancy
grounds.
Moreover, the trial court stated that, in any event,
the relevancy of the questions was "greatly
outweighed by undue consumption of time on a
collateral issue."
Defendant has not seriously
challenged this Evidence Code section 352
determination by the trial court, except to point out
that only two questions were objected to. It is not
possible to tell, however, how many more questions
on the subject might have been asked, and how
much more time might have been spent by both
sides on the issue, had no timely objections been
made to the initial questions, and had not the trial
court sustained the objections.
Lesser Included Offense Instruction

Defendant contends the trial court violated
defendant's state and federal constitutional rights to
due process and an impartial jury trial by *547
refusing to instruct the jury on the lesser included
offense of second degree murder with respect to the
conspiracy to commit murder in count 1 and the
murder of Rosas in count 12. The contention is
without merit.
**237 [12] As to count 1, defendant did not request
below that the jury be instructed on conspiracy to
commit second degree murder, but claims on appeal
that the trial court had the sua sponte duty to give
such instruction. The court had no such duty, and
the issue is now settled. In People v. Conez (1998)
18 Cal.4th 1223, 1237-1238, 77 Cal.Rptr.2d 733,
960 P .2d 537, the California Supreme Court held
that '' all conspiracy to commit murder is necessarily
conspiracy to commit premeditated and deliberated
first degree murder, and that all murder conspiracies
are punishable in the same manner as murder in the
first degree pursuant to the punishment provisions of
Penal Code section 182. The time has come to
disapprove our early decision in [People v.] Hom
[(1974)] 12 Cal.3d 290, 115 Cal.Rptr. 516, 524
P.2d 1300, to the extent it is inconsistent with the
views expressed herein."

(13] As to count 12, the Rosas murder, defendant
requested the trial court to instruct the jury on
second degree murder. The prosecution objected,
arguing that, as to that murder, defendant was either

guilty of conspiracy to commit first degree murder
The court denied
or not guilty of any crime.
defendant's request, stating: 11 As it relates to Mr.
Vargas, ... it's either a first degree murder or it's
not a first degree murder. I expect--or based on
what I've observed during the course of this trial,
that the credibility of witnesses who will testify
about Mr. Vargas will be attacked. The argument
is going to be he didn't commit any crime. To the
extent he did, the evidence suggests in my opinion
that if there was a crime, it's a first degree murder.
Therefore, I don't believe it's appropriate to instruct
on second degree murder."
As the court expected, defendant's counsel
subsequently argued to the jury that defendant was
not guilty at all of the Rosas homicide.
The trial court's duty to instruct on lesser included
offenses has been summarized, thus: " 'It is settled
that in criminal cases, even in the absence of a
request, the trial court must instruct on the general
principles of law relevant to the issues raised by the
evidence. [Citations.] The general principles of
law governing the case are those principles closely
and openly connected with the facts before the court,
and which are necessary for the jury's understanding
of the case.' [Citation.] That obligation has been
held to include giving instructions on lesser included
offenses when the evidence raises a question as to
whether all of the elements of the charged offense
were present [citation] but not when there is no
evidence that the offense was less than that charged.
[Citations.] The obligation to instruct on lesser
*548 included offenses exists even when as a matter
of trial tactics a defendant not only fails to request
the instruction but expressly objects to its being
given. [Citations.] Just as the People have no
legitimate interest in obtaining a conviction of a
greater offense than that established by the evidence,
a defendant has no right to an acquittal when that
evidence is sufficient to establish a lesser included
offense. [Citation.]" (People v. Sedeno (1974) 10
Cal.3d 703, 715-716, 112 Cal.Rptr. 1, 518 P.2d
913, fn. omitted.)
Further, 11 ' "[i]t has long been settled that the trial
court need not, even if requested, instruct the jury
on the existence and definition of a lesser and
included offense if the evidence was such that the
defendant, if guilty at all, was guilty of something
beyond the lesser offense." [Citations.]' [Citation.]"

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 99

ER 95

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 100 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 34 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ...54s, 110 Cal.Rptr.2d 210, **237)

(People v. Guenin (1996) 47 Cal.App.4th 505, 507,
54 Cal.Rptr.2d 821.)
**238 Defendant claims that he acted rashly, and
therefore without deliberation or premeditation,
when he approved the Rosas murder. The claim is
not supported by the facts on record.
The record shows that in late June 1991, defendant
told Salazar that there was a "green light" on Rosas
because Rosas haci "snitched on Pablo Pena,
Panther." However, before the green light was
executed, defendant wanted confirming "paperwork"
because if Rosas was killed and defendant was
wrong, defendant would himself be killed. Chavez
testified that on the night Rosas was killed, he
received a telephone call from Roy Reveles and Tim
Hernandez asking him for authority "[t]o hit Little
Eli [Rosas]."
Chavez told Hernandez that he
"didn't have the authority to make any decisions."
Chavez then contacted Salazar, who contacted
defendant. In a three-way telephone discussion with
Salazar and defendant, Chavez told defendant that
Reveles and Hernandez had asked for his authority
to kill Rosas and that he had told them that he
couldn't make that decision."
Chavez asked
defendant what he was to do. Defendant told Chavez
to "do what you got to do," which meant to "kill
[Rosas]."
11

This three-way telephone conversation took place
while defendant was at the home of Michelle
Valderama, his sister-in-law. Valderama overheard
defendant's side of the conversation, including the
name "Eli," which was how Rosas was called, and
defendant's instruction to the caller to "just do what
you got to do," and for the caller to let him know
what happened.
Subsequently, when defendant and Shelton were at
San Quentin, defendant told Shelton, in referring to
Rosas: "Fuck that punk, I just told them [Chavez
and Salazar] to deal with it, that he [Rosas] had
some situation with Panther [Pena], and that Rosas
was behind "some drug deal that some drugs *549
were involved and that [Rosas] had supposedly had
snitched on [Pena] who's also an N.F. member."
11

The foregoing facts demonstrate premeditation and
deliberation, not rashness. If the jury accepted the
facts as true, the killing of Rosas was murder of the
If the jury did not believe the
first degree.

Page23

foregoing evidence, particularly that relating to the
three-way conversation among defendant, Chavez,
and Salazar, then defendant was not guilty of any
crime. There was no middle ground.
Accordingly, we conclude the trial court did not err
in refusing to give the second degree murder lesser
included offense instruction.

One or Multiple Conspiracies
Defendant contends the trial court deprived
defendant of his state and federal constitutional
rights to a trial by jury and due process by failing to
instruct the jury to determine the essential factual
question whether one or multiple conspiracies
existed. We disagree.
On conspiracy, the defense proposed a modified
version of CAUIC No. 6.10, to read as follows:
"If you find the existence of a conspiracy beyond a
reasonable doubt, you must determine whether a
single or multiple conspiracies have been proven.
If there was one overall agreement among the
various parties to perform various functions to carry
out the objectives of the conspiracy, then there is but
If there were separate
a single conspiracy.
agreements each of which had its own distinct,
illegal end and which were not drawn together in a
single, overall, comprehensive plan, then each such
The
agreement is a separate conspiracy.
indictment alleges only a single count of conspiracy.
If you find the existence of multiple conspiracies,
**239 a defendant may be found guilty of
conspiracy if the proof shows beyond a reasonable
doubt that he participated in one or more of the
conspiracies. However, to find a defendant guilty
of conspiracy you must unanimously agree as to
which conspiracy or conspiracies he participated in.
It is not necessary that the particular conspiracy or
conspiracies agreed upon be stated in your verdict."

rm

The prosecution objected to this proposed
instruction, arguing that while there was one
umbrella conspiracy, which was the NF, "there have
to be some specific efforts on the part of each
conspirator to join in that conspiracy as a--if you
would like, a mini conspiracy within the ambit of
the larger one. Obviously, the larger one is the
[Nuestra Familia] doing evil things as a group, but
we have never gone so far as to say that simply
joining *550 the NF makes one responsible for all of
the crimes then committed by the gang itself,

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 100

ER 96

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 101 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 35 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, -..150, 110 Cal.Rptr .2d 210, **239)
necessarily.
But in terms of the umbrella
conspiracy and for [Evidence Code section] 1223
there is such an umbrella conspiracy to commit
crimes, the named crimes in general.
But that's
why in terms of the verdict form and also the
accomplice stuff and all of the rest of it, we have
specific murder object, object crimes, that is, the
murder of certain specific individuals. The subjects
of the object crimes, if you will."
The court refused the proposed instruction, stating
that it found the last two paragraphs thereof, which
deal with multiple conspiracies, "potentially very
confusing, 11
The next day, the court announced:
I've
rethought my position.
As you know, I've
indicated before that I felt that the jury would not
only have to find unanimously which of the target
crimes were the subject of the conspiracy, but I
went on to indicate that I felt they would have to be
unanimous as to which particular event associated
with the target crimes, for example, which murder.
And in keeping with that position, I felt that the jury
verdict forms should be specific as to possible
victims, where they could not only demonstrate their
unanimous opinion concerning the target crime, but
which particular event. [ffl After reconsidering, I've
come to the conclusion I was wrong. And it's my
opinion that the jury need only be unanimous about
the target crimes, that they don't have to
unanimously agree as to which event, nor does that
have to be reflected in the jury verdict form,
whether it be which murder or which robbery or
which distribution of controlled substances. r,J I am
not inclined, still~ to give the instructions requested
by the defense dealing with multiple conspiracies,
and the record is clear as to the proposed
instructions which I rejected already."
The court then gave the jury the following
instruction on conspiracy (CAUIC No. 6.10): "A
conspiracy is an agreement entered into between two
or more persons with the specific intent to agree to
commit an object crime or crimes and with the
further specific intent to commit the object crime or
crimes followed by an overt act committed in this
state by one or more of the parties for the purpose
of accomplishing the object or objects of the
agreement. Conspiracy is a crime. [,0 In order to
find a defendant guilty of conspiracy, in addition to
proof of the unlawful agreement and specific intent,

Page24

there must be proof of the commission of at least
one of the acts alleged in the indictment to be an
overt act and that the act committed was an overt
act. It is not necessary to the guilt of any particular
defendant that defendant personally committed the
overt act, if he was one of the conspirators when the
alleged overt act was committed. (,0 The term
'overt act' means any step taken or act committed by
one or more of the conspirators**240 *5?1 which
goes beyond mere planning or agreement to commit
a crime and which step or act is done in furtherance
of the accomplishment of the object of the
conspiracy. [~] To be an 'overt act,' the step taken
or act committed need not, in and of itself,
constitute the crime or even an attempt to commit
the crime which is the ultimate object of the
conspiracy. Nor is it required that the step or act,
in and of itself, be a criminal or an unlawful act."
The jury was also instructed pursuant to CAUIC
No. 6.25: "In order to find a defendant guilty of the
crime of conspiracy, you must find beyond a
reasonable doubt that a defendant conspired to
commit one or more of the object crimes of the
conspiracy, and you also must unanimously agree as
to which particular crime or crimes he conspired to
commit.
[,r] If you fmd defendant guilty of
conspiracy, you will then include a finding on the
question as to which alleged object crimes you
unanimously agree a defendant conspired to commit.
A form will be supplied for that purpose for each
defendant. 11

In addition, because of the allegation in the
indictment that the conspiracy was committed for the
benefit of a criminal street gang, the court instructed
the jury that 11 [i]f you find a defendant guilty of any
crime charged, then you must decide if he
committed that crime or those crimes for the benefit
of, at the direction of, or in association with a
criminal street gang."
Defendant argues that the question of whether one
or more conspiracies existed in this case was a
question of fact for the jury to determine, and,
therefore, the trial court violated his state and
federal constitutional rights to a trial by jury and due
process when that court refused his request to
instruct the jury to "determine whether a single or
multiple conspiracies had been proven, and to agree
unanimously as to which conspiracy or conspiracies
each defendant participated in." We disagree.

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 101

ER 97

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 102 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 36 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ···S51, 110 Cal.Rptr.2d 210, **240)
In People v. Tran (1996) 47 Cal.App.4th 759, 772,
'The crime
54 Cal.Rptr.2d 905, this court stated:
of conspiracy is defined in the Penal Code as "two
or more person~ conspir[ing]" "[t]o commit any
crime," together with proof of the commission of an
overt act "by one or more of the parties to such an
agreemenf' in furtherance thereof.
[Citation.]
"Conspiracy is a 'specific intent' crime .... The
specific intent required divides logically into two
elements: (a) the intent to agree, or conspire, and
(b) the intent to commit .the offense which is the
object of the conspiracy.... To sustain a conviction
for conspiracy to commit a particular offense, the
prosecution must show not only that the conspirators
intended to agree but also that they int~nded to
commit the elements of that offense." [Citation.]'
[Citation.]" (Original italics.)
11

*552 In a conspiracy, "[t]he gist of the offense is
the unlawful agreement between the conspirators to
do an act contrary to law, accompanied by an overt
act to at least start to carry the conspiracy into
effect. n (People v. Moran (1958) 166 Cal.App.2d
410, 414, 333 P.2d 243.)
In People v. Lopez
(1994) 21 Cal.App.4th 1551, 1557, 26 Cal.Rptr.2d
741, the court, quoting 1 Witkin and Epstein,
California Criminal Law (2d ed. 1988) Elements of
Crime, section 163, at page 181, stated that " ' [o]ne
agreement gives rise to only a single offense, despite
any multiplicity of objects.' "

In Braverman v. United States (1942) 317 U.S. 49,
53-54, 63 S.Ct. 99, 87 L.Ed. 23 (Braverman ),
where the defendants were charged with the illegal
manufacture, transportation and distribution of
liquor, and each count charged a conspiracy to
violate a different penal statute, and where it was
conceded that the different violations were all
pursuant to a single overall **241 agreement, the
United States Supreme Court concluded that there
was only one conspiracy, reasoning: "The gist of
the crime of conspiracy as defmed by the statute is
the agreement or confederation of the conspirators to
commit one or more unlawful acts 'where one or
more of such parties do any act to effect the object
of the conspiracy.' The overt act, without proof of
which a charge of conspiracy cannot be submitted to
the jury, may be that of only a single one of the
conspirators and need not be itself a crime.
[Citations.] But it is unimportant, for present
purposes, whether we regard the overt act as a part
of the crime which the statute defmes and makes

Page25 ·

punishable, [citation], or as something apart from it,
either an indispensable mode of corroborating the
existence of the conspiracy or a device for affording
a locus poenitentiae, [citations]. [ffl For when a
single agreement to commit one or more substantive
crimes is evidenced by an overt act, as the statute .
requires, the precise nature and extent of the
conspiracy must be determined by reference to the
agreement which embraces and defmes its objects.
Whether the object of a single agreement is to
commit one or many crimes, it is in either case that
agreement which constitutes the conspiracy which
the statute punishes. The one agreement cannot be
taken to be several agreements and hence several
conspiracies because it envisages the violation of ·
several statutes rather than one. [,O The allegation
in a single count of a conspiracy to commit several
crimes is not duplicitous, for 'The conspiracy is the
crime, and that is one, however diverse its objects.'
[Citations.] A conspiracy is not the commission of
the crime which it contemplates, and neither violates
nor 'arises under' the statute whose violation is its
object. [Citations.] Since the single continuing
agreement, which is the conspiracy here, thus
embraces its criminal objects, it differs from
successive acts which violate a single penal statute
and from a single act which violates two statutes.
[Citations.] The single agreement is the prohibited
conspiracy, and however diverse its objects it
violates but a single statute.... For such a violation,
only the single penalty prescribed by the statute can
be imposed."
[14] *553 Here, the prosecution charged defendant
with only one count of conspiracy. Assuming that
more conspiracy counts could have been charged
under the facts, the decision to charge defendant
with only one conspiracy count was a prosecutorial
charging discretion that we do not review.
The
exercise of that discretion involves questions of
prosecutorial policies and judgment, not questions of
fact for the jury to determine.
[15] Moreover, we fail to see how charging
defendant with one count of conspiracy, instead of
multiple counts, could prejudice defendant.
Any
error would therefore be harmless.
Furthermore, assuming there were multiple
conspiracies, we do not see how the existence of the
uncharged conspiracies can result in the reversal of
a guilty fmding in the one conspiracy that was

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 102

ER 98

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 103 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 37 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, · :S53, 110 Cal.Rptr .2d 210, **241)
charged.
If the evidence submitted to the jury
supports the guilty finding on the charged
conspiracy, the fact that the same evidence might
also have supported other conspiracies, which were
not charged, is of no consequence to the issue of
innocence or guilt on the charged conspiracy.
[16) In fact, the record evidence points only to one
conspiracy--the agreement to establish the NF as a
criminal gang to commit murder, robbery, burglary,
extortion, and drug trafficking, among other crimes.
Within that umbrella conspiracy were subconspiracies to commit specific crimes. However,
the commission of the specific crimes, and the
drawing up of **242 plans required to commit them,
were all in pursuance of the overriding purpose of
the NF, which was to establish power through the
use of crime, force, and fear, and to use that power
to further strengthen and perpetuate itself by killing
its enemies, raising money for the gang, and
instilling obedience and discipline among its
members by killing members who break its rules.
Thus, Rosas was killed because he had "snitched on
Pablo Pena, Panther." The decision to kill Rosas,
being one in furtherance of the overriding purpose
of the conspiracy, was part of the overall
conspiracy, and hence cannot be the basis for filing
a separate charge of conspiracy.
It has been held that the overall scheme need not be
complete in all its aspects at the time it is formed. (
United States v. Becker (5th Cir.1978) 569 F.2d
951, 959.) "A conspiracy is not necessarily a single
event which unalterably takes place at a particular
point in time when the participants reach a formal
agreement; it may be flexible, occurring over a
period of time and changing in response to changed
(People v. Jones (1986) 180
circumstances."
Cal.App.3d 509, 517, 225 Cal.Rptr. 697.) "The
general test is whether there was 'one overall
agreement' to perform various functions to achieve
the objectives of the conspiracy.
[Citation.]
Performance of *554 separate crimes or separate
acts in furtherance of a conspiracy is not inconsistent
with a 'single overall agreement.' [Citation.] The
general test also comprehends the existence of
subgroups or subagreements.
United States v.
Zemek (9th Cir.1980) 634 F.2d 1159, 1167 (Zemek

Page26

overriding NF conspiracy, it did not support
defendant's request for multiple conspiracies
instruction. A trial court is required to instruct the
jury to determine whether a single or multiple
conspiracies exist only when there is evidence to
support alternative findings. (People v. Skelton
(1980) 109 Cal.App.3d 691, 717, 167 Cal.Rptr. 636
(Skelton ); United States v. Heath (10th Cir.1978)
580 F.2d 1011, 1022.)
In Zemek. the Ninth Circuit applied a four-factor
analysis to determine whether the crimes were
committed pursuant to an overall scheme. These
factors are: (1) the nature of the scheme; (2) the
(3) the quality,
identity of the participants;
frequency, and duration of each conspirator's
transactions; and (4} the commonality of times and
goals. (Zemek, supra. 634 F.2d at p. 1167.)
[19) We are not pointed to any California case
adopting the 'Zemek factors, nor has our own
research disclosed such a case. Nonetheless, even
applying the Zemek factors, as defendant suggests
we do, we find in the record no convincing evidence
to support defendant's claim of multiple
conspiracies.
First, on the nature of the scheme, NF was
organized primarily as a prison gang. However, it
also functioned on the streets, engaging in various
criminal activities.
NF' s basic purpose was to
make money through crime for its members in and
out of prison. NF members pledge allegiance to act
in concert and to commit crimes, including murder,
for the gang. NF has a written constitution, and its
rules require the members to cover up each other's
crimes. The only way to get out of the gang is to
die, be killed, or be a dropout/snitch. NF' s rule is
"blood in, blood out," which means that one
becomes a member of NF by spilling blood,
preferably by killing, and leaves the gang by being
killed as a coward, traitor, or deserter. A member
may be killed by the gang for refusal to follow a
superior's orders, or for failure to attend meetings.

).)

**243 On the identity of participants, members
participate in whatever criminal activities their
There is common
superiors order them to do.
overlapping of crime assignments.

[17)[18] Because the Rosas murder did not provide
evidence of a conspiracy separate from the

On the quality of the frequency and duration of a
conspirator's transactions, the members are

11

(

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 103

ER 99

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 104 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 38 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, -:;54, 110 Cal.Rptr.2d 210, **243)
committed to each other in a continuing relationship
*555 forged by the bond of "blood in, blood out."
NF' s written constitution provides for a ranking
system where those in higher ranks issue orders to
those in lower ranks, and where the penalty for
disobeying the orders of a superior is death.
On the commonality of time and goals, the time
period for the conspiracy in this case was two and a
half years. The goals of the gang, which included
making money for its members in and out of prison
through criminal activities, such as murder,
robbery, and drug trafficking, were shared by all the
members.
The four Zemek factors to distinguish a single
conspiracy from multiple conspiracies all point to a
single conspiracy in this case.
[20] We conclude the trial court's instructions were
consistent with the law on conspiracy, which is that
a single agreement to commit a number of crimes is
only one conspiracy, regardless of the number of
crimes sought to be committed, or that are
committed, under that conspiracy.
Defendant's reliance on People v. Morocco (1987)
191 Cal.App.3d 1449, 237 Cal.Rptr. 113 (Morocco
), Skelton, supra, 109 Cal.App.3d 691, 167
Cal.Rptr. 636, and People v. Liu (1996) 46
Cal.App.4th 1119, 54 Cal.Rptr.2d 578 (Liu ), is
misplaced.
In Morocco, the defendant was charged with, and
convicted of, two counts of solicitation to commit
murder. The victims were husband and wife. The
court, applying principles of conspiracy law to
determine whether the defendant was guilty of one
or two solicitations, struck the defendant's second
conviction because the evidence showed that
although there were two victims, there was only one
plan encompassing the killing of both victims. If
anything, therefore, Morocco supports the single
conspiracy determination in this case. (Morocco,
supra, 191 Cal.App.3d at p. 1454, 237 Cal.Rptr.
113.)
In Skelton, the court in fact reiterated the rule that
"[t]he test is whether there was one overall
agreement among the various parties to perform
various functions in order to carry out the objectives
of the conspiracy.
If so, there is but a single

Page27

conspiracy.
[Citation.]"
(Skelton. supra, 109
Cal.App.3d at p. 718, 167 Cal.Rptr. 636.) Skelton
further held that "[a] judgment will not be reversed
on the ground that two separate conspiracies were
charged as one, unless the appellant shows that he
was prejudiced thereby. [Citations.]" (Id. at pp.
718-719, 167 Cal.Rptr. 636.) We have discussed,
ante, that defendant was not prejudiced by the
finding of a single conspiracy in this case.
In Liu, the defendant was convicted of two counts
of conspiracy to commit murder, and sought the
reversal of one conviction, arguing that he should be
*556 convicted of only one conspiracy, which is the
converse of the situation here where the trial court
found only one conspiracy and defendant claims
there were multiple conspiracies.
The Liu court
affirmed the two convictions, but that was because it
did not find an overriding conspiracy subsuming the
two murders.
Instead, it found that "[e]ach
separately planned murder is the goal of a separate
conspiracy. 11 (Liu, supra, 46 Cal.App.4th at p.
1133, 54 Cal.Rptr.2d 578.) Liu in fact recognized
the rule that "the test of whether or not [the
conspirators] have formed a single conspiracy is
whether the acts were merely steps or stages in the
formation of a **244 larger and ultimately more
general, all-inclusive conspiracy directed at
achieving a single unlawful result.
[Citation.]
Under this rule, where the evidence shows that a
group of conspirators agreed to commit a number of
different crimes incidental to a single objective,
there is only one conspiracy, and convictions for
multiple conspiracies cannot be sustained.
[Citation.]" (Ibid.)
We conclude the trial court did not err in failing to
instruct the jury to determine whether one or
multiple conspiracies existed in this case.

Unanimity Instruction
Defendant contends he was deprived of his Sixth
and Fourteenth Amendment rights to a jury trial and
due process by the trial court's refusal to instruct the
jury to unanimously agree on the facts underlying
the elf:!ments of the conspiracy, an error that is
reversible because it is impossible to determine
whether the jury unanimously agreed as to whom
defendant conspired to murder. We disagree.
There is a split of authority as to whether jury

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 104

ER 100

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 105 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 39 of 48
110 Cal.Rptr.2d 210
{Cite as: 91 Cal.App.4th 506, ··:S56, 110 Cal.Rptr.2d 210, **244)
unanimity on at least one overt act is required for a
conspiracy conviction.
Some cases hold that the
trial court need not instruct the jury that it must
unanimously agree on a particular overt act charged
in furtherance of the conspiracy. (See, e.g., People
v. Lopez (1993) 20 Cal.App.4th 897, 904, 24
Cal.Rptr.2d 649; People v. Godinez (1993) 17
Cal.App.4th 1363, 1367, 22 Cal.Rptr.2d 164;
People v. Von Villas (1992) 11 Cal.App.4th 175,
233-235, 15 Cal.Rptr.2d 112; People v. Cribas
(1991) 231 Cal.App.3d 596, 611-612, 282 Cal.Rptr.
538.) These cases have adopted the rationale set
forth in People v. Jones, supra, 180 Cal.App.3d at
page 516, 225 Cal.Rptr. 697, that the overt act
required for conspiracy merely constitutes the theory
of the case rather than an essential element of the
offense: " 'In a conspiracy, the agreement to
commit an unlawful act is not criminal until an overt
act is committed, but when this happens and the
association becomes an active force, it is the
agreement, not the overt act, which is punishable ....
[Citations.]' [fl Inasmuch as the overt act, though
required to establish the existence of a conspiracy, is
not an *557 actual element of the crime, it follows
that the jury only need be unanimous in finding an
overt act was done in furtherance of the conspiracy,
not in finding a particular overt act was done ....
Hence, the overt act is part of the theory of the
case, not an act constituting the offense.
Accordingly, "a trial court need not instruct the jury
they must unanimously agree as to the overt act
done in pursuance of a conspiracy." (Id. at pp.
516-517, 225 Cal.Rptr. 697.)
1

1

11

Other cases hold that the commission of an overt
act is an essential element of conspiracy. (People v.
Brown (1991) 226 Cal.App.3d 1361, 1369, 277
Cal.Rptr. 309; Feagles v. Superior Court (1970) 11
Cal.App.3d 735, 739, 90 Cal.Rptr. 197.) As it is
an essential element of the offense, the jury must
unanimously agree on the overt act. (See People v.
Bratis (1977) 73 Cal.App.3d 751, 763, 141
Cal.Rptr. 45;
People v. Rehman (1967) 253
Cal.App.2d 119, 157-158, 61 Cal.Rptr. 65.)
In People v. Jackson (1996) 13 Cal.4th 1164, 56
Cal.Rptr.2d 49, 920 P.2d 1254 (Jackson), the jury
was asked to make three special findings on the
three acts which the prosecutor argued were in
furtherance of the murder conspiracy with which the
defendant was charged.
The jury found that the
defendant committed all three acts. On appeal, the

Page28

defendant claimed that the use of the special findings
form violated sections 1150 and 1152, as well as his
constitutional rights.
The Supreme Court
disagreed, since the jury had rendered a general
verdict. The high **245 court stated that "the use
of spe~ial findings was a proper safeguard of
defendant's right of due process, ensuring that the
jury deliberating on a conspiracy charge agree
unanimously on the same overt act or acts that are
the basis of his culpability." · (Id. at p. 1227, 56
Cal.Rptr.2d 49, 920 P.2d 1254.)
The Supreme
Court added in a footnote that 11 [ w]bile recognizing
that special findings may be used to secure jury
unanimity on a defendant's commission of overt acts
in connection with a conspiracy, we take no position
on the question whether a defendant is entitled to a
unanimity instruction in a conspiracy trial." (Id. at
p. 1227, fn. 15, 56 Cal.Rptr.2d 49, 920 P.2d 1254,
original italics.)
We believe that not requiring unanimity is the better
and more logical view. As we quoted earlier from
Braverman, supra, 317 U.S. at pages 53-54, 63
S.Ct. 99: 11The gist of the crime of conspiracy ... is
the agreement or confederation of the conspirators to
commit one or more unlawful acts 'where one or
more of such parties do any act to effect the object
of the conspiracy.' The overt act, without proof of
which a charge of conspiracy cannot be submitted to
the jury, may be that of only a single one of the
conspirators and need not be itself a crime.
[Citations.] ... (,0 For when a single agreement to
commit one or more substantive crimes is evidenced
by an overt act, as the statute requires, the precise
nature and *558 extent of the conspiracy must be
determined by reference to the agreement which
embraces and defines its objects.
Whether the
object of a single agreement is to commit one or
many crimes, it is in either case that agreement
which constitutes the conspiracy which the statute
punishes. The one agreement cannot be taken to be
several agreements and hence several conspiracies
because it envisages the violation of several statutes
rather than one. [,0 The allegation in a single count
of a conspiracy to commit several crimes is not
duplicitous, for 'The conspiracy is the crime, and
that is one, however diverse its objects.'
[Citations.] A conspiracy is not the commission of
the crime which it contemplates, and neither violates
nor 'arises under' the statute whose violation is its
object. [Citations.] Since the single continuing
agreement, which is the conspiracy here, thus

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 105

ER 101

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 106 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 40 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ...S58, 110 Cal.Rptr.2d 210, **245)
embraces its criminal objects, it differs from
successive acts which violate a single penal statute
and from a single act which violates two statutes.
[Citations.] The single agreement is the prohibited
conspiracy, and however diverse its objects it
violates but a single statute." (Italics added.)
[21) Because the agreement is the conspiracy, the
diversity of the crimes that may be the object of the
agreement should be of little, if any, consequence.
Proof that the agreement has crime as its object
should be enough. So long as there is unanimity
that crime was the object of the agreement,
conspiracy is established regardless of whether some
jurors believe that crime to be murder and others
"A
believe that crime to be something else.
requirement of jury unanimity typically applies to
acts that could have been charged as separate
offenses." (People v. Beardslee (1991) 53 Cal.3d
68, 92, 279 Cal.Rptr. 276, 806 P.2d 1311.) As
stated in Stoner v. Williams (1996) 46 Cal.App.4th
986, 997, 54 Cal.Rptr.2d 243: "[l)f only one
criminal offense could exist as a result of the
commission of various acts, the jury need not agree
on which particular act (or legal theory) a criminal
conviction is based, provided the jurors unanimously
agree that all elements of the criminal offense are
proved beyond a reasonable doubt."
To the same effect was the statement in People v.
Davis (1992) 8 Cal.App.4th 28, 34, 10 Cal.Rptr.2d
381 (Davis ): "It matters not that jurors may
disagree over the **246 theory of the crime, for
example, whether the situation involves felony
murder or premeditated murder. Nor does it matter
that they disagree on the theory of participation, for
example, whether there was direct participation or
aiding and abetting or coconspiracy. Nor does it
matter that they disagree about the facts proving any
of these theories. If each juror concludes, based on
legally applicable theories supported by substantial
evidence, that the defendant is guilty of the charged
offense, the defendant is properly found guilty even
if the jurors disagree about the particular theories or
facts.
II

*559 Davis went on to say:

In California it is
wmecessary jurors unanimously agree on the theory
of criminal culpability supporting their unanimous
conclusion of guilt.. . . [11] ••• [11] ••• [W]here there is
a single offense and a single charge, it is the task of
each juror to conclude, based perhaps on very
11

Page29

different theories, whether the defendant is guilty or
not guilty.
It is simply of no consequence that
some jurors believe the defendant is guilty based on
one theory while others believe he is guilty on
another even when the theories may be based on
very different and even contradictory conclusions
concerning, for example, the defendant's basic
intent in committing the crime." (Davis. supra. 8
Cal.App.4th at pp. 44-45, 10 Cal.Rptr .2d 381.)
In People v. Santamaria (1994) 8 Cal.4th 903,.
918-919, 35 Cal.Rptr.2d 624, 884 P.2d 81 (
Santamaria ) , the California Supreme Court
explained: It is settled that as long as each juror is
convinced beyond a reasonable doubt that defendant
is guilty of murder as that offense is defined by
statute, it need not decide unanimously by which
theory he is guilty. [Citations.] More specifically,
the jury need not decide unanimously whether
defendant was guilty as the aider and abettor or as
the direct perpetrator. [Citations.] This rule of
state law passes federal constitutional muster.
[Citation.] [11] ••• [11] Not only is there no unanimity
requirement as to the theory of guilt, the individual
jurors themselves need not choose among the
theories, so long as each is convinced of guilt.
Sometimes, as probably occurred here, the jury
simply cannot decide beyond a reasonable doubt
exactly who did what. There may be a reasonable
doubt that the defendant was the direct perpetrator,
and a similar doubt that he was the aider and
abettor, but no such doubt that he was one or the
other."
11

Santamaria cited the following example to
emphasize the rule: "In analyzing the unanimity
question in a robbery case, one Court of Appeal
used this example. ' "Assume a robbery with two
masked participants in a store, one as the gunman
and one as the lookout. If one witness makes a
voice identification of the defendant as the gunman
who demanded money, but other evidence, such as a
fingerprint, suggests the defendant was actually
holding the door open as lookout, the jury would be
faced with the same theories presented in this case:
find the defendant was the gunman and therefore a
direct perpetrator, or find he was at the door and
Either way he
therefore an aider and abettor.
would be guilty of robbery." If 12 jurors must
agree on the role played by the defendant, the
defendant may go free, even if the jurors all agree
defendant committed the crime.
That result is

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 106

ER 102

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 107 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 41 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, .,.559, 110 Cal.Rptr.2d 210, **246)
absurd.' [Citation.] Equally absurd would be to let
the defendant go free because each individual juror
had a reasonable doubt as to his exact role." (
Santamaria, supra, 8 Cal.4th at p. 920, fn. 8, 35
Cal.Rptr.2d 624, 884 P.2d 81.)
Even before Santamaria, the California Supreme
Court had already observed:
"If [defendant]
intended that only possession of the property should
*560 pass at the time **247 of the sale, defendant
was guilty of larceny by trick or device, but if
[defendant] intended that title should pass, defendant
was guilty of obtaining property by false pretenses.
[Citations.] Irrespective of [defendant's] intent,
however, defendant could be found guilty of theft by
one means or another, and since by the verdict the
jury determined that he did fraudulently appropriate
the property, it is immaterial whether or not they
agreed as to the technical pigeonhole into which the
theft fell. [Citations.]" (People v. Nor Woods
(1951) 37 Cal.2d 584, 586, 233 P.2d 897.)
[22][23] Here, defendant was convicted of one
conspiracy.
The indictment described that
conspiracy as a conspiracy to commit various
crimes. Because any one of the crimes that was the
object of the conspiracy was sufficient to establish
the conspiracy, there were multiple theories upon
which the prosecution could proceed.
The
existence of such multiple theories precluded a
unanimity instruction. A unanimity instruction is
inappropriate where multiple theories may provide
the basis for a guilty verdict on one discrete criminal
event. (People v. Carpenter (1997) 15 Cal.4th 312,
394, 63 Cal.Rptr.2d 1, 935 P.2d 708; Davis, supra,
8 Cal.App.4th at pp. 41, 45, 10 Cal.Rptr.2d 381.)
The case of Richardson v. United States (1999) 526
U.S. 813, 119 S.Ct. 1707, 143 L.Ed.2d 985 (
Richardson), which defendant cites to us in a letter
brief, is inapposite. In that case, the defendant was
convicted of engaging in a continuing criminal
enterprise under a federal criminal statute which
forbids any person from "engag[ing] in a continuing
criminal enterprise."
The statute defines
"continuing criminal enterprise" as involving a
"violat[ion]" of drug statutes where "such violation
is a part of a continuing series of violations." (Id. at
p. 815, 119 S. Ct. 1707.) Construing the federal
statute, the United States Supreme Court determined
that the statutory phrase "series of violations"
"create[s] several elements, namely the several

Page30

'violations,' in respect to each of which the jury·
must agree unanimously and separately." (Id. at pp.
817-818, 119 S.Ct. 1707, original italics.) Because
each "violation" was an element of the crime, the
jury had "to agree unanimously about which specific
violations make up the 'continuing series of
violations.' 11 (Id. at p. 815, 119 S.Ct. 1707 .)
[24] Here, the specific crimes that constitute the
object of the conspiracy are not elements of the
conspiracy. Rather, they are the means by which
the purpose of the conspiracy was to be achieved.
Accordingly, the Richardson requirement of jury
unanimity does not apply to them. (Richardson,
supra, 526 U.S. at pp. 818-819, 119 S.Ct. 1707.)
Recently, in People v. Russo (2001) 25 Cal.4th
1124, 1128, 108 Cal.Rptr.2d 436, 25 P.3d 641, the
California Supreme Court settled the *561 question
of "whether the jury must unanimously agree on a
specific overt act," by holding that "the jury need
not agree on a specific overt act as long as it
unanimously finds beyond a reasonable doubt that
some conspirator committed an overt act in
furtherance of the conspiracy."
We conclude the trial court did not err when it
refused to instruct the jury that it must unanimously
decide whom, if anyone, defendant conspired to
murder.
The
[25] In any event, any error was invited.
record reflects that the prosecutor informed the
court that it had prepared verdict forms that II sought
to identify the targets for the conspiracy to commit
murder," adding:
"We still think there is an
umbrella conspiracy and it's pretty obvious that
there is. The NF is a group and they get together
and they do all of these nefarious things~ That's the
object.
But when **248 it comes down to the
particular subject matter of who they' re planning to
murder, that's why we put in the specific subjects of
that particular object, object crime, otherwise, we
The
think that we' re in trouble on appeal."
attorney for codefendant Lopez argued to the court
that the jury should only have to specify which of
the object crimes a defendant conspired to commit,
not the specific victim of that object crime. The
prosecutor repeated that he wished the verdict form
to specify whom, if anyone, a defendant conspired
to kill.

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 107

ER 103

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 108 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 42 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, •561, 110 Cal.Rptr .2d 210, **248)
The next day, counsel for Lopez objected· to the
prosecutor's proposed verdict, arguing that it was
inconsistent to require specification for the target
crime of murder and not for the other target crimes,
which had more than one victim. Defendant joined
Lopez's objection. The court, which had earlier
agreed with the prosecution on what the verdict
form should ask the jury to indicate, reversed itself
and sustained defendant's and Lopez's objection,
stating:
After reconsidering, I've come to the
conclusion I was wrong. And it's my opinion that
the jury need only be unanimous about the target
crime, that they don't have to unanimously agree as
to which ·event, nor does that have to be reflected in
the jury verdict form, whether it be which murder
or which robbery or which distribution of controlled
substances."
11

Any error was therefore invited; consequently,
defendant cannot complain. (People v. Wickersham
(1982) 32 Cal.3d 307, 330, 185 Cal.Rptr. 436, 650
P.2d 311.)
Any error was also harmless. There is a split of
authority on the proper standard for reviewing
prejudice when the trial court fails to give a
unanimity instruction.
Some cases hold that the
prejudice must be deemed harmless beyond .a
reasonable doubt under Chapman v. California
(1967) 386 U.S. 18, *562 24, 87 S.Ct. 824, 17
L.Ed.2d 705 (Chapman). Other cases hold that the
test is as enunciated in People v. Watson (1956) 46
Cal.2d 818, 836, 299 P.2d 243 (Watson), which is
whether "it is reasonably probable that a result more
favorable to the appealing party would have been
reached in the absence of the error."
[26][27] We think Watson provides the correct
standard on the issue.
That is because the
requirement for jury unanimity in a criminal
prosecution is a state constitutional requirement.
(Cal. Const., art. I, § 16; People v. Mickle (1991)
54 Cal.3d 140, 178, 284 Cal.Rptr. 511, 814 P.2d
290; People v. Adames (1997) 54 Cal.App.4th 198,
207, 62 Cal.Rptr.2d 631.)
The United States
Supreme Court "has never held jury unanimity to be
a requisite of due process of law.
Indeed, the
Court has more than once expressly said that '[i]n
criminal cases due process of law is not denied by a
state law . . . which dispenses with the necessity of
... unanimity in the verdict.' "
(Johnson v.
Louisiana (1972) 406 U.S. 356, 359, 92 S.Ct. 1620,

Page31

32 L.Ed.2d 152 (Johnson).) In Johnson, the high
court, in fact, held that in Louisiana criminal
verdicts rendered by nine out of twelve jurors are
valid. (Id. at p. 363, 92 S.Ct. 1620.) There being
no right to a unanimous verdict under the United
States Constitution, the question of whether
defendant was entitled to a unanimity instruction is a
state, not a federal, issue.
(28] In any event, the jury found defendant guilty of
the murder of Rosas. On the record facts, which
show that defendant's participation in the murder of
Rosas was in authorizing the murder, and there
being no evidence in the record that defendant
actually participated in the murder, or, being
present, aided and abetted in the commission
thereof, the guilty verdict on defendant for the
murder of Rosas could **249 only have been by
reason of the jury unanimously finding that
defendant had conspired to murder Rosas. Because
of this implicit unanimous finding of conspiracy, it
is not reasonably probable that defendant would have
obtained a more favorable verdict had the unanimity
instruction in question been given. For the same
reason, any error was harmless even if the standard
applied were the Chapman standard of harmless
error beyond a reasonable doubt.

Urango and Espa17.a Incidents
Defendant contends he was deprived of his Sixth
and Fourteenth Amendment rights to due process
and notice of the allegations that he conspired to
murder or assault both Urango and Esparza, where
he did not learn of these allegations until four
months into trial. We disagree.
(29] At the conclusion of the trial, the prosecution
proposed a jury verdict form listing the conspiracy's
potential victims.
The list included Urango and
*563 Esparza, whose names did not appear in the
indictment as being involved in the alleged overt
acts.
Defendant objected to any reference to a
conspiracy to murder Urango and Esparza, arguing
that defendant did not have notice of those charges
because there was no grand jury testimony given and
no overt acts alleged that defendant had conspired to
kill either Urango or Esparza, and that the only
evidence connecting defendant to the Uranga and
Esparza incidents came up during Salazar's trial
testimony.
Defendant argues the inclusion of
Urango and Esparza in the prosecutor's verdict form

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 108

ER 104

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 109 of 114

,,

Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 43 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ...563, 110 Cal.Rptr.2d 210, **249)
violated defendant's constitutional right to be
informed of the nature of the charges against him.
In our discussion on the requirement of jury
unanimity, we concluded that the target crimes, that
is specific crimes that constitute the object of the
conspiracy, are not elements of the conspiracy;
rather, they are only the means by which the
purpose of the conspiracy was to be achieved.
Because the Urango/Esparza incidents were not an
element of the charged conspiracy, the prosecutor's
reference added nothing to what the jury needed to
reach a fmding of conspiracy. The outcome would
have been the same.
[30] Consequently, any error was harmless,
regardless of whether the standard of review applied
is the Chapman standard of harmless error beyond a
reasonable doubt, or the . Watson standard of
reasonable probability of a more favorable outcome.

Constitutional Vagueness
[31] Defendant contends his conviction for
conspiracy to commit murder violates state and
federal due process guarantees because a conspiracy
to kill one of various persons without agreement
upon who was to be killed is unconstitutionally
vague and generic.
The contention is without
merit.
We have already determined that the trial court was
not required to instruct the jury that it had to agree
unanimously whom defendant conspired to kill. Such
determination disposes of defendant's present
contention, as well.

Page32

Defendant contends his conviction for conspiracy to
commit murder must be reversed for constitutionally
insufficient evidence because this court cannot
determine whether or not the jury found him guilty
of conspiring to kill a person for which conspiracy
there is constitutionally sufficient evidence in
support of conviction. The contention is without
merit.
[33] Again, we have already determined that the
jury was correctly instructed that it did not need to
agree unanimously on which particular murder
defendant conspired to commit so long as it
unanimously agreed that defendant conspired to
commit murder as the object of the conspiracy.
The jury subsequently found defendant guilty of the
Rosas murder.
The guilty finding on the Rosas
murder could have only been reached by a
unanimous jury finding that defendant conspired to
kill Rosas. That unanimous conspiracy fmding was
sufficient to support the guilty fmding on the single
conspiracy count.
[34] Moreover, where the jury is presented with
several factual theories for conviction, some of
which are predicated upon insufficient evidence,
"the appellate court should affirm the judgment
unless a review of the entire record affirmatively
demonstrates a reasonable probability that the jury in
fact found the defendant guilty solely on the
unsupported theory." (People v. Guiton (1993) 4
Cal.4th 1116, 1130, 17 Cal.Rptr.2d 365, 847 P.2d
45.) The Rosas murder conviction eliminates such·
a probability.

Withdrawal Instruction
Defendant's reliance on Suniga v. Bunnell (9th
Cir.1993) 998 F.2d 664 (Suniga ) is misplaced.
Due process was implicated in Suniga because there
was in that case one theory of liability upon which
the jury was instructed that did not exist in
California law.
We do not have such a situation
here.
[32] *564 In any event, any error was harmless
because, as discussed, by finding **250 defendant
guilty of the murder of Rosas on the record facts,
the jury had also to find unanimously that defendant
had conspired to murder Rosas.

Sufficiency of Evidence

[35] Defendant contends the trial court violated his
state and federal constitutional rights to due process
and a fair trial by jury by refusing to give the
modified withdrawal instruction that he requested,
which was supported by the evidence and which
The
pinpointed the defense theory of the case.
contention is without merit.
Defendant requested the court to give a modified
version of CAUIC No. 6.20, reading as follows:
"Any member of a conspiracy may withdraw from
and cease to be a party to the conspiracy, but
[his][her] liability for the acts of [his] [her] coconspirators continues until [he][she] effectively

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 109

ER 105

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 110 of 114
,,

Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 44 of 48
1IO Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, ··:i64, 110 Cal.Rptr.2d 210, **250)
withdraws from the conspiracy. [il1 Withdrawal
may be communicated by an affirmative act bringing
home the fact of [his][her] withdrawal to [his)[her]
*565 companions.
The affirmative act must be
made in time for [his][her] companions to
effectively abandon the conspiracy and in a way
which would be sufficient to inform a reasonable
person of the withdrawal.
In order to effectively
withdraw from a conspiracy, there must be an
affirmative and bona fide rejection or repudiation of
the conspiracy which must be communicated to the
other conspirators of whom [he][she] has
knowledge. [,0 If a member of a conspiracy has
effectively withdrawn from the conspiracy [he](she]
is not thereafter liable for any act of the coconspirators committed subsequent to [his][her]
withdrawal from the conspiracy, but [he][she] is not
relieved of responsibility for the acts of [his][her]
co-conspirators committed while [he] [she] was a
member. cm If the evidence raises a reasonable
doubt as to whether the defendant withdrew from the
conspiracy, you must find that [he] [she] did
withdraw."

cm

The court refused defendant's request and gave
instead the unmodified version of CALJIC No. 6.20
, as follows: "A member **251 of a conspiracy is
liable for the acts and declarations of his coconspirators until he effectively withdraws from the
conspiracy or the conspiracy has terminated. [if] In
order to effectively withdraw from a conspiracy,
there must be an affirmative and good faith rejection
or repudiation of tlie conspiracy which must be
communicated to the other conspirators of whom he
has knowledge. cm If a member of a conspiracy has
effectively withdrawn from the conspiracy he is not
thereafter liable for any act of the co-conspirators
committed after his withdrawal from the conspiracy,
but he is not relieved of responsibility for the acts of
his co-conspirators committed while he was a
member."

Page 33

version given by the court did not require, and could
not be misinterpreted as requiring, that the
withdrawal from the conspiracy had to be orally
communicated to the coconspirators. As given, the
instruction merely required that there be II an
affirmative and good faith rejection or repudiation of
the consp~acy which must be communicated to the
other conspirators of whom he has knowledge. 11
An "affirmative" act need not be oral. We do not
see how the language of defendant's proposed
instruction differed from the unmodified version in
this regard since both versions used the word
"affirmative," and the word "oral" did not appear in
either version.
Moreover, defendant's proposed version created
more problems than it attempted to solve.
For
example, defendant's version used the word
"companions" for "coconspirators." "Companions 11
is a word without a settled *566 legal definition, and
one with loose meaning. "Companions" are not
necessarily "coconspirators" within the meaning of
California's penal statutes.
What exactly did
defendant mean by "companions"?
Defendant's
proposed version did not define the term.
Defendant's proposed modification also provided
that "[t]he affirmative act must be made in time for
[his][her] companions to effectively abandon the
conspiracy and in a way which would be sufficient
to inform a reasonable person of the withdrawal. If
(Italics added.) The addition of the "reasonable
person" standard to the instruction is highly
questionable.
Defendant has cited no authority
requiring the use of such a standard.
We conclude the trial court did not err in rejecting
defendant's proposed modification to CAUIC No.
6.20, and in giving CAUIC No. 6.20 to the jury
without modification.

Prosecutorial Misconduct
Defendant argues that the requested modification
should have been granted because without the
requested modification "[t]he instruction given could
be and probably was interpreted to require that·
withdrawal from a conspiracy be by oral
communication," adding that "[t]his is not correct-one may withdraw from a conspiracy by an
'affirmative act' as well."
The flaw in the argument is that the unmodified

Defendant contends the prosecutor committed
prejudicial misconduct and deprived defendant of his
state and federal constitutional rights to due process
and a fair trial by making an inflammatory comment
and ungrounded attack on defense counsel in closing
argument. We disagree.
Prosecutors Charles Constantinides and Catherine
Constantinides handled the prosecution in this case.

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 110

ER 106

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 111 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 45 of 48
110 Cal.Rptr.2d 210
{Cite as: 91 Cal.App.4th 506, ··566, 110 Cal.Rptr.2d 210, **251)
At the closing argument, Mr. Constantinides
delivered one part of the argument, and Ms.
Constantinides delivered the other part. During her
part of the prosecution's fmal argument, Ms.
Constantinides addressed the jury, and the following
colloquy transpired:
"MS. CONSTANTINIDES: ... There was one
portion of Mr. Provini 's argument **252 which
Charles [Constantinides] did not address because I
asked him not to because this is really my issue for
two reasons. It's the part about the Beto Jasso hit,
and then that letter that--or excuse me--that
statement that Lopez makes that correctional officer
Gabrielson overhears. Let me show you first what
Mr. Provini said about that. [1.1 This is what he
said. He first pointed out to you that certainly you
may decide that Bobby Lopez was part of a plan or
conspiracy to kill Beto Jasso, he seems to have
conceded that. But he continued and he made four
statements on four consecutive pages that seemed
kind of personal. [,0 First he told you that you
should convict Lopez because you believe Robert
Rios on that count. Don't convict because of some
testimony by officer Gabrielson about a comment
which after any kind of critical analysis becomes
obvious to probably any intelligent lawyer. (,0
Those are his words. fie went on to the next page
to say: Don't *567 convict Bobby Lopez because of
a fallacious argument put up on the chart. (,I] Then
he said on the following page: I think it's obvious to
any lawyer who looks at this closely or any lay
person or any juror who looks at this. [~ Then
fmally on the last page regarding this subject he
says: So anybody with any kind of powers of
reasoning would understand. [,U Now, ladies and
gentlemen, you' 11 recall that part of the Beto Jasso
support that we gave you, that I gave you, that I put
up on this machine and flashed it up not on the wall
but rather on a screen was that comment by Beto
Jasso. [111 What is going on here? They teach you
in law school, and I remember because I'm much·
closer to it than any other lawyer in this room, that
if you can't argue regarding the facts, if the facts
aren't any good, then you argue the law. If the law
is not any good for your side, then you argue the
facts. And if the facts and the law are no good for
you, you just stand up and argue. [,O Well, ladies
and gentlemen, they don't ever teach you to dog out
your opponent like that. What is going on here?
Is it sexism? Is it racism?

Page34

"MR. PROVINI [counsel for codefendant Lopez]:
Objection.
"MS. CONSTANTINIDES: It is ageism?
"MR. PROVINI:
evidence.

It's just a comment on the

"THE COURT: Overruled.
"MS. CONSTANTINIDES: What is going on
here, ladies and gentlemen?
The youngster,
Mexican-American female prosecutor didn't blow it,
and this is how she didn't blow it." (Italics added.)
Ms. Constantinides then proceeded to discuss the
evidence to argue for guilty verdicts.
At the break, defendant moved for a mistrial on the
ground that Ms. Constantinides's argument injected
gender bias and racial bias." The prosecution
responded that "not only is there support in the
record for the comments, but there was no timely
objection. And it's certainly fair rebuttal." The
court found the objection timely, but denied the
motion for a mistrial.
11

[36] First, the contention is barred. In People v.
Montiel (1993) 5 Cal.4th 877, 914, 21 Cal.Rptr.2d
705, 855 P.2d 1277, where trial counsel objected to
the prosecutor's remarks, but did not additionally
request an admonition that would have cured any
harm, the court held: "[T]rial counsel failed to
preserve a direct claim of misconduct because,
although he objected to the *568 prosecutor's
remarks, he did not also request an admonition that
would clearly have cured any harm. [Citations.]"
Similarly, in People v. Gionis (1995) 9 Cal.4th
1196, 1215, 40 Cal.Rptr.2d 456, 892 **253 P.2d
1199 (Gionis ), the court stated: "[A] reviewing
court will not review a claim of misconduct in the
absence of an objection and request for
admonishment at trial. 'To preserve for appeal a
claim of prosecutorial misconduct, the defense must
make a timely objection at trial and request an
admonition; otherwise, the point is reviewable only
if an admonition would not have cured the harm
caused by the misconduct.' [Citations.]"
Here, there is no showing that the claimed harm
would not have been cured by' an appropriate

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 111

ER 107

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 112 of 114

,_.l

Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 46 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, "'568, 110 Cal.Rptr.2d 210, **253)
admonition.
[37] Second, we agree with the People that Ms.
Constantinides's comments were fair rebuttal. The
defense invited the rebuttal by making uncalled-for
remark~ about Ms. Constantinides' s intelligence and
competence. When the defense suggested that Ms.
Constantinides was not intelligent enough because
she could not see a point that was obvious to any
intelligent lawyer, and because she failed to
comprehend something that anybody with any kind
of powers of reasoning could understand, the
suggestion was personal, unnecessary, and
derogatory, justifying a response to vindicate the
prosecutor's wounded pride. The personal and
professional hurt that Ms. Constantinides felt is
evident from her explanation to the court: "From
the beginning of the trial I've had to hold my
tongue. I say that because when I was examining
some witnesses very early on in the first week or so,
I was up there and I was doing something with the
And on the
witness, and Mr. Selvin objected.
record he said, I don't know if she knows the
Evidence Code but this is improper. And then the
court responded, well, no, actually I sustained your
objection, and so now she's going about it a
And what I. was doing was very
different way.
proper. But it raised the specter early, early on. I
don't know if she knows the Evidence Code. [11
Well, what is that all about? I mean do I not know
the Evidence Code? Why wouldn't I know that?
Mr. Selvin would never say that about Mr.
Constantinides, absolutely not. Why wouldn't he,
because Mr. Constantinides has lots of experience
maybe."
Having invited the rebuttal, the defense cannot
complain.
[38) Third, assuming the comments were improper,
they were not egregious enough to warrant reversal.
11
'A prosecutor's rude and intemperate behavior
violates the federal Constitution when it comprises a
pattern of conduct "so egregious that _it infects the
trial with such unfairness as to make the conviction
a denial of due process." [Citations.] But conduct
by a *569 prosecutor that does not render a criminal
trial fundamentally unfair is prosecutorial
misconduct under state law only if it involves " 'the
use of deceptive or reprehensible methods to attempt
to persuade either the court or the jury.'
[Citations.]
Included within the deceptive or
11

Page35

reprehensible methods we have held to constitute
prosecutorial misconduct are personal attacks on the
integrity of opposing counsel. [Citation.]'
[Citation.]" (Gionis, supra, 9 Cal.4th at pp.
1214-1215, 40 Cal.Rptr.2d 456, 892 P.2d 1199:)
(39] Fourth, the prosecutor did not conunent on the
race, or sex, or age of defendant; rather, she
commented on her own race, sex, and age,. as they
might have affected opposing counsel's, and the
court's and jury's, regard for her. There is no
showing in the record . that the prosecutor's
comments prejudiced defendant. " 'It is settled that
a prosecutor is given wide latitude during argument.
The argument may be vigorous as long as it amounts
to fair comment on the evidence, which can include
reasonable inferences, or deductions to be drawn
therefrom. [Citations.] **254 It is also clear that
counsel during summation may state matters not in
evidence, but which are common knowledge or are
illustrations drawn from common experience,
history or literature.' [Citation.] 'A prosecutor may
"vigorously argue his case and is not limited to
'Chesterfieldian politeness' " [citation], and he may
"use appropriate epithets warranted by the
evidence." ' [Citations.]" (People v. Wharton
(1991) 53 Cal.3d 522, 567-568, 280 Cal.Rptr. 631,
809 P.2d 290.)
Although the prosecutor's comments were not
directly on the evidence, they pertained to how the
evidence might be unfairly viewed by the jury
because of her own supposed inability to understand
and analyze the evidence correctly.
·
[40] Fifth, "[p]rosecutorial misconduct implies the
use of deceptive or reprehensible methods to attempt
to persuade either the court or the jury." (People v.
Strickland (1974) 11 Cal.3d 946, 955, 114 Cal.Rptr.
632, 523 P.2d 672.) "To establish prosecutorial
misconduct, it is not necessary to show the
prosecutor acted in bad faith, but it is necessary to
show the right to a fair trial was prejudiced.
[Citation.]"
(People v. Nguyen (1995) 40
Cal.App.4th 28, 35-36, 46 Cal.Rptr.2d 840.)
"What is crucial to a claim of prosecutorial
misconduct is not the good faith vel non of the
prosecutor, but the potential injury to the
defendant." (People v. Benson (1990) 52 Cal.3d
754, 793, 276 Cal.Rptr. 827, 802 P.2d 330.)
Defendant has not carried his burden in this regard.

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 112

ER 108

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 113 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 47 of 48
110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, -t'569, 110 Cal.Rptr .2d 210, **254)
The case of People v. Kirkes (1952) 39 Cal.2d 719,
249 P.2d l (Kirkes ), relied on by defendant for the
proposition that it is misconduct to argue to *570 the
jury facts which are not in evidence, is inapposite.
The .prosecutor in Kirkes implied a fact not in
evidence to connect the defendant to the crime.
Nothing in Ms. Constantinides's challenged
statements connected defendant to the charges.
We conclude the challenged comments did not
constitute prosecutorial conduct, and that, in any
event, the issue is waived.

Section 654
[41] Defendant contends he was improperly
sentenced to consecutive terms of 25 years to life for
both the Rosas murder conviction and for the
conspiracy to commit murder, in violation of section
654. · The contention is without merit.
Section 654, subdivision (a), provides: "An act or
omission that is punishable in different ways by
different provisions of law shall be punished under
the provision that provides for the longest potential
term of imprisonment, but in no case shall the act or
omission be punished under more than one
provision. An acquittal or conviction and sentence
under any one bars a prosecution for the same act or
omission under any other."

In Neal v. State of California (1960) 55 Cal.2d 11,
18-19, 9 Cal.Rptr. 607, 357 P.2d 839, the court,
interpreting this provision, stated: "The proscription
of section 654 against multiple punishment of a
single act, however, is not limited to necessarily
In People v.
included offenses.
[Citations.]
Knowles [1950] 35 Cal.2d 175, 187, 217 P.2d 1, we
stated: 'If a course of criminal conduct causes the
commission of more than one offense, each of which
can be committed without committing any other, the
applicability of section 654 will depend upon
whether a separate and distinct act can be
established as the basis of each conviction, or
whether a single act has been so committed that
more than one statute has been violated. If only a
single act is charged as the basis of the multiple
convictions, only one conviction can be affirmed,
notwithstanding that the offenses are not necessarily
included offenses. It is **255 the singleness of the
act and not of the offense that is determinative.' ...
[-J] Few if any crimes, however, are the result of a

Page36

single physical act.... [1] Whether a course of
criminal conduct is divisible and therefore gives rise
to more than one act within the meaning of section
654 depends on the intent and objective of the actor.
If all of the offenses were incident to one objective,
the defendant may be punished for any one of such
offenses but not for more than one. 11
With respect to conspiracy, the rule was well
summarized in People v. Ramirez (1987) 189
Cal.App.3d 603, 615-616, 236 Cal.Rptr. 404 (fn.
omitted), as follows: "Because of the prohibition
against multiple punishment in section *571 654, a
defendant may not be sentenced 'for conspiracy to
commit several crimes and for each of those crimes
where the conspiracy had no objective apart from
those crimes. If, however, a conspiracy had an
objective apart from an offense for which the
defendant is punished, he may properly be sentenced
for the conspiracy as well as for that offense.'
[Citations.] Thus, punishment for both conspiracy
and the underlying substantive offense has been held
impermissible when the conspiracy contemplated
only the act performed in the substantive offense
[citations], or when the substantive offenses are the
means by which the conspiracy is carried out.
[Citation.] Punishment for both conspiracy and
substantive offenses has been upheld when the
conspiracy has broader or different objectives from
the specific substantive offenses. [Citations.]"
Here, there is strong evidence that the NF, of
which defendant was a member, conspired to kill
not only Rosas, but other persons as well, in
addition to the gang's overriding conspiracy
discussed ante.
We conclude the trial court did not err in not
applying section 654, and in sentencing defendant to
consecutive life terms for the Rosas murder and the
conspiracy to commit murder.

DISPOSITION
The judgment is affirmed.
BAMA'ITRE-MANOUKIAN and WUNDERLICH
, JJ., concur.
91 Cal.App.4th 506, 110 Cal.Rptr.2d 210, 00 Cal.
Daily Op. Serv. 6785, 2001 Daily Journal D.A.R.
8253

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 113

ER 109

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-1, Page 114 of 114
Case 5:03-cv-02930-EJD Document 22-1 Filed 05/25/05 Page 48 of 48
• '

i

110 Cal.Rptr.2d 210
(Cite as: 91 Cal.App.4th 506, j7l, 110 Cal.Rptr.2d 210t **255)

Page 37

END OF DOCUMENT

...
}

© 2005 Thomson/West. No Claim to Orig. U.S. Govt. Works.

App. 114

ER 110

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 45 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 86 of 140

App. 115

ER 151

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 46 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 87 of 140

App. 116

ER 152

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 47 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 88 of 140

App. 117

ER 153

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 48 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 89 of 140

App. 118

ER 154

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 49 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 90 of 140

App. 119

ER 155

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 50 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 91 of 140

App. 120

ER 156

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 51 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 92 of 140

App. 121

ER 157

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 52 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 93 of 140

App. 122

ER 158

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 53 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 94 of 140

App. 123

ER 159

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 54 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 95 of 140

App. 124

ER 160

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 55 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 96 of 140

App. 125

ER 161

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 56 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 97 of 140

App. 126

ER 162

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 57 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 98 of 140

App. 127

ER 163

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 58 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 99 of 140

App. 128

ER 164

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 59 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 100 of 140

App. 129

ER 165

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 60 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 101 of 140

App. 130

ER 166

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 61 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 102 of 140

App. 131

ER 167

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 62 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 103 of 140

App. 132

ER 168

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 63 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 104 of 140

App. 133

ER 169

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 64 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 105 of 140

App. 134

ER 170

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 65 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 106 of 140

App. 135

ER 171

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 66 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 107 of 140

App. 136

ER 172

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 67 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 108 of 140

App. 137

ER 173

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 68 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 109 of 140

App. 138

ER 174

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 69 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 110 of 140

App. 139

ER 175

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 70 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 111 of 140

App. 140

ER 176

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 71 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 112 of 140

App. 141

ER 177

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 72 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 113 of 140

App. 142

ER 178

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 73 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 114 of 140

App. 143

ER 179

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 74 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 115 of 140

App. 144

ER 180

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 75 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 116 of 140

App. 145

ER 181

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 76 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 117 of 140

App. 146

ER 182

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 77 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 118 of 140

App. 147

ER 183

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 78 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 119 of 140

App. 148

ER 184

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 79 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 120 of 140

App. 149

ER 185

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 80 of 280
Case 5:03-cv-02930-EJD Document 101 Filed 05/25/05 Page 121 of 140

App. 150

ER 186

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 81 of 280
Case 5:03-cv-02930-EJD Document 109 Filed 05/25/05 Page 4 of 140

App. 151

ER 187

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 82 of 280
Case 5:03-cv-02930-EJD Document 109 Filed 05/25/05 Page 32 of 140

App. 152

ER 188

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 83 of 280
Case 5:03-cv-02930-EJD Document 109 Filed 05/25/05 Page 33 of 140

App. 153

ER 189

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 84 of 280
Case 5:03-cv-02930-EJD Document 87 Filed 05/25/05 Page 4 of 74
1

INT.

SUPERIOR COURT OF THE ST.

~

OF CALIFORNIA

2

IN AND FOR THE COUNTY OF SANTA CLARA

3

BEFORE THE HONORABLE KEVIN J. MURPHY, JUDGE

4

DEPARTMENT NO. 28

5

---000---

6

PEOPLE OF THE STATE
OF CALIFORNIA,

7

PLAINTIFF,
8

-vs-

9

10

EDWARD VARGAS,
DEFENDANT.

_______________

)
)
)
)
)
)
)
)
)
)

NO. 156285

11

12
13
14

---000---

REPORTER'S TRANSCRIPT OF PROCEEDINGS

15

JUNE 18. 1997

16

---000---

17
18
19
20
21
22

23
24

25
26
27
28

OFFICIAL COURT REPORTERS:

BEATRICE S. VALDIVIA, C.S.R.
CERTIFICATE NO. 6610
JOANE. SCHAFER, C.S.R.
CERTIFICATE NO. 6053
---000---

BEATRICE S. VALDIVIA, C.S.R. 6610

App. 154

ER 190

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 89 of 280
Case 5:03-cv-02930-EJD Document 87-1 Filed 05/25/05 Page 29 of 48

19463
1

CRIMES IN OUR CASE RANGE OBVIOUSLY FROM HERRERA TO VALLES TO

2

ROSAS TO BACA TO GUZMAN, ALL CRIMES FOR WHICH THERE WAS A

3

CONSPIRACY TO COMMIT.

4

NOW, YOU DON'T NEED TO NECESSARILY BELIEVE THAT, FOR

5

EXAMPLE, THERE WAS A SUBJECT CRIME OF PERHAPS MR. GUZMAN,

6

THE FELLOW ON DALE DRIVE.

7

TARGET CRIMES WOULD BE OTHER PEOPLE, PERHAPS THAT THERE WAS

8

A SUBJE_CT CRIME OF TONY HERRERA, FOR EXAMPLE, BECAUSE

9

EVERYBODY WAS GETTING TOGETHER TO GO AFTER TONY HERRERA.

10

PERHAPS YOU WOULD FIND THAT THE

CURIOUS ABOUT WHO MIGHT BE THE SUBJECTS OF THE TARGET

11

CRIME OF MURDER.

12

AFTER HIM, VARGAS IN PARTICULAR.

13

GREEN LIGHT ISSUED FROM PELICAN BAY ON CHAVEZ.

14

INDEED GOT PERMISSION, WANTED THE CONTRACT.

15

LOUIE CHAVEZ WAS ONE.

THEY WERE GOING

APPARENTLY THERE WAS A
VARGAS

RONNIE SHELTON LATER TRIED TO IMPLEMENT THAT SAME

16

SUBJECT CRIME.

THERE WERE OTHERS.

THERE WAS GEORGE BOULDT,

17

REMEMBER PONCHE.

18

JASSO WHO OPENLY GETS SHOT OUTSIDE OF J.P.'S.

19

ESPARZA.

20

WAS APPARENTLY HAVING A SEXUAL RELATIONSHIP WITH VARGAS'

21

WIFE TAMMY.

THERE WAS ALFONSO URANGO.

THERE WAS BETO
THERE'S JOCKO

THAT WAS THE MAN WHO VARGAS DIDN'T LIKE BECAUSE HE

NOW, FOR PURPOSES OF THIS TRIAL NO ONE OF THE

22
23

DEFENDANTS IS GUILTY OF THE UNDERLYING TARGET CRIME UNLESS

24

HE IS ACTIVELY INVOLVED.
NOW, THAT MIGHT SEEM A LITTLE CONFUSING, BUT CONSIDER

25
26

THIS.

ONE THING, AND I'LL MENTION IT LATER, BUT I'LL

27

MENTION IT HERE TOO, LOPEZ IS NO LONGER CHARGED IN THE ROSAS

28

AND IN THE BACA HOMICIDES.

WHEN THE ORIGINAL INDICTMENT WAS

JOANE. SCHAFER, CSR NO. 6053

App. 155

ER 195

Case:
02/12/2020,Document
ID: 11595702,
DktEntry:
27-2, Page
Page 498ofof130
280
Case18-15708,
5:03-cv-02930-EJD
85 Filed
05/25/05

·--------~·-----------.

i,

1

IN -· .4E SUPERIOR COURT OF THE S'.1ATE OF CALIFORNIA

2

IN AND FOR THE COUNTY OF SANTA CLARA

3

BEFORE THE.HONORABLE KEVIN J. MURPHY, JUDGE

4

DEPARTMENT NO. 28

5

---000---

6

PEOPLE OF THE STATE
OF CALIFORNIA,

7

PLAINTIFF,
8

-vs-

9
10

EDWARD VARGAS,
DEFENDANT.

11

---------------

)
)
)
)
)
)
)
)
)
)

NO. 156285

12
---000---

13
14

REPORTER'S TRANSCRIPT OF PROCEEDINGS

15

JUNE 12. 1997

16

---000---

17
18
19
20
21
22
23
24
25
26
27
Q8

OFFICIAL COURT REPORTERS:

BEATRICE S. VALDIVIA, C.S.R.
CERTIFICATE NO. 6610
JOANE. SCHAFER, C.S.R.
CERTIFICATE NO. 6053
---000---

BEATRICE S. VALDIVIA, C.S.R. 6610

App. 156

ER 204

Case: 18-15708, 02/12/2020, ID: 11595702, DktEntry: 27-2, Page 99 of 280
Case 5:03-cv-02930-EJD Document 85 Filed 05/25/05 Page 125 of 130

19208
1

HAVE CONCURRENT CONVICTIONS.
THE COURT:

2

WELL, THE SAME COULD BE SAID, AND I

3

KNOW MR. CONSTANTINIDES IS ARGUING TO THE CONTRARY, SAME

4

COULD BE SAID CONCERNING A.D.W.'S.
MS. CONSTANTINIDES:

5

TRUE.

I SUPPOSE THE PEOPLE

6

DON'T HAVE AS MUCH OF AN INTEREST IN THE SENTENCING OF THOSE

7

DETERMINATE CRIMES OR CRIMES THAT CARRY A DETERMINATE

8

SENTENCE.
MR. PROVINI:

9

THAT COULD ALWAYS BE SAID IN ANY

10

CASE.

11

SENTENCING IS OFTEN MADE BY DEFENSE, SOMETIMES ACCEPTED AND

12

SOMETIMES OBJECTED TO ACCORDING TO THE FACTS.

13

CALLS FOR THIS COURSE OF SENTENCING.

14

AN ARGUMENT WHETHER IT'S 654 AT THE TIME OF

MR. MELOLING:

I THINK THAT

USING THE SAMPLE OF MR. VARGAS AND

15

MS. CONSTANTINIDES REFERS TO THAT 654 PROBLEM, MR. VARGAS

16

OBJECTS TO ANY·REFERENCE TO A CONSPIRACY TO MURDER ALFONSO

17

URANGO OR JASON VASQUEZ WHERE THERE WAS NO EVIDENCE BEFORE

18

THE GRAND JURY WITH REFERENCE TO THOSE ALLEGATIONS NOR WAS

19

THERE ANY SPECIAL -- WAS THERE ANY OVERT ACT ALLEGED IN THE

20

INDICTMENT WITH REFERENCE TO THOSE.

21

WE HEARD·WAS DURING THE COURSE OF THE TRIAL FROM JERRY

22

SALAZAR AND PERHAPS ONE OTHER WITNESS.

23

IN THE POSITION WHERE HE COULD PREPARE- A DEFENSE WITH

24

REFERENCE TO THOSE ALLEGATIONS SINCE THEY DIDN'T OCCUR UNTIL

25

THE TRIAL WAS WELL IN PROGRESS.

26

SPECIFIC CHARGES AS OBJECT CRIMES OF THE CONSPIRACY ARE

27

CERTAINLY UNFAIR AS TO MR. VARGAS.

28

THE COURT:

AND THE ONLY EVIDENCE

MR. VARGAS WAS NOT

SO ANY REFERENCE TO THOSE

ALL RIGHT.

JOANE. SCHAFER, CSR NO. 6053

App. 157

ER 205

